No. ___________
________________________
IN THE SUPREME COURT OF THE UNITED STATES
________________________
ARNOLD COUNCIL,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
________________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
________________________
MOLLY ARMOUR
Counsel of Record
Law Office of Molly Armour
4050 N. Lincoln Avenue
Chicago, IL 60604
(773) 746-4849
armourdefender@gmail.com

INDEX TO APPENDIX

APPENDIX A

Court of Appeals Opinion Affirming Judgment
(Aug. 28, 2020) ................................................................. App. 1

APPENDIX B

District Court Judgment and Commitment
(Sept. 6, 2017) ................................................................ App. 84

APPENDIX C

District Court Order on Motion for Judgment of Acquittal
(Corrected) (Aug. 8, 2017).............................................. App. 88

APPENDIX D

District Court Order Denying Motion to Dismiss
(Sept. 6, 2016) .............................................................. App. 202

APPENDIX E

District Court Oral Ruling Denying Motion to Dismiss
(Sept. 2, 2016) .............................................................. App. 205

APPENDIX F

Court of Appeals Order Denying En Banc Review
(Feb. 1, 2021) ................................................................ App. 208

Appendix A

Case: 17-1650

Document: 150

Filed: 08/28/2020

Pages: 83

In the

United States Court of Appeals
For the Seventh Circuit
____________________
Nos. 17‐1650, 17‐2854, 17‐2858, 17‐2877, 17‐2899, 17‐2917,
17‐2918, 17‐2931, 17‐3063, & 17‐3449
UNITED STATES OF AMERICA,
Plaintiff‐Appellee,
v.
BYRON BROWN, et al.,
Defendants‐Appellants.
____________________
Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division.
Nos. 13 CR 288 & 13 CR 774 — John J. Tharp, Jr., Judge.

____________________
ARGUED JUNE 3, 2020 — DECIDED AUGUST 28, 2020
____________________
Before SYKES, Chief Judge, and WOOD and ST. EVE, Circuit
Judges.
WOOD, Circuit Judge. This case oﬀers a window into the vi‐
olent and ruthless world of the Hobos street gang, which op‐
erated in Chicago from 2004 to 2013. With the credo, “The

App.000001

Case: 17-1650

Document: 150

Filed: 08/28/2020

2

Pages: 83

Nos. 17‐1650 et al.

Earth is Our Turf,” the Hobos worked to build their street rep‐
utation and control certain areas on Chicago’s south side. Ten
gang members were charged and convicted for violations of
the Racketeer Inﬂuenced and Corrupt Organizations (RICO)
Act, among other crimes. Nine of those defendants have
joined in the present appeals: Byron Brown, Gabriel Bush,
Gregory Chester, Arnold Council, William Ford, Rodney
Jones, Paris Poe, Derrick Vaughn, and Stanley Vaughn. We
ﬁnd no reversible error in the convictions for any of the de‐
fendants. Nor do we ﬁnd any error in any of the sentences,
except for Chester’s, which must be revisited.
I
A
The defendants now before us were the core group that
formed the Hobos. Although the Hobos did not have a struc‐
ture as ﬁrmly hierarchical as that found in many gangs, it did
have a leader (Chester) and senior members (Council, Bush,
and Poe). Most members had roots in other gangs, such as the
Gangster Disciples (GDs) and Black Disciples (BDs).
We need not recount all of the Hobos’ multifarious crimi‐
nal activities. We focus instead on the speciﬁc incidents the
government emphasized at trial. Where necessary, we include
further details. Generally speaking, those activities fell into
three broad categories: drug traﬃcking, murder (including at‐
tempted murder), and robbery.
Drug Traﬃcking. The Hobos ran many drug lines through‐
out Chicago’s south side. Defendant Bush managed two her‐
oin lines, known as “Cash Money” (identiﬁable by the bag‐
gies’ green dollar signs) and “X‐Men” (identiﬁable by the red
Xs on the baggies). Ford and others sold the Cash Money line

App.000002

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

3

at 47th Street and Vincennes Avenue, and Hobo‐associate
Kevin Montgomery sold Cash Money at 51st Street and Mar‐
tin Luther King Drive. Members of another gang known as
Met Boys sold X‐Men at 51st Street and Calumet Drive. Bush
also had a drug line at the Ida B. Wells housing project.
Council and other Hobos oversaw drug lines at the Robert
Taylor Homes, selling “Pink Panther” marijuana and crack co‐
caine (so named for the Pink Panther logo on their baggies).
Derrick Vaughn (to whom we refer as Derrick, to diﬀerentiate
him from his brother and co‐defendant, to whom we refer as
Stanley) sold cocaine at 47th and Vincennes. The Hobos also
supplied drugs to each other: Council provided marijuana
and crack cocaine to various Hobos, and Chester supplied
heroin.
Murders and Attempted Murders. The Hobos liberally used
violence to retaliate against rival gangs, harm people who co‐
operated with law enforcement, and defend their drug traf‐
ﬁcking territory. The Hobos had long‐running rivalries with
several other gangs, including the BDs and associated BD fac‐
tions such as New Town and Fifth Ward, the Row GDs, and
the Gutterville Mickey Cobras. These rivalries precipitated
numerous shootings.
For example, in April 2006, Fifth Ward BD Cordale Hamp‐
ton and his uncle were driving when they were shot at by a
passenger in a car driven by Stanley. Both were hit—Hamp‐
ton on his neck, side, leg, and arm, and his uncle on his head—
but both survived. Two months later, in June 2006, Chester
was leaving his girlfriend’s apartment, which was located in
the New Town BDs’ territory, when he was shot (amazingly
not fatally) 19 times. In September 2006, occupants of a car

App.000003

Case: 17-1650

4

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

shot at Chester while he was at a southside car wash. The bul‐
lets struck him but did not kill him, and Poe ﬁred back at the
car to protect Chester. Chester, believing the BDs were re‐
sponsible for these shootings, put out a $20,000 bounty on the
leader of the New Town BDs, Antonio Bluitt. The bounty,
however, did not intimidate Bluitt. Instead, Bluitt announced
a retaliatory bounty on Chester and Council, sparking more
violence.
In February 2007, Derrick was at a local Hobos hangout, a
barbershop, when he saw Fifth Ward BD Devin Seats outside
a nearby shop. Derrick opened ﬁre, hitting Seats multiple
times. In June 2007, while riding in a car with Ford, Council,
and Chad Todd (a Hobo‐turned‐cooperator), Bush shot at
Bluitt‐associate Andre Simmons and Simmons’s cousin Dar‐
nell. He hit them several times, causing Andre to lose an eye.
Later that month, Bush, Todd, and the Vaughn brothers shot
New Town BD Jonte Robinson nine times as he was walking
into a daycare center to pick up his son.
In July of the same year, Bush, Ford, and Todd spotted sev‐
eral teenagers they thought were Fifth Ward BDs. Bush and
Ford shot the teenagers, striking one of them in the face. The
Hobos were mistaken: the victims had no gang aﬃliation. A
month later, Council and Bush shot New Town BD Eddie
Jones.
In September 2007, Bush, Council, Derrick, Ford, Stanley,
and others made good on Chester’s bounty by killing Bluitt
and Fifth Ward BD Gregory Neeley in a drive‐by ambush.
Bluitt, Neeley, and others were sitting in a Range Rover after
leaving a funeral when the attackers drove by in a four‐car
caravan, ﬁring at the Range Rover. That same month, Bush

App.000004

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

5

and Council killed Terrance Anderson, who managed a com‐
peting drug line. Bush and Council shot Anderson ﬁve times
while he was attending a reunion party for the Robert Taylor
Homes.
Rival gang members were not the Hobos’ only targets.
They also retaliated against cooperators. The trial evidence
highlighted two such victims—Wilbert Moore and Keith Dan‐
iels—both of whom the defendants killed because of their
work for law enforcement.
Moore dealt drugs in the Ida B. Wells housing projects. In
2004, he started cooperating with the Chicago Police Depart‐
ment (CPD). Information he provided led to the search of an
apartment from which Council supplied crack cocaine. Dur‐
ing the search, CPD oﬃcers seized cocaine, crack cocaine, her‐
oin, cannabis, and ﬁrearms from the apartment. Council ﬁg‐
ured out that Moore was the informant.
In January 2006 Council and Poe, with Bush’s assistance,
killed Moore. Bush spotted Moore’s car parked outside of a
barbershop and made a phone call. Council and Poe quickly
arrived on the scene. As Moore left the barbershop, Poe ﬁred
at him from Council’s car. Moore attempted to ﬂee, but he
tripped in a nearby vacant lot, allowing Council and Poe to
catch up to him. Poe immediately shot him in the face.
Daniels was Council’s brother and a Hobo. In 2011 he be‐
gan providing information about the Hobos to law enforce‐
ment. He also participated in three controlled buys of heroin
from Chester and another Hobo, Lance Dillard. Suspecting
something, the Hobos decided to silence him. Ford sneaked
into Daniels’s apartment, pulled out a gun, and told Daniels
to take a ride with him. Daniels refused and, soon after, the

App.000005

Case: 17-1650

6

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

FBI temporarily relocated him. But that did not prove to be
enough.
On April 4, 2013, Daniels testiﬁed about the Hobos and his
controlled buys before a federal grand jury. A week later,
Chester was arrested on a criminal complaint that alleged that
Chester distributed heroin to Daniels. Chester told the arrest‐
ing agents that he knew Daniels was the informant. Shortly
after Chester’s arrest, Poe cut oﬀ his electronic monitoring
bracelet, and on April 14, 2013, Poe murdered Daniels in front
of Daniels’s girlfriend and children.
Robberies. The Hobos frequently conducted robberies,
home invasions, and burglaries. A few vivid examples suﬃce.
At a nightclub in June 2006, Poe robbed NBA basketball
player Bobby Simmons of a $100,000 necklace. A car chase fol‐
lowed, and Poe shot at Simmons’s car from Council’s car.
Later in 2006, Brown, Jones, and a Met Boy entered a drug
dealer’s home and shot, punched, and stabbed him for infor‐
mation about the location of his drugs. They took $20,000
worth of marijuana and gave some to Council.
In 2007, Bush, Council, and Stanley robbed a heroin sup‐
plier. In July 2008, Brown and Jones burglarized a home.
While ﬂeeing from police, they crashed into a car driven by
Tommye Ruth Freeman, an elderly woman, killing her. In No‐
vember 2008, Council and three other Hobos robbed a cloth‐
ing store called Collections, stealing merchandise worth
$17,488.
We could go on, but the picture is clear: the Hobos were a
violent, dangerous gang, and each of the defendants in this
case was an active participant in its activities.

App.000006

Case: 17-1650

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

7
B

1

Derrick

Ford

Poe

1 RICO Conspiracy (18 U.S.C.
§1962(d))
Murder of Moore in Aid of
2 Racketeering (18 U.S.C.
§1959(a)(1))
Murder of Anderson in Aid of
3 Racketeering (18 U.S.C.
§1959(a)(1))
Murder of Bluitt in Aid of
4 Racketeering (18 U.S.C.
§1959(a)(1))

Council

Charge (Violated Statute)

Chester

#

Bush

Before we proceed to the defendants’ many contentions,
we oﬀer a brief overview of the charges. Of the nine defend‐
ants involved in these appeals, three pleaded guilty to one
count of RICO conspiracy, in violation of 18 U.S.C. § 1962(d)
(Count 1): Brown, Jones, and Stanley. Brown also pleaded
guilty to one count of murder in aid of racketeering, in viola‐
tion of 18 U.S.C. § 1959(a) (Count 4), for the murder of Eddie
Moss. The remaining six defendants proceeded to trial. The
following chart shows who among the latter group was con‐
victed and for what:

G1

G

G

G

G

G

G

G

G

G

The letter “G” indicates guilty; “NG” indicates not guilty.

App.000007

Case: 17-1650

Document: 150

8
Murder of Neeley in Aid of
5 Racketeering (18 U.S.C.
§1959(a)(1))
Obstruction of Justice through
6 Murder of Daniels
(18 U.S.C. §§1503(a) & (b)(1))
Use of Firearm During Crime
7 of Violence (Robbery of Collec‐
tions) (18 U.S.C. §924(c))
8 Possession of Firearm by a
Felon (18 U.S.C. §922(g))
Possession with Intent to Dis‐
9 tribute Marijuana (21 U.S.C.
§841(a)(1))
Possession of Firearm in Fur‐
10 therance of Drug Traﬃcking
Crime (18 U.S.C. §924(c))

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

G

G

G
G
G

NG

The trial lasted about four months, and more than 200 wit‐
nesses testiﬁed. The jury found all six defendants guilty of all
counts, except for the charge against Ford in Count 10. The
district court sentenced all the defendants to lengthy terms in
prison.
Eight of the defendants have appealed from their convic‐
tions, their sentences, or both; defendant Jones’s attorney has
ﬁled a no‐merit brief pursuant to Anders v. California, 386 U.S.
738 (1967). We have sorted the myriad arguments before us
into ﬁve diﬀerent major headings: Section II addresses the
suﬃciency of the evidence presented at trial; Section III tack‐
les various evidentiary challenges; Section IV addresses sen‐
tencing contentions; Section V discusses Brown’s individual

App.000008

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

9

arguments; and Section VI addresses the Anders brief for de‐
fendant Jones.
II
We begin with the defendants’ challenges to the suﬃ‐
ciency of the evidence. Such challenges face a high hurdle: we
aﬀord great deference to jury verdicts, view the evidence in
the light most favorable to the jury’s verdict, and draw all rea‐
sonable inferences in the government’s favor. United States v.
Moreno, 922 F.3d 787, 793 (7th Cir. 2019). We may set aside a
“jury’s verdict on the ground of insuﬃcient evidence only if
no rational trier of fact could have agreed with the jury.”
Cavazos v. Smith, 565 U.S. 1, 2 (2011).
A. Count 1 – RICO Conspiracy
1. Joint Arguments
Chester, Council, Bush, Derrick, Ford, and Poe all argue
that there was insuﬃcient evidence to support the jury’s
guilty verdicts on Count 1. As we noted before, Count 1
charged these six under RICO with conspiring to engage in a
racketeering enterprise known as the Hobos, in violation of 18
U.S.C. § 1962(d). To prove a RICO conspiracy, “the govern‐
ment must show (1) an agreement to conduct or participate in
the aﬀairs (2) of an enterprise (3) through a pattern of racket‐
eering activity.” United States v. Olson, 450 F.3d 655, 664 (7th
Cir. 2006); see Salinas v. United States, 522 U.S. 52, 61–66 (1997).
The defendants contend that there was insuﬃcient evidence
that the Hobos were an enterprise.
Under the RICO statute, an “enterprise” includes “any in‐
dividual, partnership, corporation, association, or other legal
entity, and any union or group of individuals associated in

App.000009

Case: 17-1650

10

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

fact although not a legal entity.” 18 U.S.C. § 1961(4). An asso‐
ciation‐in‐fact includes any “group of persons associated to‐
gether for a common purpose of engaging in a course of con‐
duct.” Boyle v. United States, 556 U.S. 938, 946 (2009). The Su‐
preme Court reads this deﬁnition broadly. An association‐in‐
fact under RICO need not have any structural features beyond
“a purpose, relationships among those associated with the en‐
terprise, and longevity suﬃcient to permit these associates to
pursue the enterprise’s purpose.” Id.
The defendants argue that the government failed to prove
the necessary agreement. They admit that they came together
at diﬀerent times to engage in crimes, but they contend that
they were no more than “independent participants involved
in unrelated criminal activity operating [without a] common
purpose.” They emphasize that the Hobos had no rules. Alt‐
hough most gangs allegedly have initiations, treasurers, dues,
and manifestos, the Hobos did not bother with those formali‐
ties.
The defendants also dispute the government’s contention
that the Hobos’ loyalty and protection of one another was in‐
dicative of common purpose. The evidence on which the gov‐
ernment relies, they argue, showed only that this bond existed
in certain individual cases, rather than being a feature for all
members of the gang. For example, while Chad Todd initially
claimed that the Hobos protected one another, he later admit‐
ted that he was willing to kill only for Bush and not for any
other Hobo. Todd also testiﬁed that at one point Bush wanted
to kill the Vaughn brothers for attempting to extort him.
Finally, the defendants assert that the government failed
to prove that the Hobos had an internal hierarchy, and with‐

App.000010

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

11

out any pecking order, there could be no coordination or com‐
mon purpose. The government labeled Chester as the leader
of the Hobos, but Todd testiﬁed that he never saw Chester
send money down to any members of the gang below him,
and he never saw people send money up to Chester. Each of
the six of them, the defendants argue, did no more than en‐
gage in “[a]ccidentally parallel” criminal activity that hap‐
pened occasionally to overlap; they shared no coordinated
purpose.
Perhaps that is one way to view the evidence, but it is not
the only one. The defendants’ course of conduct, “viewed in
the light most favorable to the verdict, was neither independ‐
ent nor lacking in coordination.” United States v. Hosseini, 679
F.3d 544, 558 (7th Cir. 2012). Together the defendants worked
to control an exclusive territory. They earned money through
drug dealing and robberies, protected each other, and killed
rival gang members and others who posed threats, including
government cooperators.
Many witnesses testiﬁed that the gang was a distinct, iden‐
tiﬁable group. We name a few. Jones and Todd (Hobos who
became cooperators) conﬁrmed that an organization called
the Hobos existed and they were members. Todd considered
Derrick, Stanley, and Ford to be Hobos, and Chester to be the
leader of the Hobos. He also said that Council, Poe, and Bush
each had a “position of authority.” The jury reasonably could
see this as evidence of a hierarchy, albeit a loose one. Jones
testiﬁed that Council, Bush, Derrick, Ford, and Chester,
among many others, were also Hobos. Bland and Montgom‐
ery described the Hobos as a gang. Cashell Williams, a Fifth
Ward BD, testiﬁed that his gang had a rivalry with the Hobos.

App.000011

Case: 17-1650

12

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Additional evidence showed that the Hobos were not just
a group of criminals acting individually. They protected each
other and retaliated on behalf of one another. For example, all
the trial defendants except for Poe were involved in the mur‐
ders of Bluitt and Neeley. In so doing, they were carrying out
Chester’s orders. In addition, Bush, Council, Ford, and Todd
shot the Simmonses, and Bush, Derrick, Todd, and others shot
Jonte Robinson. The jury was entitled to conclude that the Ho‐
bos shot the BDs to retaliate against a rival gang and to control
Hobos territory.
And this was not all. Many other crimes illustrated the re‐
lationships among the Hobos and their network. Council and
Poe murdered Moore based on a tip from Bush. Council and
Bush murdered Anderson. Council and Poe robbed Bobby
Simmons. And the Hobos shared weapons to commit these
crimes.
The jury also heard evidence about the defendants’ coop‐
erative drug traﬃcking. As we noted earlier, Bush ran the
Cash Money and X‐Men drug lines, supplying the drugs and
receiving the proceeds. Council operated the Pink Panther
drug line. They did not run these drug lines alone. Ford man‐
aged certain Cash Money drug spots, and Montgomery col‐
lected money for Bush. Bush and Council occasionally used
the same apartment to package drugs. This was evidence
showing that the Hobos’ drug activity was interconnected
and a source of income for the gang.
The Hobos also showed their unity through tattoos and
hand signs. Chester’s tattoo says “Hobo” and “The Earth Is
Our Turf,” with images of ﬁrearms, a bag of money, and two
buildings. Poe has Hobos tattoos. One says “Cheif [sic] Hobo”
and the other says “The Earth Is Our Turf” and “Hobo.”

App.000012

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

13

Ford’s tattoo says “hobo 4Life.” Poe, Chester, and other Ho‐
bos also stitched “Hobo” into their cars’ headrests.
Although there is much more evidence to the same eﬀect
in the record, we have no need to rehearse all of it. Bearing in
mind the standard of review for challenges to the suﬃciency
of the evidence, we have no trouble concluding that the evi‐
dence before this jury was suﬃcient to establish a RICO en‐
terprise.
2. Derrick Vaughn
Derrick contends that even if there was a Hobos enter‐
prise, he was not a member of it and he did not conspire with
the Hobos. He concedes that he sold a small quantity of drugs
and was present at the scene of several Hobos crimes, but he
insists that there was no evidence that he was a participant
(rather than a mere bystander) in those crimes.
In order to support Derrick’s conviction on Count 1, the
government was required to prove “that another member of
the enterprise committed ... two predicate acts and that [Der‐
rick] knew about and agreed to facilitate the scheme.” United
States v. Faulkner, 885 F.3d 488, 492 (7th Cir. 2018) (internal
quotation marks omitted). “It did not … need to show that he
was personally involved in two or more of the predicate acts.”
Id.
The record contains ample evidence of Derrick’s partici‐
pation in the Hobos’ racketeering activity. For example, in
recorded conversations between Derrick and Courtney John‐
son (a government cooperator), Derrick admitted to Johnson
that he participated in the Bluitt and Neeley murders. He de‐
scribed hearing his co‐conspirators’ gunshots and mentioned
that he saw the victims dead. Even though Derrick may not

App.000013

Case: 17-1650

14

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

speciﬁcally have uttered the word “Hobos,” he nevertheless
revealed his ties to and knowledge of the Hobos when he
commented that the purpose of the murders was to retaliate
on Chester’s behalf because the BDs earlier had shot Chester.
Derrick also described shooting Seats: “So I come from
around the gate I boom, boom, boom[.]” And Derrick dis‐
cussed the Hobos’ attempts to eliminate the BD’s competing
drug traﬃcking: “[T]hey had a line down there … we put a
stop to that.”
Several of Derrick’s co‐defendants also implicated him. In
a recorded conversation, Ford mentioned Derrick’s involve‐
ment in the Bluitt and Neeley murders. Jones similarly testi‐
ﬁed that Derrick was a passenger in Ford’s car during the
drive‐by murders of Bluitt and Neeley and that Derrick was
armed.
The jury was entitled, based on the evidence before it, to
conclude that Derrick shot Seats as part of the conspiracy.
Todd testiﬁed that he saw Derrick shoot Seats. Although Seats
himself did not see the shooter, Seats testiﬁed that he saw Der‐
rick’s Grand Prix near the barbershop where he was shot and
that Derrick had threatened to kill him earlier the same day.
Derrick emphasizes that Seats described their dispute as per‐
sonal and unrelated to their respective gang aﬃliations, and
so, in his view, the shooting could not have been part of a con‐
spiracy. But once again, the jury did not have to accept that
interpretation of the evidence. And this jury did not. There
was also a recorded conversation in which Derrick told John‐
son that he shot Seats after seeing Fifth Ward BDs near the
barbershop. The jury evidently credited this admission and
found that the shooting furthered the conspiracy. In sum,
Derrick’s individual attack on the suﬃciency of the evidence

App.000014

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

15

to support his conviction on Count 1 fares no better than the
collective argument.
B. Count 2 and Additional Findings – Moore’s Murder
Council and Poe were the only two defendants charged
with Moore’s murder. They both argue that there was insuﬃ‐
cient evidence to support their convictions on this Count,
which charged them with murdering Moore in aid of the Ho‐
bos racketeering conspiracy, in violation of 18 U.S.C.
§ 1959(a)(1). Bush also joins this argument insofar as it bears
on the jury’s special ﬁndings in Count 1 connecting him to
Moore’s murder. The jury made the Additional Findings that
the murder was committed “because Moore was a witness in
any prosecution or gave material assistance to the State of Il‐
linois in any investigation or prosecution, either against the
defendant or another person,” and that “[the murder] was
committed in a cold, calculated, and premeditated manner
pursuant to a preconceived plan, scheme, and design to take
a human life by unlawful means, creating a reasonable expec‐
tation that the death of a human being would result there‐
from.”
The record contains ample evidence that supports both
Council’s and Poe’s convictions and the Additional Findings.
Several witnesses implicated the three defendants. Kevin
Montgomery, who managed one of Bush’s drug lines, testi‐
ﬁed that he was in Bush’s car near 43rd Street and Langley
Avenue when he heard Bush say on his phone that “this blue
thing is out here,” referring to a blue car parked in front of the
barbershop. Montgomery also testiﬁed that a few minutes
later, Council and Poe pulled up in a Chevy Malibu. Mont‐
gomery saw Poe ﬁre a .40 caliber ﬁrearm from the back pas‐
senger window. Bush and Montgomery then left the scene.

App.000015

Case: 17-1650

16

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

That night, Bush reported to Montgomery that Moore had
been killed. Bush remarked, “I just seen that whip [car] out
there, you know. I wasn’t looking forward to that either. … So
I made that call.” He also told Montgomery that Council and
Poe “got” Moore, explaining that Council and Poe chased
Moore, Moore was “whipping” Council, and then Poe walked
up and shot him. Bush said they killed Moore because Moore
“sent the feds to [Council’s] crib” and they “found a half a
book [kilo] of coke and a chopper [assault riﬂe].”
People who lived in the surrounding area corroborated
this account. Alan Pugh lived in an apartment building on
Langley Avenue. Through a window he saw a Black man
“running for his life,” chased by another Black man as a red
Mitsubishi Galant drove parallel to them. The ﬁrst man ran
into a vacant lot, where he slipped near a van. The second was
“upon him almost instantly” and shot him in the head. A third
man got out of the red car, walked to the victim, and then the
two men “calmly” left in their car. Tiajuana Jackson, who
lived nearby, testiﬁed that she heard gunshots, ran down‐
stairs, and saw a maroon vehicle speeding east on 43rd Street
before making a left on Langley.
Oﬀering further support, Marcus Morgan, a Met Boy, tes‐
tiﬁed that, while housed together at Cook County Jail, Poe
told him that he killed Moore. Rodney Jones testiﬁed that
Council told him that Moore had sent the police to Council’s
house. And Poe told Jones that Moore was holding his hands
up, but Poe shot him anyway. Brian Zentmyer, Poe’s cellmate,
testiﬁed that Poe bragged about Moore’s murder and ex‐
plained that he killed Moore because Moore “turned state ev‐
idence on another Hobo,” Council.

App.000016

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

17

Physical evidence corroborated the witnesses’ testimony.
Casings were recovered near the barbershop and near
Moore’s body, suggesting that the shooting started near the
barbershop and continued into the vacant lot. A .40 caliber
cartridge was found near the blue car, corroborating Mont‐
gomery’s testimony about the type of weapon. Moreover,
toolmark analysis established that one of the guns used in
Moore’s murder had also been used in the shooting of
Cordale Hampton and his uncle—also a Hobos operation.
Council, Poe, and Bush argue that Montgomery’s and
Jones’s testimony was incredible as a matter of law. They
point to several inconsistencies. First, Montgomery described
Council’s car as a burgundy “boxed” Chevy Malibu, whereas
Pugh described a red Mitsubishi Galant. In addition, Mont‐
gomery originally stated that Bush was driving his own tan
Pontiac Bonneville, but then later he said that Chester owned
the car. Montgomery also testiﬁed that Bush had told him that
Poe shot and killed Moore after Moore and Council were
ﬁghting. Yet Pugh did not mention a ﬁght in his testimony. In
addition, the defendants point to discrepancies between
Montgomery’s and Pugh’s descriptions of the route Council
took in following Moore. They also note that while Jones tes‐
tiﬁed that Poe told him that he put his gun “up under a van”
to shoot Moore, no shell casings were found under the van.
The defendants urge that these inconsistencies, added to the
fact that Montgomery and Jones had “every incentive to
falsely tailor a story to ﬁt … law enforcement’s needs,” render
the testimony incredible as a matter of law.
Defendants overstate the problems. A determination that
testimony is incredible is reserved for extreme situations

App.000017

Case: 17-1650

18

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

where, for example, “it would have been physically impossi‐
ble for the witness to observe what he described, or it was im‐
possible under the laws of nature for those events to have oc‐
curred at all.” United States v. Conley, 875 F.3d 391, 400 (7th
Cir. 2017). Nothing of that magnitude exists here; we see only
ordinary failures to recall with speciﬁcity, or perhaps dissem‐
bling. We do not dispute the basic point that there were incon‐
sistencies among the witnesses’ accounts, but the jury was en‐
titled to decide which parts to credit and which to reject. As
the district court noted, “for all we know, the jurors did reject
the entire testimony of one or more of these witnesses, which
would still leave suﬃcient evidence to convict.” Moreover,
“[i]t is the jury’s job, and not ours, to gauge the credibility of
the witnesses and decide what inferences to draw from the
evidence.” United States v. Stevenson, 680 F.3d 854, 857 (7th Cir.
2012). “We do not second guess such determinations on ap‐
peal.” Id. The jury believed that the three defendants partici‐
pated in the murder of Moore, and they have given us no rea‐
son to question that decision.
Next, the defendants argue that even if they actually com‐
mitted the murder, the government failed to present suﬃcient
evidence that it was “for the purpose of … maintaining or in‐
creasing position in” the Hobos enterprise, as required under
18 U.S.C. § 1959(a)(1). The question here is whether there was
evidence permitting the jury to “infer that the defendant com‐
mitted his violent crime because he knew it was expected of
him by reason of his membership in the enterprise or that he
committed it in furtherance of that membership.” United
States v. DeSilva, 505 F.3d 711, 715 (7th Cir. 2007) (internal quo‐
tation marks omitted).

App.000018

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

19

The government’s theory was that Moore was murdered
because he cooperated with the authorities and was the (un‐
named) aﬃant on a search warrant for Council’s residence.
The defendants respond that there is no documentary evi‐
dence that supports this contention, and that the theory is
based entirely on the testimony of CPD Oﬃcer Edwin Utre‐
ras, who prepared the search warrant aﬃdavit. Moreover, the
defendants argue, even if Moore was the informant, there was
no evidence that Council knew this, nor any evidence that this
information was communicated to Poe or Bush. Finally, the
defendants say, even if we accept the government’s position
that Council knew that Moore was the informant, “at best the
government’s evidence established that the murder of Wilbert
Moore was committed for personal revenge.” The criminal
case that resulted from the search was dismissed well before
the murder, and so (they conclude) the only possible motive
for the murder would be revenge.
We begin with the defendants’ argument that there was
insuﬃcient evidence that Moore had cooperated against
Council. As the district court noted, this argument was “fully
vetted at a Franks [v. Delaware, 438 U.S. 154 (1978)] hearing on
the subject of whether the search warrant for Council’s apart‐
ment was based on false information.” The hearing estab‐
lished that “Moore had in fact acted as an informant and sup‐
plied the basis for the search warrant.” We see no reason to
overturn that assessment.
Next, contrary to the defendants’ contentions, there was
evidence that the Hobos knew that Moore had snitched on
Council. Montgomery testiﬁed that Bush told him Moore was
killed because Moore “sent the feds to [Council’s] crib,”
where they “found a half a book of coke and a chopper.”

App.000019

Case: 17-1650

20

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Council also told Jones that Moore sent the police to his house,
and Poe told Zentmyer that he killed Moore because Moore
“turned state evidence” on Council. The jury chose to credit
at least one of these witnesses. Moreover, although at the time
of Moore’s murder Council no longer faced charges based on
the search, there was ample evidence that the Hobos had an
interest in punishing cooperators and deterring further coop‐
eration. Personal revenge might have been a factor in Moore’s
demise, but a jury could reasonably ﬁnd that maintaining or
advancing their position in the Hobos was another.
Finally, the defendants argue that there was insuﬃcient
evidence that Moore’s murder was “committed in a cold, cal‐
culated and premeditated manner pursuant to a preconceived
plan, scheme and design.” Under Illinois law, ﬁrst‐degree
murder does not carry a life sentence unless certain aggravat‐
ing factors exist. Premeditation is one such factor. It requires
a “substantial period of reﬂection or deliberation.” People v.
Williams, 193 Ill. 2d 1, 31 (2000). That deliberation must take
place over “an extended period of time.” Id. at 37. The defend‐
ants argue that Moore’s murder does not satisfy that element,
because only a few minutes elapsed between when Bush
placed a call stating that the “blue thing is out here” and when
Council and Poe drove up and began shooting at Moore.
But there is no reason why we should limit the relevant
time to the period between Bush’s call and the shooting. A ra‐
tional jury could conclude that the group had hatched its plan
to murder Moore much earlier. Bush made a call referring
only to “the blue car,” yet Council and Poe knew just what he
meant. They showed up instantly and began shooting. Fur‐
thermore, the search of Council’s “crib” occurred about 18
months before Moore’s murder. This was enough to permit

App.000020

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

21

the jury to ﬁnd that Moore’s murder was cold, calculated, and
premeditated.
C. Count 3 – Anderson’s Murder
Count 3 alleged that Bush murdered Terrance Anderson
in aid of the racketeering enterprise, in violation of 18 U.S.C.
§ 1959(a). Bush argues, once again, that there was insuﬃcient
evidence to support the jury’s guilty verdict. Council joins
Bush in attacking the suﬃciency of the evidence for the jury’s
related special ﬁndings that Council’s and Bush’s racketeer‐
ing activity included the commission, or at least aiding and
abetting, of Anderson’s murder.
Bush does not challenge the ﬁnding that he shot Anderson
at the reunion party for the Robert Taylor Homes. He argues
instead that he did not have the requisite “intent to kill” An‐
derson. It is hard to take this point seriously, given the fact
that Bush pleaded guilty in state court to the second‐degree
murder of Anderson. There he stated under oath that he was
guilty of the charge that he “without lawful justiﬁcation, in‐
tentionally and knowingly shot and killed Terrance Anderson
while armed with a ﬁrearm, and that, at the time of the killing
[he] believed the circumstances to be such that if they existed
would justify or exonerate the killing under the principle [of
self‐defense], that his belief in this was unreasonable, and con‐
stitutes a violation of [second‐degree murder statute].” These
admissions easily support the ﬁnding that he intended to kill
Anderson.
Other evidence reinforces that ﬁnding. For instance, Jones
testiﬁed that Council told him that Council and Bush mur‐
dered Anderson: Council “grabbed [Anderson], slammed
him to the ground and hit him,” and then Bush “grabbed him

App.000021

Case: 17-1650

22

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

and slammed him and shot him.” Todd testiﬁed about several
conversations about Anderson he had with Bush. Bush told
Todd that Anderson was one of his rivals, because Anderson
sold drugs at the Ida B. Wells projects, where Bush also sold
drugs. Another time, Todd was sitting in a car with Bush,
Council, and Ford, when they saw Anderson walking on the
street. Ford suggested that Bush should shoot Anderson, but
Bush dismissed the idea because there were pole cameras in
the area. In addition, after Anderson shot Bush, Bush told
Todd that he had been “stalking” Anderson’s prison release
date so that he could kill him.
In a recorded conversation, Ford told Todd that one of the
Brown twins saw Bush kill Anderson. Kevin Montgomery tes‐
tiﬁed that Bush had told him about the Anderson murder.
Bush described how he caught Anderson oﬀ guard: he “crept
up through the bushes” where Anderson was dancing and
“started busting at [him].” When Anderson ran, Council be‐
gan “busting at him from the other direction.”
Anderson’s girlfriend conﬁrmed the hostility between
Bush and Anderson. She had seen Anderson shoot Bush in the
hand. Anderson’s brother attended the Robert Taylor reunion
party with Anderson. He saw Bush shooting a ﬁrearm (alt‐
hough he could not see the intended target), and then he saw
Bush and Council run and jump into a vehicle.
Physical evidence also supported these accounts. A base‐
ball hat containing Council’s DNA was recovered from the
scene. In addition, Anderson’s autopsy showed that bullets
entered from both his front and back, suggesting multiple
shooters.

App.000022

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

23

This evidence amply supports the jury’s ﬁnding that Bush
shot Anderson with the intent to kill him. In any event, an in‐
tent to kill is not essential to ﬁnd a ﬁrst‐degree murder under
Illinois law. A person commits ﬁrst‐degree murder if he in‐
tends to kill, intends to do great bodily harm to another per‐
son, knows that his acts would cause the death of another per‐
son, or knows that his acts create a strong probability of death.
720 ILCS 5/9‐1. Bush’s intentionally shooting at Anderson was
enough to allow the jury to ﬁnd that Bush knew, at a mini‐
mum, that his actions created a strong probability of Ander‐
son’s death. The evidence of Council’s involvement, summa‐
rized above, was also suﬃcient.
Bush and Council also argue that Bush did not kill Ander‐
son for the purpose of maintaining or increasing his position
within the Hobos enterprise. See DeSilva, 505 F.3d at 715. In‐
stead, they say, the evidence showed that Anderson and Bush
had personal animosities dating from an earlier incident in
which Anderson shot Bush. They postulate that there was no
evidence that the murder was related to the Hobos because
Bush was not carrying out an order.
A rational jury, however, could conclude that Bush killed
Anderson because Anderson was cutting into his drug sales
at the Ida B. Wells Homes, which Bush viewed as Hobos’ ter‐
ritory. Drug traﬃcking was a key source of revenue for the
Hobos, and controlling drug lines was crucial to maintaining
that income. Ample evidence supported this conclusion. An
explicit order is not required for a ﬁnding that the crime “was
expected of [Bush] by reason of his membership in the enter‐
prise or that he committed it in furtherance of that member‐
ship.” Id.

App.000023

Case: 17-1650

24

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Last, Council and Bush argue (as they did for Count 2) that
Anderson’s murder was not cold, calculated, and premedi‐
tated. They tactlessly state that “[s]hootings like the Anderson
murder occur in Chicago regularly. They involve personal
vendettas and crowded areas. There is nothing about this
murder that sets it [apart] from such ordinary shootings.”
The jury was not required to adopt such a cynical view.
Moreover, the government produced evidence allowing the
jury to ﬁnd that Anderson’s murder in particular was pre‐
meditated. Bush and Anderson had a long‐standing dispute
over drug territory, and Anderson shot Bush in 2005 as a re‐
sult of this dispute. Anderson was arrested, and Bush told
Todd that he was “stalking” Anderson’s prison‐release date
so that he could kill him. He was a man of his word: Bush
seized the opportunity to attack while Anderson was on a
weekend pass from a halfway house. Council, Bush, and Ford
had also talked about shooting Anderson, but Bush passed
over one chance because of the pole cameras in the area. The
jury reasonably concluded that Anderson’s murder was the
result of discussion and planning.
D. Counts 4 and 5 – Bluitt’s and Neeley’s Murders
Derrick argues that there was insuﬃcient evidence to sup‐
port the jury’s guilty verdicts on Counts 4 and 5, which
charged him with murdering Bluitt (Count 4) and Neeley
(Count 5) in aid of the racketeering enterprise, in violation of
18 U.S.C. § 1959(a)(1). Council, Bush, and Ford join Derrick in
arguing that the evidence was also insuﬃcient to support the
jury’s special ﬁndings that their racketeering activity included
the commission, or aiding and abetting, of Bluitt’s and
Neeley’s murders.

App.000024

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

25

Derrick concedes that he was present at the funeral when
the murders happened, but he denies that he participated in
them. The evidence at trial permitted the jury to ﬁnd other‐
wise. Cashell Williams, a Fifth Ward BD, testiﬁed that he at‐
tended the funeral with Bluitt, Neeley, and others. After they
paid respects, they got into Bluitt’s Range Rover, made a
U‐turn, and were idling when he heard Bluitt say “it’s on.”
Several cars then drove by, Williams heard gunshots, and
Bluitt and Neeley were fatally hit. Williams did not see the
shooters, but he saw Ford drive by shortly after the shooting.
In Derrick’s recorded conversations with cooperator John‐
son, Derrick described the murders. He told Johnson that the
murders were meant to retaliate against the BDs for shooting
Chester. He identiﬁed both the guns that he and Stanley car‐
ried and the cars and people involved. He also mentioned that
he tried to shoot at Bluitt and Neeley, but his gun jammed.
Jones testiﬁed that with Bush, the Vaughn brothers, Coun‐
cil, Ford, and others, he killed Bluitt and Neeley. Council had
pulled up to the spot where several Hobos were hanging out
and asked them if they had “poles,” meaning guns. He told
them that he knew where Bluitt was, mentioned the bounty
that Chester had placed on Bluitt, and stated that he was
“ready to kill for the money.” They told a Met Boy to get some
guns. Jones gave one to Brown’s twin, Brandon, and then got
in the car with Council and Brandon. They met up with Bush,
Ford, Derrick, and others in an alley. Once Bluitt was in his
car, Bush yelled “[g]o, go, go.” Council’s car was in front, with
Brandon in the front seat and Jones in the backseat. Bush was
in the second car; Stanley was in the third car; and Ford and
Derrick were in the fourth and ﬁnal car. Jones testiﬁed that he
saw Derrick shooting from Ford’s car. Jones received clothes

App.000025

Case: 17-1650

26

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

from Council as a reward, and Chester later arranged for
Dillard to give Jones heroin.
In recorded conversations, Ford told Todd about his par‐
ticipation in the murders. He mentioned that he expected a
reward, but Bush got oﬀended because he was “one of the
guys.” Todd also testiﬁed. He stated that in response to Ches‐
ter’s getting shot, he went with Bush to look for and kill Bluitt.
Chester oﬀered $20,000 for the kill, but the pair’s plan did not
work. Todd was out of town when the murders happened,
but he discussed them with Bush. Bush said he and other Ho‐
bos were in four cars and took turns shooting.
Physical evidence corroborated the testimony. A ﬁrearms
examiner testiﬁed that cartridge casings from the scene were
ﬁred by the same gun that was used to kill Daniels. In addi‐
tion, on the day of the murders, Council changed rental cars
twice, before and after the murders. The car he was driving
during the murders, a red sedan, was consistent with eyewit‐
ness testimony.
Despite all this evidence, Derrick argues that the govern‐
ment relied almost exclusively on the recorded conversations
between Derrick and Johnson, and he contends that in these
conversations he admitted only his presence, not his partici‐
pation in the murder. Derrick emphasizes that his gun did not
work, and so he could not have participated in the murders.
He also asserts that the only other evidence to establish his
guilt came from Jones, but he argues that Jones’s testimony
was “so vague, contradictory, and incredible that it could
never be found to support a verdict of guilt beyond a reason‐
able doubt by any rational jury.”

App.000026

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

27

The jury, however, was not required to credit Derrick’s as‐
sertion that his gun did not work. And even if it did, it could
reasonably ﬁnd that Derrick participated in the murders,
without shooting, on an accountability theory. Regardless of
whether he ﬁred the gun, Derrick took aﬃrmative steps in
furtherance of the murders by conducting surveillance before
the murders and serving as back‐up. A jury easily could ﬁnd
that he helped the other Hobos kill Bluitt and Neeley. In ad‐
dition, the jury was entitled to credit Jones’s testimony. Once
again, any inconsistencies in that testimony were for the jury
to resolve. See Stevenson, 680 F.3d at 857.
The defendants also contend that the evidence of the Bluitt
and Neeley murders was insuﬃcient to support the jury’s
special ﬁndings. Some witnesses did not see Council, Bush,
and Ford at the crime scene. Others, who did place them
there, allegedly provided inconsistent testimony. And de‐
fendants again urge that Todd and Jones were unreliable.
Once again, bearing in mind the standard of review, we
ﬁnd the evidence suﬃcient to support the ﬁndings relating to
Council, Bush, and Ford. Jones detailed his cooperation with
them to conduct the drive‐by shooting. Ford and Derrick im‐
plicated themselves in recorded conversations. Bush orches‐
trated the caravan and yelled “go.” Williams testiﬁed that he
saw Ford during the shooting. This is enough, particularly re‐
calling again that the jury was entitled to make credibility de‐
terminations.
Finally, the defendants contend that no jury could ﬁnd
that the Bluitt and Neeley murders were cold, calculated, and
premeditated. “At best,” they urge, “the evidence provided by
the government showed a haphazard and hurried collection
of people and resources to quickly confront [Bluitt] and

App.000027

Case: 17-1650

28

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

[Neeley] out on the street.” They assert that nothing demon‐
strated a detailed and organized plan, thoughtfully consid‐
ered over time, which was executed in cold blood.
If the trial testimony is credited, however, premeditation
is clear. A rational jury could reasonably conclude that the
Hobos had been planning to murder Bluitt because of the
long‐running rivalry between the Hobos and BDs. The BDs
had shot Chester, and Chester had placed a bounty on Bluitt’s
head. Bush, Ford, and Todd then devised a plan to kill Bluitt.
On the day of the murders, the defendants learned that the
BDs were attending the funeral, but they did not act immedi‐
ately. Instead, Council recruited participants, they gathered
weapons, and then they met in an alley where they discussed
their plan of attack. Finally, they carried out the plan. This was
more than enough to support the jury’s ﬁnding that the two
murders were cold, calculated, and premeditated.
E. Shooting of Andre and Darnell Simmons
Bush challenges the jury’s special ﬁndings that his racket‐
eering activity included the commission, or aiding and abet‐
ting, of the attempted ﬁrst‐degree murders of Andre Simmons
and Darnell Simmons. Bush argues that the only evidence in‐
troduced against him in this respect was the unreliable testi‐
mony of cooperator Chad Todd.
At trial, Todd testiﬁed that on the day of the shootings,
Bush called him and asked to meet at a nearby grocery store.
Once Todd arrived, he saw Bush sitting in the driver’s seat of
a white Impala that was parked on a side street next to the
grocery store. Ford was in the front passenger seat, and Coun‐
cil was in the rear passenger seat. Todd got into the car behind
Bush. The group sat and waited, watching a black Nissan

App.000028

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

29

Maxima that was parked in the grocery store parking lot.
When the Maxima pulled out, they followed it. Todd testiﬁed
that, at this point, Ford and Bush somehow switched seats,
Ford now driving and Bush in the front passenger seat.
After trailing the Maxima for a short time, Todd testiﬁed
that Bush pulled the sunglasses compartment down, reached
in, and pulled out a FN 5.7 ﬁrearm. Bush then instructed Ford
to lean back, Ford did so (Todd reported to the point of crush‐
ing Todd’s legs), and Bush ﬁred past Ford’s face. Todd said
that he saw bullet holes going through the front passenger
window and heard glass shattering. Then he heard sirens and
saw an unmarked squad car behind them. They brieﬂy eluded
the unmarked squad car, but after they got out of their car and
ran, Todd and Council were both apprehended and taken into
custody.
Bush asks us to ﬁnd that Todd’s testimony is incredible.
He emphasizes that Todd did not describe how Ford and
Bush switched seats, or how it would even be possible given
the sizes of Bush and Ford and the center console in the vehi‐
cle. Bush emphasizes that Todd’s testimony throughout the
trial was riddled with inconsistencies. Todd admitted to lying
on earlier occasions to law enforcement. Furthermore, setting
aside the suﬃciency of the proof that he committed the at‐
tempted murders, Bush argues that the government failed to
present suﬃcient evidence showing that his purpose was to
maintain or increase his position within the enterprise or that
the attempted murders were part of his racketeering activity.
The government counters that Todd’s testimony was well‐
corroborated. Todd testiﬁed that a friend of Bush’s girlfriend
rented the Impala. That friend testiﬁed at trial and conﬁrmed
that she rented the car for Bush. After the shooting, Bush’s

App.000029

Case: 17-1650

30

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

girlfriend told the friend that the car had been stolen, but dur‐
ing a later search of the car, police found documents in Bush’s
name, as well as Council’s and Bush’s ﬁngerprints. In addi‐
tion, the police recovered cartridge casings from the scene.
The casings matched the type of gun Todd described in his
testimony and also matched the gun that was used in the
Jones and Robinson shootings. The oﬃcer who arrested
Council after the car chase corroborated this portion of Todd’s
testimony. The Simmonses also both corroborated Todd’s ac‐
count of the shooting at trial. The Simmonses testiﬁed that
they were in Andre’s Nissan in a turn line when they heard
multiple gun shots and that Andre ducked down and contin‐
ued driving, ultimately crashing into a CTA bus stop. Moreo‐
ver, in secretly recorded conversations between Todd and
Ford, Ford discussed the shooting and said that he gave away
a leather jacket to a person who helped him ﬂee after they
crashed the car. The government ﬁnally argues that the jury
reasonably found that the murder was part of the racketeering
conspiracy because Andre Simmons was Bluitt’s friend, and
the Hobos were determined to retaliate against New Town
BDs.
The evidence relating to the Simmonses’ shooting is not
the strongest we have ever seen. Nevertheless, the jury was
entitled to credit Todd’s account, as corroborated by the evi‐
dence cited by the government. In any event, the shooting was
only one of many predicate acts on Count 1 for which the jury
found Bush responsible; it was not the subject of a substantive
act. Any error would therefore be harmless.
F. Count 6 – Obstruction of Justice
On Count 6, Poe was convicted of obstruction of justice in
violation of the “catchall” clause in 18 U.S.C. § 1503, which

App.000030

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

31

provides that a crime occurs when a person “corruptly ... in‐
ﬂuences, obstructs, or impedes, or endeavors to inﬂuence, ob‐
struct, or impede, the due administration of justice….” After
he was convicted, Poe moved for acquittal. The district court
found that ample evidence supported Poe’s guilt, and so it
denied his motion.
We already have noted that Council’s brother, Keith Dan‐
iels, cooperated with law enforcement to make controlled
buys of heroin from Chester and Dillard. Recall, too, that after
Daniels was relocated for his safety, he testiﬁed before the fed‐
eral grand jury on April 4, 2013. On April 10, Chester was ar‐
rested on a criminal complaint charging him with distributing
heroin. The supporting aﬃdavit provided to Chester did not
name Daniels, but it summarized the controlled transactions
and gave speciﬁc details about the buys. Chester told arrest‐
ing agents that he “knew who the informant was” and “all
[he] ever did was take [him] under my arm.” Another Hobo,
Walter Binion, was at the scene when Chester was arrested.
He left separately and later “got the paperwork” for Chester’s
case. That night, Poe cut oﬀ his electronic monitoring bracelet.
Two days later, on April 12, Chester spoke to a woman on
the phone while he was detained at Kankakee County Jail.
The conversation was recorded. Chester told the woman that
“[a] motherfucker wore a wire on me in 2011. He was working
with the Feds.” The following day, Chester spoke to Poe in
coded language. They referenced catching someone who
would end up dead. Chester told Poe, “They coming with
some other shit and god damn it, probably real soon.”
On April 14, Daniels was in the passenger seat of a car
driven by his girlfriend, Shanice Peatry. Their children were
in the back seat. Peatry testiﬁed that after she parked the car

App.000031

Case: 17-1650

32

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

in front of their apartment, Poe walked toward them. He be‐
gan shooting at the driver’s seat, but then he turned his aim
to Daniels in the passenger seat as he got closer. To try to pro‐
tect his family from the gunﬁre, Daniels jumped out of the car.
He was knocked over by bullets. Poe walked even closer,
stood over Daniels, and then ﬁred additional bullets at him.
Peatry testiﬁed that Poe’s face was covered by something
black, but she was able to recognize his eyes, dreadlocks, and
his distinctive gait.
After Poe left, Peatry called 911. She knew Poe from pre‐
vious interactions and identiﬁed him repeatedly: in the 911
call, a post‐incident photo array, and at trial. She also told the
911 operator that Poe’s getaway car was a gold Trailblazer.
Some evidence indicated that a second person was driving the
car and may also have ﬁred at Daniels.
Surveillance footage corroborated Peatry’s testimony. It
showed a tan SUV driving in the area of Daniels’s apartment
at 7:27 and at 7:43 in the evening. Peatry called 911 at 7:44 p.m.
A neighbor testiﬁed that she heard gunshots and then saw a
tan SUV driving away from the scene. At 8:19 p.m., Chester
spoke to a woman on the phone, asking if she heard from Poe.
She said that she had not, and Chester told her, “He didn’t
even have to do that.” Chester said that it “was crazy” but he
“understand[s] too” because it was“[b]etter [to] be safe than
sorry.” An hour later, Chester spoke to an unidentiﬁed man.
The man told Chester, that they “got it under control. That’s
all you need to know.” The man also referenced Poe pulling
up in a “lil’ Trailblazer truck.” Chester said, “Played me like
a straight bitch,” and the man replied, “you know what you
got to resort to.” After the murder Poe left Chicago, switching

App.000032

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

33

hotels frequently. He also cut his dreadlocks. The FBI arrested
him on May 2, 2013.
In addition, the government produced evidence from
other sources. FBI Special Agent Bryant Hill testiﬁed that, con‐
sistent with Peatry’s 911 call, he had seen Poe walk with a
limp on several occasions. Zentmyer, Poe’s cellmate and a jail‐
house lawyer, testiﬁed that Poe admitted that he killed Dan‐
iels because Daniels was going to testify against Chester in a
heroin case. Poe said he cut oﬀ his electronic monitoring band,
went to Dolton, and shot Daniels in front of his kids and girl‐
friend. Last, the day after the murder Council spoke to his
(and Daniels’s) mother on the phone. Council’s mother told
him that Daniels had been killed and Council replied, “[W]hat
that boy doin’… he can’t do that in the street …I ain’t shed a
tear.”
To sustain a conviction under section 1503’s catchall pro‐
vision, “the government must prove: (1) a judicial proceeding
was pending; (2) the defendant knew of the proceeding; and
(3) the defendant corruptly intended to impede the admin‐
istration of that proceeding.” Torzala v. United States, 545 F.3d
517, 522–23 (7th Cir. 2008). A grand jury investigation can con‐
stitute a pending judicial proceeding. United States v. Aguilar,
515 U.S. 593, 599 (1995).
Poe argues that there was insuﬃcient evidence that he
murdered Daniels. He emphasizes that there was no physical
evidence linking him to the murder—no DNA, ﬁngerprints,
or trace evidence. Poe also asserts that he did not confess any
crimes to Zentmyer. Instead, Zentmyer came up with his
story by researching the charges against Poe using publicly
available case documents, newspapers, television programs,
and Poe’s discovery materials. In fact, Poe argues, Zentmyer

App.000033

Case: 17-1650

34

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

claimed that Poe bragged about personally shooting and kill‐
ing a man in a Range Rover in front of a funeral home. This
was a reference to the Bluitt/Neeley murders, but it is undis‐
puted that Poe was in custody when they occurred.
Realizing that Peatry’s testimony stands in his way, Poe
attempts to discount her account. Poe contends that Peatry
was in a romantic relationship with Arsenio Fitzpatrick and,
in the ten days leading up to Daniels’s death, she had con‐
tacted Fitzpatrick more than 1,000 times by call and text.
Shortly after Daniels was killed, she deleted all her text and
call records from her phone. Peatry’s aﬀair and the timing of
those deletions, Poe contends, was suspicious. Poe also high‐
lights the fact that Peatry did not initially tell law enforcement
that the shooter was wearing a mask, making them think she
could clearly identify the shooter. Moreover, at trial, she tes‐
tiﬁed for the ﬁrst time that she identiﬁed Poe as the shooter
based primarily on his gait. She never mentioned this to the
police or the grand jury.
Poe tried to point the ﬁnger at other possible perpetrators:
Ricky Royal and Lamar Murphy. He notes that Royal and
Murphy had greater reason to fear Daniels’s cooperation than
he did. Daniels had never committed any crimes with Poe, but
he had committed a home invasion, robbery, and kidnapping
with Murphy and Royal. Additionally, Peatry had seen Dan‐
iels meet with Murphy and Royal while Daniels was cooper‐
ating. Peatry testiﬁed that on the day he was killed, Daniels
received a text message from his cousin warning him that two
people from “out west” were planning to kill him. Royal and
Murphy were from the west side; Poe was not. Poe also argues
that in the recorded calls between Chester and the unknown

App.000034

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

35

male, the unknown male was Murphy, indicating his connec‐
tion to the murder.
Once again, the choice between Poe’s version of these
events and the government’s was for the jury. Its conclusion
that Poe killed Daniels was adequately supported by the trial
evidence. It was the jury’s prerogative to credit both Peatry’s
and Zentmyer’s testimony. Peatry identiﬁed Poe in her 911
call and testiﬁed that she recognized Poe’s eyes, dreadlocks,
and gait. Zentmyer added details of the murder that were not
in the complaint or the news, such as that Daniels was mur‐
dered in Dolton, that Daniels was Council’s brother, and that
Daniels’s girlfriend and children saw the murder. As for the
other possible perpetrators, in the recorded jail calls, Chester
spoke to a woman, asking for Poe and telling her that “he”
“didn’t even have to do that,” seemingly referring to Poe. In
addition, the jury may reasonably have questioned why Poe
cut oﬀ his electronic monitoring bracelet, ﬂed Chicago, cut his
distinctive dreadlocks, and moved from hotel to hotel. Juries
are “permitted to consider ﬂight as evidence of consciousness
of guilt and thus of guilt itself.” United States v. Starks, 309 F.3d
1017, 1025 (7th Cir. 2002).
Poe follows up with an attack on the suﬃciency of the ev‐
idence to show that, in killing Daniels, he intended to obstruct
a pending judicial proceeding. This is a more diﬃcult ques‐
tion.
Three judicial proceedings bear on Count 6: the grand
jury’s investigation into Chester and Dillard; the drug charges
that were brought against Chester and Dillard; and the grand
jury’s RICO investigation. The government argues that there
was suﬃcient evidence that Poe was aware of both Chester’s
case and the ongoing grand jury investigation.

App.000035

Case: 17-1650

36

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

As evidence that Poe knew about the grand jury’s RICO
investigation, the government points to the conversation be‐
tween Chester and Poe in which they talked about “some
other shit” coming “real soon.” It argues that the jury in the
present case could conclude that this statement was a coded
reference to the grand jury’s proceedings. The government
also notes that when Zentmyer was helping Poe with his legal
issues, Zentmyer wrote a note asking, “Was conﬁdential
source working for state or state prosecution?” Poe crossed
out “state” and wrote “federal” and “joined [sic] task, state
and federal.”
In addition, the government argues, Poe was aware of the
more immediate federal drug charges against Chester. Fellow
Hobo Binion was present when the FBI arrested Chester, and
then there was a lengthy discussion about Daniels and Ches‐
ter’s arrest among the Hobos. Poe absconded the night of
Chester’s arrest, even though his parole was about to expire,
indicating that he learned about the arrest from Binion or an‐
other Hobo. And Poe spoke to Chester while he was in cus‐
tody, conﬁrming that Poe knew Chester had been arrested.
Binion went to federal court after the arrest to get copies of
the “paperwork” in Chester’s case.
In response to all this, Poe admits that he knew that Ches‐
ter was in jail, but he says that he was unaware of the charges
against Chester, let alone that they were federal. With respect
to the grand jury investigation, Poe asserts that, at most, he
was informed that charges were coming, but that he was un‐
aware of any ongoing federal grand jury investigation.
We agree with Poe that the evidence supporting a ﬁnding
that he knew about the grand jury’s RICO investigation was

App.000036

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

37

weak. Although Poe may have known the FBI was investigat‐
ing the Hobos as an enterprise, “it is not enough that there be
an intent to inﬂuence some ancillary proceeding, such as an
investigation independent of the court’s or grand jury’s au‐
thority.” Aguilar, 515 U.S. at 599. It is speculative at best that
Poe knew that the investigation had reached the level of a
grand jury.
Nevertheless, there was suﬃcient evidence to allow a ra‐
tional jury to ﬁnd that Poe knew about the pending federal
drug charges against Chester. Poe spoke to Chester while he
was in custody, and so he knew Chester had been arrested.
Chester was aware that Daniels had been working with fed‐
eral agents. In a recorded call before Daniels’s murder, he said
“A motherfucker wore a wire on me in 2011. He was working
with the Feds.” A jury could infer other Hobos also knew
Daniels was working with federal agents and knew there
would be federal charges against Chester. In addition, Zent‐
myer testiﬁed that Poe admitted to killing Daniels because he
was going to testify against Chester. When asked why Poe
committed the murder, Zentmyer stated: “He said that this
guy [Daniels] had made heroin buys oﬀ of Bowlegs [Chester].
And that’s what Bowlegs was in custody for, and this was the
main guy to testify against Bowlegs.” This is enough to sup‐
port the district court’s decision to deny Poe’s motion for ac‐
quittal on Count 6.
G. Count 7 – Robbery of Collections store
Count 7 charged Council with aiding and abetting the use,
carrying, or brandishing of a ﬁrearm during the robbery of the
Collections store, in violation of 18 U.S.C. § 924(c). “[T]o con‐
vict a defendant of a § 924(c) violation as an accomplice, the
government must prove that he had advance knowledge of

App.000037

Case: 17-1650

38

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

his collaborator’s plan to use or carry a gun during the com‐
mission of the crime.” Farmer v. United States, 867 F.3d 837, 841
(7th Cir. 2017). Council concedes that he was present during
the robbery, but he contends that the government failed to
show that he had advance knowledge that his accomplices
would use ﬁrearms.
This time, we have no trouble ﬁnding ample evidence to
support the conviction. At trial, Bland testiﬁed that he, Ah‐
mad Hicks, and Pierre Skipper were sitting in a vehicle with
ﬁrearms on their laps, when Council approached them. Coun‐
cil suggested that they rob Collections, and, after they agreed,
Council passed out masks and laundry bags. The four of them
entered the store together. According to Bland, during the
robbery, Hicks had his ﬁrearm “upped,” meaning it was visi‐
ble in his hand. Once inside the store, Council and Skipper
gathered expensive jackets and other clothes while Hicks and
Bland moved the store’s employees to a backroom at gun‐
point. Store employees testiﬁed that as they were moved, they
saw a gun in one robber’s sleeve and another robber carrying
one in his hand.
Council argues that Bland’s testimony does not suﬃce. He
emphasizes that Bland testiﬁed at trial in order to reduce his
sentence and that inconsistencies plagued his testimony.
Originally, Bland told law enforcement that he did not know
anything about the guns used during the robbery. Then he
testiﬁed that they were not his guns. Then he testiﬁed that the
guns belonged to Hicks and Skipper, only later to testify that
the guns belonged to Hicks, but that Hicks gave him one gun
that he held for a minute and then returned.

App.000038

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

39

In addition to these problems, Council highlights the in‐
consistencies between Bland’s testimony at trial and his testi‐
mony before the federal grand jury. Bland told the grand jury
that just before the robbery, when Council approached the
car, he asked the group if they had weapons on them and they
said yes. At trial, however, Bland testiﬁed that the guns were
already sitting on their laps when Council approached.
These are minor or easily explained discrepancies. Re‐
gardless of whether Council asked his coconspirators about
guns or merely saw guns on their laps, the evidence showed
that he had advance knowledge of the guns. And although
Bland’s statements about who owned the guns were incon‐
sistent, Council’s advance knowledge did not depend on who
owned the weapons. More importantly, Bland’s testimony
about other details, such as the make and model of the guns,
was consistent. It was the jury’s job to unravel whatever dis‐
crepancies or credibility issues Bland presented.
It appears likely that the jury credited Bland’s testimony
because it was corroborated by the video captured by Collec‐
tions’ security cameras. The footage shows the robbers enter‐
ing the store and Bland and Hicks carrying guns. The employ‐
ees were herded to the back of the store while Council was
gathering jackets and other clothing items. As the district
court noted, “[n]o physical force was used to compel the em‐
ployees … which is consistent with testimony that guns were
used to gain their swift compliance. With such an orderly pro‐
cess, the jury could reasonably infer from the videotape that
using guns was part of the plan from the start.”
The evidence was therefore suﬃcient for the jury’s guilty
verdict on Count 7. Based on the same evidence, we also reject
Council’s related argument that the evidence failed to support

App.000039

Case: 17-1650

40

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

the jury’s special ﬁnding that in the course of the robbery he
aided and abetted the “brandishing” of a ﬁrearm (as opposed
to using or carrying one).
We also brieﬂy address, though it is not a suﬃciency
argument, Council’s other challenge to Count 7. The predicate
oﬀense for this section 924(c) charge was robbery aﬀecting
commerce in violation of 18 U.S.C. § 1951(a) (Hobbs Act
robbery). “Robbery” under the Hobbs Act is deﬁned as “the
unlawful taking or obtaining of personal property from the
person or in the presence of another, against his will, by
means of actual or threatened force, or violence, or fear of
injury, immediate or future, to his person or property, or
property in his custody or possession, or the person or
property of a relative or member of his family or of anyone in
his company at the time of the taking or obtaining.” 18 U.S.C.
§ 1951(b).
Council contends that Hobbs Act robbery is not a crime of
violence under 18 U.S.C. § 924(c)(3)(A) because it is possible
to commit this type of robbery without the use or threatened
use of force. We have squarely rejected this argument. United
States v. Rivera, 847 F.3d 847, 849 (7th Cir. 2017) (“Because one
cannot commit Hobbs Act robbery without using or
threatening physical force, … Hobbs Act robbery qualiﬁes as
a predicate for a crime‐of‐violence conviction.”).
Alternatively, Council contends that even if Hobbs Act
robbery is a crime of violence, an inchoate oﬀense such as
aiding and abetting does not qualify as a crime of violence.
Again, the rule is otherwise for inchoate oﬀenses. See Hill v.
United States, 877 F.3d 717, 719 (7th Cir. 2017) (attempted
crimes); United States v. García‐Ortiz, 904 F.3d 102, 109 (1st Cir.
2018) (aiding and abetting); United States v. Grissom, 760 F.

App.000040

Case: 17-1650

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

41

App’x 448, 454 (7th Cir. 2019). We thus reject both of these
legal challenges to Council’s conviction on Count 7.
H. Count 9 – Possession with Intent to Distribute
This time we address one of Ford’s convictions: one for
possession of marijuana with the intent to distribute it, in vi‐
olation of 21 U.S.C. § 841(a)(1). In February 2013, during a
lawful search of Ford’s residence, CPD oﬃcers found approx‐
imately 50 plastic baggies of user quantities of marijuana, to‐
taling 10.6 grams. The baggies were divided among ﬁve larger
bags, which were, in turn, put into one bag. Two witnesses,
an FBI agent (testifying as an expert) and a CPD oﬃcer, testi‐
ﬁed that the marijuana was packaged for distribution.
There are three elements required for a conviction under
21 U.S.C. § 841(a)(1): (1) knowing or intentional possession of
a substance with (2) the intent to distribute it, and (3)
knowledge that the material is a controlled substance—here,
marijuana. United States v. Campbell, 534 F.3d 599, 605 (7th Cir.
2008). Ford does not dispute that the baggies of marijuana
were his, or that he knew they contained marijuana. He con‐
tends only that the evidence of intent to distribute fell short.
He emphasizes that the government never detailed whether
the 50 baggies contained diﬀerent quantities of marijuana and
whether some were empty. Nor did the government present
any evidence of scales, wrappers, or money, items typically
surrounding drug dealing.
This evidence permitted the jury to conclude that Ford in‐
tended to distribute the marijuana. United States v. Bernitt, 392
F.3d 873, 879 (7th Cir. 2004) (“[T]he quantity and packaging
of drugs … can be suﬃcient to support the inference of an in‐

App.000041

Case: 17-1650

42

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

tent to distribute.”). The FBI agent’s expert testimony con‐
ﬁrmed that the marijuana was packaged for distribution. And
Ford’s own statements reinforce the conclusion that he in‐
tended to distribute the marijuana. In a recorded conversation
between Ford and Todd, Ford stated that although he did not
“smoke weed” himself, he was going to get a pound of “kush”
(marijuana) to sell once he was released from prison. No more
was necessary.
We also brieﬂy comment on Ford’s contention that he
should not have been tried at all in the case as a whole, be‐
cause he was not named in the Second Superseding Indict‐
ment. Ford was charged in four counts of the Superseding In‐
dictment: Count 1 (racketeering conspiracy), Count 8 (felon in
possession of a ﬁrearm), Count 9 (possession with intent to
distribute marijuana), and Count 10 (possession of a ﬁrearm
in connection with the marijuana oﬀense). In the same indict‐
ment, Ford’s co‐defendant, Poe, was charged in Count 6 for
obstruction of justice.
About one week before trial, Poe moved to dismiss Count
6, on the ground that it failed to allege the obstruction of a
speciﬁc pending judicial proceeding. The grand jury speedily
returned a Second Superseding Indictment against only Poe.
The Second Superseding Indictment cured the deﬁciency Poe
had mentioned by alleging the speciﬁc judicial proceedings
that were obstructed.
During jury selection, Ford’s counsel requested clariﬁca‐
tion of “[w]hat indictment” was the subject of trial. The dis‐
trict court answered that the trial was proceeding on the Su‐
perseding Indictment, with the exception of Count 6, as to
which Second Superseding Indictment replaced the earlier
version of Count 6 with a new Count 6. A week into trial, Ford

App.000042

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

43

asked the district court to dismiss him from the case. He ar‐
gued that the Second Superseding Indictment nulliﬁed the
Superseding Indictment and, because he was not named in
the Second Superseding Indictment, there were no longer
charges pending against him. He argued that the government
was required to select only one indictment on which to pro‐
ceed to trial. The district court denied the motion, rejecting
“the premise that a superseding indictment wholly replaces
previous ones.” Ford now echoes this argument before us.
We are not persuaded. First, Ford’s motion came too late,
as it is among those that Federal Rule of Criminal Procedure
12(b)(3)(B) requires to be raised before trial. Second, it is not
the case that “a superseding indictment zaps an earlier indict‐
ment to the end that the earlier indictment somehow vanishes
into thin air.” United States v. Bowen, 946 F.2d 734, 736 (10th
Cir. 1991). “An original indictment remains pending prior to
trial, even after the ﬁling of a superseding indictment, unless
the original indictment is formally dismissed.” United States
v. Yielding, 657 F.3d 688, 703 (8th Cir. 2011). Here, the govern‐
ment did not move to dismiss the Superseding Indictment,
and it was entitled to proceed to trial against Ford on it. This
objection is meritless.
III
We now turn to the defendants’ challenges to the court’s
rulings on the admission of evidence.
A. Forfeiture by Wrongdoing
Bush, Chester, Council, Ford, and Derrick contend that the
admission of Keith Daniels’s out‐of‐court statements pursu‐
ant to the forfeiture‐by‐wrongdoing doctrine violated their
Sixth Amendment Confrontation Clause rights. Poe joins this

App.000043

Case: 17-1650

44

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

argument only to the extent that he asserts that the district
court erred in requiring the government to prove the elements
of forfeiture by wrongdoing only by a preponderance of the
evidence. The government argues that Daniels’s statements
were properly introduced, and even if they were not, any er‐
ror was harmless. “Where the defendant’s Sixth Amendment
right to confront witnesses is directly implicated, our review
is de novo.” United States v. Ochoa, 229 F.3d 631, 637 (7th Cir.
2000).
The Sixth Amendment’s Confrontation Clause provides
that “[i]n all criminal prosecutions, the accused shall enjoy the
right ... to be confronted with the witnesses against him.” U.S.
CONST. amend. VI. In 2004, the Supreme Court held that the
right to confrontation prohibits “admission of testimonial
statements of a witness who did not appear at trial unless he
was unavailable to testify, and the defendant ... had a prior
opportunity for cross‐examination.” Crawford v. Washington,
541 U.S. 36, 53–54 (2004). Yet Crawford permits courts to admit
testimonial statements “where an exception to the confronta‐
tion right was recognized at the time of the founding.” Giles
v. California, 554 U.S. 353, 357 (2008).
One such exception is common‐law forfeiture by wrong‐
doing. Codiﬁed in Federal Rule of Evidence 804(b)(6), the for‐
feiture‐by‐wrongdoing doctrine allows testimonial state‐
ments to be admitted, even if unconfronted, when the defend‐
ant’s own conduct caused the declarant to be unavailable at
trial. Rule 804(b)(6) describes this as “[a] statement oﬀered
against a party that wrongfully caused—or acquiesced in
wrongfully causing—the declarant’s unavailability as a wit‐
ness, and did so intending that result.” Giles requires the gov‐

App.000044

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

45

ernment to prove that the defendant’s actions were under‐
taken for the purpose of preventing the witness from testify‐
ing. 554 U.S. at 367−68.
At trial, the government sought to admit Daniels’s out‐of‐
court statements—his grand jury testimony—against all the
defendants, not just against Poe (the person who directly
caused Daniels’s unavailability by murdering him). It argued
that it could do so under the theory of liability recognized in
Pinkerton v. United States, 328 U.S. 640 (1946). Pinkerton pro‐
vides that a person is liable for an oﬀense committed by a co‐
conspirator when its commission is reasonably foreseeable to
that person and is in furtherance of the conspiracy. Id. at 647.
According to the government, “[i]t would make little sense to
limit forfeiture of a defendant’s trial rights to a narrower set
of facts than would be suﬃcient to sustain a conviction and
corresponding loss of liberty.” United States v. Cherry, 217 F.3d
811, 818 (10th Cir. 2000).
The district court agreed with the government, relying on
United States v. Thompson, 286 F.3d 950 (7th Cir. 2002). In
Thompson, we stated that under Federal Rule of Evidence
804(b)(6), a defendant who “acquiesces in conduct intended
to procure the unavailability of a witness” waives his hearsay
objection. Id. at 964. We noted that by using the term “acqui‐
esce,” the drafters of Rule 804(b)(6) expressed an intent to al‐
low for the imputation of waiver. Id. Therefore, “if a murder
is reasonably foreseeable to a conspirator and within the
scope and in furtherance of the conspiracy, the conspirator
waives his right to confront that witness just as if he killed the
witness himself.” Id. at 963. “Without a rule of coconspirator
waiver, the majority of the members of a conspiracy could
beneﬁt from a few members engaging in misconduct. Such a

App.000045

Case: 17-1650

46

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

result is at odds with the waiver‐by‐misconduct doctrine’s eq‐
uitable underpinnings.” Id. at 964.
The defendants, however, argue that the decisions in
Crawford and Giles have undermined Thompson’s approach,
and that their holdings rule out the use of Pinkerton to impute
waiver of a defendant’s Sixth Amendment right to confronta‐
tion under the forfeiture‐by‐wrongdoing concept. They note,
accurately, that courts did not recognize Pinkerton liability at
common law; from that, they conclude that any exception to
the confrontation right based on Pinkerton was not recognized
at the founding. The defendants also contend that Pinkerton is
inconsistent with Giles’s requirement that forfeiture of con‐
frontation rights occurs only if the defendant acts with the spe‐
ciﬁc purpose of precluding the witness’s testimony.
Several of our sister circuits have found, post‐Crawford,
that Pinkerton liability allows the admission of testimonial
statements under a forfeiture‐by‐wrongdoing theory. They
permit the inference of waiver for coconspirators who reason‐
ably could foresee that a fellow conspirator would engage in
premeditated murder in furtherance and within the scope of
the conspiracy. See United States v. Cazares, 788 F.3d 956, 975
(9th Cir. 2015) (“The district court should have articulated
that the … murder was within the scope of and in furtherance
of the conspiracy, and that the murder was reasonably fore‐
seeable to the defendants other than Martinez and Avila so
that the forfeiture by wrongdoing doctrine applied to all who
had ‘acquiesced in wrongfully causing—the declarant’s una‐
vailability.’”); United States v. Dinkins, 691 F.3d 358, 386 (4th
Cir. 2012) (“We conclude that the district court properly ad‐
mitted the … hearsay statements against [the defendant who

App.000046

Case: 17-1650

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

47

did not commit the murder] under the forfeiture‐by‐wrong‐
doing exception to the Confrontation Clause pursuant to
Pinkerton principles of conspiratorial liability.”); United States
v. Carson, 455 F.3d 336, 364 (D.C. Cir. 2006) (“[T]he reasons
why a defendant forfeits his confrontation rights apply with
equal force to a defendant whose coconspirators render the
witness unavailable, so long as their misconduct was within
the scope of the conspiracy and reasonably foreseeable to the
defendant, as it was here.”). But these cases do not analyze
whether Pinkerton liability was recognized at common law,
and so we are reluctant to jump onto that bandwagon.
Pinkerton itself was not decided until 1946, and it was con‐
troversial from the outset. One scholar had this to say about
it:
In the years following Pinkerton, the decision was al‐
most universally condemned by the academic commu‐
nity. And, although no statistics exist, Pinkerton liabil‐
ity appears to have been rarely utilized until the 1970’s.
Indeed, in 1962 the drafters of the Modal Penal Code
rejected Pinkerton liability and by 1972, LaFave and
Scott’s inﬂuential Handbook on Criminal Law declared
that the Pinkerton rule had never gained broad ac‐
ceptance.
Alex Kreit, Vicarious Criminal Liability and the Constitutional Di‐
mensions of Pinkerton, 57 AM. U. L. REV. 585, 597−98 (2008)
(quotation marks and citations omitted). Rule 804(b)(6) was
codiﬁed in 1997, long after the ratiﬁcation of the Sixth Amend‐
ment in 1791. In the 18th century, criminal liability was gen‐
erally limited to those who acted as principals or those who
aided and abetted. Under a strict reading of Crawford and
Giles, it seems that Thompson may no longer be good law.

App.000047

Case: 17-1650

48

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

This is an important question, but it is one that we can save
for another day. Our problem is a simple one: was one con‐
spirator acting as the agent for the others, while acting within
the scope of the conspiracy? If yes, then ordinary agency prin‐
ciples suggest that the act can be attributed to all of them.
Moreover, we are conﬁdent that any error in admitting Dan‐
iels’s out‐of‐court statements was harmless. “[C]onstitutional
error that is harmless will not cause an otherwise valid con‐
viction to be set aside. … The test is whether the reviewing
court can determine beyond a reasonable doubt that the error
did not contribute to the verdict.” Ochoa, 229 F.3d at 639–40
(internal citation omitted).
The statements at issue came from Daniels’s grand jury
testimony. The defendants objected to the admissibility of cer‐
tain passages on various grounds, such as a failure to indicate
the basis of Daniels’s personal knowledge. The district court
conducted a line‐by‐line review, excised substantial portions
of the testimony, and admitted the remainder.
The jury heard that Daniels testiﬁed before the grand jury
on April 4, 2013, and oﬀered the following information. Coun‐
cil is his older brother. Daniels was familiar with the Hobos
through Council and others. Chester was the leader of the Ho‐
bos, and Council, Poe, Bush, and Ford were members. The
Hobos had a hand sign, and “Hobo” was stitched on some
members’ cars’ headrests. Council sold drugs in the Robert
Taylor Homes, and Bush and Stanley also sold drugs.
Daniels also mentioned robberies and rivalries. He stated
that the Hobos committed robberies together. Daniels himself
participated in one that Chester had arranged. Afterwards,
Chester took some of the proceeds. On another occasion,
Chester told Daniels he was planning a robbery. Daniels also

App.000048

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

49

saw Chester with $100,000 cash. As for gang rivalries, Daniels
identiﬁed the Hobos’ conﬂict with the Met Boys, which
started when Jones stole marijuana and was shot. The Hobos
also had a feud with the Mickey Cobras.
Daniels also testiﬁed that he accompanied Chester when
he bought a loaded ﬁrearm for Poe, and Chester told him that
Chester was trying to get as many guns as possible. Poe told
Daniels he planned to kill a BD, and Ford told Daniels he and
Brandon Brown were part of the group that shot up the fu‐
neral home. Daniels discussed his drug transactions with
Chester and Dillard.
Overall, what remained after the district court’s redactions
was information that was largely duplicated by other wit‐
nesses. Daniels’s grand jury statements provided general in‐
formation about the Hobos and their criminal activity. There
is no meaningful chance that they contributed to the jury’s
verdict. Our ﬁnding that any error that may have occurred in
their admission was harmless makes it unnecessary for us to
address some related arguments, namely, whether the court
erred in applying a preponderance of the evidence standard
to the elements of forfeiture by wrongdoing, or whether there
was insuﬃcient evidence to establish that Chester partici‐
pated in or conspired to murder Daniels in order to prevent
his testimony at trial.
B. Guilty Pleas
Bush, Chester, Council, Ford, Poe, and Derrick argue that
the district court should not have admitted their guilty pleas
to underlying racketeering activity (such as murders, rob‐
beries, and narcotics activity) that was part of the enterprise
and for which defendants were prosecuted in state court. In

App.000049

Case: 17-1650

50

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

allowing the evidence, the court relied on the dual‐sovereign
doctrine, which permits the federal government to prosecute
a defendant under a federal statute even if a state has prose‐
cuted him for the same conduct under state law. The defend‐
ants ask us to overrule the dual‐sovereign doctrine, arguing
that it violates the Double Jeopardy Clause of the Fifth
Amendment.
Their eﬀort to preserve this issue for possible Supreme
Court review made sense at the time, but events have out‐
stripped them. After the defendants ﬁled their briefs, the Su‐
preme Court addressed dual sovereignty and held that the
doctrine is consistent with the text of the Fifth Amendment,
its history, and “a chain of precedent linking dozens of cases
over 170 years.” Gamble v. United States, 139 S. Ct. 1960,
1962−69 (2019). The district court acted properly in admitting
the guilty pleas.
C. Toolmark Analysis
Bush, Chester, Council, Ford, Poe, and Derrick argue that
the district court improperly admitted expert testimony on
toolmark analysis, allowing them to argue that “these seem‐
ingly unrelated crimes were committed by the same group of
people.” At trial, the government called four ﬁrearms experts:
Illinois State Police ﬁrearms examiners Marc Pomerance, Kurt
Murray, and Aimee Stevens, and a scientist with the FBI’s
Firearms‐Toolmarks Unit, Rodney Jiggets. Notably, the de‐
fendants do not challenge the qualiﬁcations of any of these
four experts. Rather, the defendants challenge only the relia‐
bility of toolmark analysis as a discipline for expert testimony.
Pomerance testiﬁed that toolmark analysis, a discipline
within the forensic sciences, is used to determine whether a

App.000050

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

51

bullet or casing was ﬁred from a particular ﬁrearm. It can also
be used to determine whether two bullets or casings were
ﬁred from the same ﬁrearm. An examiner can make these de‐
terminations by looking through a microscope to see mark‐
ings that are imprinted on the bullet or casing by the ﬁrearm
during the ﬁring process. Firing pins impart marks, and
scratches are made as the bullet travels down the barrel.
These markings are either (1) “class characteristics,” which
are features that a group shares, (2) “sub‐class characteris‐
tics,” which are shared by a subset of items, or (3) “individual
characteristics,” which are microscopic imperfections on the
surface of the object that are unique to a particular ﬁrearm.
Firearms examiners can conclude that two items, such as cas‐
ings, were ﬁred from the same ﬁrearm when the class and in‐
dividual characteristics of two items, such as casings, match.
Pomerance examined 9mm cartridge casings that were re‐
covered from the area where Cordale Hampton and his uncle
were shot. He compared them to 9mm cartridge casings from
an October 2005 shooting. The individual characteristics were
the same on both, and so he determined that they were ﬁred
by the same ﬁrearm. Pomerance also compared a 5.7 x 28mm
cartridge casing from the Eddie Jones shooting to a 5.7 x
28mm cartridge casing from the Simmons shooting. The
markings matched.
Murray found a match between 5.7 x 28mm casings from
the Jonte Robinson shooting and comparable casings from the
Simmons shooting. Murray also found that a FN ﬁrearm
seized from Bush’s storage locker ﬁred the cartridge casings
from the Eddie Jones shooting. Stevens found a match be‐
tween .40 caliber cartridge casing from the Wilber Moore
murder and the same type from the October 2005 shooting.

App.000051

Case: 17-1650

52

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Jiggets testiﬁed that the .45 caliber cartridge casings recovered
from the Bluitt/Neeley murder scene matched casings found
at the Daniels murder scene. In response, the defense called a
forensic metallurgist, William Tobin, who testiﬁed that tool‐
mark identiﬁcation lacks scientiﬁc foundation.
The defendants argue that the district court erred in deny‐
ing their motions to exclude this toolmark evidence on relia‐
bility grounds. Federal Rule of Evidence 702 governs the ad‐
missibility of expert testimony. Under Rule 702, if “scientiﬁc,
technical, or other specialized knowledge will help the trier of
fact,” then “a witness who is qualiﬁed as an expert by
knowledge, skill, experience, training, or education may tes‐
tify in the form of an opinion … .”
A district court “holds broad discretion in its gatekeeper
function of determining the relevance and reliability of the ex‐
pert opinion testimony.” Krik v. Exxon Mobil Corp., 870 F.3d
669, 674 (7th Cir. 2017). We use a two‐step standard of review
where a defendant challenges a district court’s admission of
expert testimony. United States v. Johnson, 916 F.3d 579, 586
(7th Cir. 2019). First, we consider de novo whether the district
court properly applied the Rule’s framework. If so, we review
the ultimate decision to admit or exclude the evidence only
for abuse of discretion, understanding that the district court
abuses its discretion only when no reasonable person could
take the court’s view. Id. at 586−87.
Although it is hard to show abuse of discretion, the de‐
fendants urge that it occurred in this instance when the dis‐
trict court found that the toolmark analysis is suﬃciently reli‐
able. They assert that the “premise underlying the ﬁeld of ﬁre‐
arms analysis—that no two ﬁrearms will produce the same
microscopic features on bullets and cartridge cases—[i]s, at

App.000052

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

53

best, an unproven hypothesis.” They also complain that there
are no objective, quantitative standards for determining
whether two ammunition components “match.”
The defendants’ argument has respectable grounding. It is
based largely on a report issued by the President’s Council of
Advisors on Science and Technology (PCAST). The report
states that the “foundational validity can only be established
through multiple independent black box studies,” and it iden‐
tiﬁes only one such study, the Ames Study. According to
PCAST, the other available studies could not estimate the re‐
liability of ﬁrearms analysis because they employed “artiﬁcial
designs that diﬀer[ed] in important ways from the problems
faced in casework,” which “seriously underestimate[d] the
false positive [match] rate.” Ultimately, the PCAST report
found that ﬁrearms analysis “[fell] short of the criteria for
foundational validity.” The defendants also emphasize that
even the Ames Study had not been published or subject to
peer‐review at the time of trial. Moreover, they contend, the
government’s experts misled the jury by testifying about the
Ames Study’s error rate, because that rate is not representa‐
tive of the “entire discipline of ﬁrearms analysis.”
The defendants brought the PCAST report to the district
court’s attention, but the district court chose not to give it dis‐
positive eﬀect, and that choice was within its set of options.
See General Electric Corp. v. Joiner, 522 U.S. 136, 142–43 (1997)
(appellate review of expert‐evidence rulings is only for abuse
of discretion). Rule 702(c) requires testimony to be “the prod‐
uct of reliable principles and methods.” Courts frequently
look to Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S.
579 (1993), which the Rule largely reﬂects, to assess that point.
Under Daubert, to determine reliability, a court considers

App.000053

Case: 17-1650

54

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

whether the theory or technique has been (1) tested, (2) sub‐
jected to peer review and publication, (3) analyzed for known
or potential error rate, and (4) generally accepted within the
speciﬁc scientiﬁc ﬁeld. Daubert, 509 U.S. at 592−94.
Taking these criteria into account, the district court found
the toolmark evidence was admissible. It noted that the Asso‐
ciation of Firearms and Toolmark Examiners (AFTE) method‐
ology used by the government’s witnesses had been “almost
uniformly accepted by federal courts.” See, e.g., Cazares, 788
F.3d at 989. The AFTE method has been tested and subjected
to peer review. Three diﬀerent peer‐reviewed journals ad‐
dress the AFTE method, and several reliability studies have
been conducted on it. Although the error rate of this method
varies slightly from study to study, overall it is low—in the
single digits—and as the district court observed, sometimes
better than algorithms developed by scientists. The court also
noted that ﬁrearm and toolmark analysis is widely accepted
beyond the judicial system.
The district court used the methodology prescribed by the
Rule, and we see no abuse of discretion in its application of
these principles. Almost all the defendants’ contentions were
issues that could be raised on cross‐examination. These argu‐
ments go to the weight of the evidence, not its admissibility.
Expert testimony is still testimony, not irrefutable fact, and its
ultimate persuasive power is for the jury to decide.
D. Recorded Conversations
Chester, Council, Bush, Poe, Ford, and Derrick argue that
the district court erred in admitting Jodale Ford’s recorded

App.000054

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

55

conversations. Again, we review this ruling for abuse of dis‐
cretion. United States v. McGee, 408 F.3d 966, 981 (7th Cir.
2005).
At trial, Chester called Jodale Ford (to whom we refer as
“Jodale” to avoid confusing him with his brother, defendant
William Ford) as a witness. Jodale was then in state custody
for murder and home invasion. Jodale contradicted most of
the elements of the government’s case. He testiﬁed that he did
not rob a jewelry store with Chester, that there was no Hobos
gang, and that he was not a leader of the Hobos. On cross‐
examination, Jodale testiﬁed that, while in prison, he did not
receive updates about the defendants and did not send letters
to Council. He also denied remembering anything about Dan‐
iels’s murder or receiving money from the Hobos while in
prison.
In rebuttal, the government sought to introduce some of
Jodale’s jail calls. In these conversations, Jodale asked for up‐
dates on some members of the Hobos and identiﬁed himself
as “Hobo.” Callers also gave Jodale information about the
Daniels murder.
The defense objected, arguing that they needed to con‐
front Jodale with the calls before they could be introduced as
prior inconsistent statements under Federal Rule of Evidence
613, which states: “Extrinsic evidence of a witness’s prior in‐
consistent statement is admissible only if the witness is given
an opportunity to explain or deny the statement and an ad‐
verse party is given an opportunity to examine the witness
about it, or if justice so requires.” Fed. R. Evid. 613(b). The
government responded that it was not introducing the calls
under Rule 613.

App.000055

Case: 17-1650

56

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Instead, it said, it was planning to introduce the calls un‐
der Rule 608(b), which governs extrinsic evidence of conduct.
Rule 608(b) forbids the use of such evidence to attack a wit‐
ness’s character for truthfulness, but it allows its admission
on cross‐examination if the conduct “[is] probative of the
character [of the witness] for truthfulness or untruthfulness.”
The government argued that Jodale’s phone calls, i.e., his
prior conduct, was evidence that contradicted his testimony
that he had no relationship to the Hobos.
We have explained the diﬀerence between Rules 608(b)
and 613 this way:
In our view, Rule 613(b) applies when two statements,
one made at trial and one made previously, are irrec‐
oncilably at odds. In such an event, the cross‐examiner
is permitted to show the discrepancy by extrinsic evi‐
dence if necessary—not to demonstrate which of the
two is true but, rather, to show that the two do not jibe
(thus calling the declarant’s credibility into question).
In short, comparison and contradiction are the hall‐
marks of Rule 613(b).…In contrast, Rule 608(b) ad‐
dresses situations in which a witness’ prior activity,
whether exempliﬁed by conduct or by a statement, in
and of itself casts signiﬁcant doubt upon his verac‐
ity.…So viewed, Rule 608(b) applies to a statement, as
long as the statement in and of itself stands as an inde‐
pendent means of impeachment without any need to
compare it to contradictory trial testimony.
McGee, 408 F.3d at 982 (quoting United States v. Winchenbach,
197 F.3d 548, 558 (1st Cir. 1999)). Here, no comparisons are
necessary. The calls themselves cast doubt on Jodale’s testi‐
mony. Jodale testiﬁed that he knew nothing about the Hobos

App.000056

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

57

and that he did not receive updates on them while incarcer‐
ated. Yet the calls show Jodale engaging in conduct that
demonstrates his leadership within the Hobos, including re‐
ceiving updates on the Hobos and giving directions. At any
rate, any error in admitting the calls was harmless. United
States v. Olano, 507 U.S. 725, 734 (1993). The calls were only a
small part of the evidence presented, and, quite frankly, we
suspect that it would have been more prejudicial if Jodale had
been required to explain the calls under Rule 613(b).
E. Chester’s Motion to Suppress
Chester argues that the district court erroneously admitted
statements he made on October 22, 2008, when the police
stopped a car in which he was a passenger, took him to the
station, and questioned him. He argues that the oﬃcers who
stopped him did not have probable cause.
On June 26, 2008, the FBI and CPD executed a search of an
apartment at 1221 North Dearborn Street in Chicago, pursu‐
ant to a search warrant. The oﬃcers found 99.6 grams of her‐
oin. Four months later, on October 22, some of the oﬃcers
who had been involved in the Dearborn search headed to
Shark’s Fish & Chicken. When Binion and Chester’s vehicle
pulled out of the restaurant’s parking lot, the oﬃcers stopped
it, took Chester to a CPD facility, and interviewed him. After
Chester waived his Miranda rights, he made incriminating
statements.
Before trial, Chester moved to suppress his October 22
statements, arguing that they were the result of an illegal de‐
tention that was not supported by probable cause. The district
court held a suppression hearing in June 2016 to explore the
issue. Both Chester and Binion testiﬁed. They stated that they

App.000057

Case: 17-1650

58

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

were pulled over, handcuﬀed, and transported to the police
station involuntarily. Oﬃcer Sanchez testiﬁed about the stop,
and both Sanchez and Agent Hill testiﬁed about the interview
that followed. Sanchez’s testimony was riddled with incon‐
sistencies. As one example, Sanchez provided inconsistent
testimony about what led oﬃcers to Shark’s Fish. Originally,
he stated that Agent Hill had received a tip that Chester was
engaging in criminal activity there. Later, after reviewing a
CPD report, he stated that he had actually been the one to re‐
ceive the tip.
As a result, the government ﬁled a post‐hearing brief in
which it abandoned any attempt to justify the stop based on
Sanchez’s testimony. Instead, it argued that, regardless of any
subjective reasons for stopping Chester, the October stop was
lawful because it was supported by probable cause to believe
that Chester unlawfully possessed heroin on June 22, 2008.
The district court agreed that the heroin found during the
Dearborn search provided probable cause to detain and ques‐
tion Chester on October 22 and denied Chester’s motion to
suppress.
At trial the jury thus heard Chester’s incriminating state‐
ments. During the interview, Chester had told oﬃcers that he
was the Hobos’ most successful drug dealer and that he
robbed drug dealers with other Hobos. Chester was shown
photographs of the seized heroin, and he did not deny that it
was his. Chester had also oﬀered to cooperate with law en‐
forcement, but he refused to testify publicly.
“Probable cause to make an arrest exists when a reasona‐
ble person confronted with the sum total of the facts known
to the oﬃcer at the time of the arrest would conclude that the

App.000058

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

59

person arrested has committed … a crime.” Venson v. Altami‐
rano, 749 F.3d 641, 649 (7th Cir. 2014). Contrary to Chester’s
contentions, it does not matter whether the oﬃcers who
stopped him did so with the intent of arresting him for the
heroin found months earlier during the Dearborn apartment
search. The oﬃcers’ subjective intentions are irrelevant so
long as there was probable cause to detain him for any crime.
See Devenpeck v. Alford, 543 U.S. 146, 154–55 (2004). “What
matters, and all that matters, is whether the facts known to the
arresting oﬃcers at the time they acted supported probable
cause to arrest.” White v. Hefel, 875 F.3d 350, 357 (7th Cir.
2017). Here, the fact was that Chester had possessed almost
100 grams of heroin. This supplied probable cause to arrest
him. While some time had passed since the search and the ar‐
rest, that “does not necessarily dissipate the probable cause
for an arrest.” United States v. Haldorson, 941 F.3d 284, 291 (7th
Cir. 2019).
Chester argues that the police, particularly Oﬃcer
Sanchez, did not have enough information to link the drugs
found at the Dearborn address to him. But there was evidence
connecting him to the apartment. The search was based on in‐
formation provided by Todd, who stated that he had seen
Chester with a gun in the apartment. Surveillance oﬃcers saw
Chester enter and exit the Dearborn apartment building, and
women who were present during the search identiﬁed Ches‐
ter as the apartment’s resident. As for Sanchez’s knowledge
speciﬁcally, the government contends that collective
knowledge of CPD, the agency he works for, is imputed to
him.
At oral argument, we were concerned with a diﬀerent as‐
pect of what the arresting oﬃcers, particularly those who

App.000059

Case: 17-1650

60

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

stopped Binion’s car, knew before they make the stop: how
did they know that Chester was a passenger in the car?
Sanchez had testiﬁed about this aspect of the stop, but the dis‐
trict court totally rejected his testimony as unreliable, and the
government concedes we cannot rely on him. We therefore
asked the parties to submit post‐argument letters under Fed‐
eral Rule of Appellate Procedure 28 addressing the question
whether Detective Brogan, one of the oﬃcers involved in
stopping the car, covered this base.
The short answer is that he oﬀered no such testimony at
the suppression hearing. He did, however, testify at trial that
he saw Chester in a Nissan’s passenger seat. The Nissan was
initially parked in a parking lot, before it left and was then
stopped by oﬃcers. The government asserts that we “may
consider trial testimony in reviewing a pretrial suppression
ruling.” United States v. Howell, 958 F.3d 589, 596 (7th Cir.
2020). Chester begs to diﬀer and points out that in any event,
Detective Brogan’s testimony about whether he identiﬁed
Chester before the detention of Binion’s automobile was am‐
biguous at best. Moreover, he argues, “it simply does not mat‐
ter if Oﬃcer [B]rogan happened to identify Mr. Chester before
the stop,” because there is no evidence he communicated such
information to the arresting oﬃcer.
The circumstances surrounding the stop of the car are un‐
clear. We ultimately need not wade through the evidence,
however, because any error in admitting Chester’s October 22
statements was harmless. “The test for harmless error is
whether, in the mind of the average juror, the prosecution’s
case would have been ‘signiﬁcantly less persuasive’ had the
improper evidence been excluded.” United States v. Emerson,
501 F.3d 804, 813 (7th Cir. 2007). This trial lasted over four

App.000060

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

61

months, and the evidence of Chester’s guilt on Count 1 was
overwhelming. The evidence included Jones’s testimony that
Chester was the leader of the Hobos and that Chester ordered
other Hobos to distribute drugs. Todd testiﬁed about Ches‐
ter’s role as a heroin supplier. Recorded conversations of Ford
revealed Chester’s role in the Hobos and certain robberies he
committed. Jail calls also linked Chester to the Daniels mur‐
der. This is only some of the relevant evidence. Although a
person’s own admissions may be powerful in front of a jury,
there was too much other evidence to ﬁnd that the prosecu‐
tion’s case would have been signiﬁcantly less persuasive had
Chester’s October 22 statements been excluded.
F. In‐Court Identiﬁcations of Derrick Vaughn
Derrick argues that it was prosecutorial misconduct to ask
two government witnesses to identify him in court in the pres‐
ence of the jury. He did not object to the prosecutor’s state‐
ments at trial, however, and so we review his claim of prose‐
cutorial misconduct for plain error. Rosales‐Mireles v. United
States, 138 S. Ct. 1897 (2018). In order to establish plain error,
a defendant must show (1) “an error that has not been inten‐
tionally relinquished or abandoned;” (2) that was “clear or ob‐
vious;” (3) that “aﬀected the defendant’s substantial rights,”
meaning that there is a “reasonable probability that but for
the error, the outcome of the proceeding would have been dif‐
ferent;” and (4) that “seriously aﬀect[ed] the fairness, integ‐
rity, or public reputation of the judicial proceedings.” Id. at
1904–05 (internal citations and quotation marks omitted).
At trial Detective Brogan testiﬁed about the joint federal
and state investigation of the Hobos. He described his partic‐
ipation in the execution of a search warrant at a residence as‐
sociated with Bush. During this testimony, Brogan was

App.000061

Case: 17-1650

62

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

handed a photograph that had been conﬁscated during the
search. The government asked Brogan to identify the people
in the photo. After identifying Poe both in the photo and in
court, Brogan identiﬁed Stanley. The government asked if
Stanley had a younger brother. Brogan replied that he has two
younger brothers, Ingemar Vaughn and Derrick. The govern‐
ment asked Brogan to point out Derrick in court. Brogan did
so without a peep from the defense. The government then
asked Brogan to identify three additional defendants (Bush,
Chester, and Council) in the photograph and in court.
Maurice Perry, a Fifth Ward BD, was the second witness to
identify Derrick. He testiﬁed about the rivalry between the
Fifth Ward and the Dirty Low and mentioned that Stanley
was associated with the Dirty Low. Perry was asked if Stanley
had any brothers. Perry replied that he had two: “Boo [Inge‐
mar] and D‐Block [Derrick].” Derrick stipulated to the in‐
court identiﬁcation that followed.
Derrick complains that these witnesses identiﬁed him as
Stanley’s younger brother and then gave additional testimony
regarding events—including a double murder in Perry’s
case—without ever mentioning Derrick again. He contends
that these identiﬁcations were extremely prejudicial in that
they encouraged the jury to ﬁnd him guilty by association.
We are not convinced that there was any prosecutorial
misconduct here. In any event, Derrick failed to establish that
any error aﬀected his substantial rights. Rosales‐Mireles, 138 S.
Ct. at 1905. Derrick concedes that the in‐court identiﬁcations
were accurate. In addition, the identiﬁcations were only a
small part of a four‐month trial. The jury heard plenty of evi‐
dence of his guilt beyond his familial association to the Ho‐
bos. Moreover, the court instructed the jury that a defendant

App.000062

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

63

is “not a member of a conspiracy just because he knew and/or
associated with people who were involved in a conspiracy,”
lessening the risk of potential prejudice. Cf. Zaﬁro v. United
States, 506 U.S. 534, 539 (1993) (“[L]imiting instructions … of‐
ten will suﬃce to cure any risk of prejudice.”).
IV
We now turn to sentencing, where we review claims of
procedural error de novo, United States v. Gill, 889 F.3d 373, 377
(7th Cir. 2018), and those about substantive reasonableness
for abuse of discretion. Id. at 378.
A. Life Sentence Eligibility
Chester, Council, Bush, Ford, Poe, and Derrick argue that
the district court erred in sentencing them to more than 20
years in prison on Count 1 (RICO conspiracy). Chester was
sentenced to 40 years and the other trial defendants were sen‐
tenced to life. They contend that these sentences were im‐
proper because the statutory maximum penalty that may be
imposed upon a defendant found guilty of RICO conspiracies
is 20 years unless the government proves the “violation is
based on a racketeering activity for which the maximum pen‐
alty includes life imprisonment.” 18 U.S.C. § 1963(a). They ar‐
gue the government did not meet this burden.
These defendants’ violations were based on their partici‐
pation in murders in Illinois. As we noted brieﬂy earlier, un‐
der Illinois law ﬁrst‐degree murder is normally punishable by
a 20‐ to 60‐ year sentence. 720 ILCS 5/9‐1(a); 730 ILCS 5/5‐4.5‐
20(a). A life sentence is permissible, however, when aggravat‐
ing factors are present. Two aggravating factors are relevant
here: (1) where the murder was “… with intent to prevent the
murdered individual from testifying or participating in any

App.000063

Case: 17-1650

64

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

criminal investigation or prosecution…,” 720 ILCS 5/9‐1(b)(8),
and (2) where the murder was “committed in a cold, calcu‐
lated and premeditated manner pursuant to a preconceived
plan, scheme or design to take a human life by unlawful
means, and the conduct of the defendant created a reasonable
expectation that the death of a human being would result
therefrom.” 720 ILCS 5/9‐1(b)(11).
The jury found that the murders of Bluitt, Neeley, Daniels,
Moore, and Anderson qualiﬁed as aggravating under at least
one of those two provisions. It also found that each defend‐
ant’s racketeering activity included at least one aggravated
ﬁrst‐degree murder. The district court therefore determined
that the defendants were eligible for life imprisonment.
The defendants disagree. They argue that 18 U.S.C.
§ 1962(d) criminalizes the agreement to commit an act, not the
act itself. Looking for some symmetry, they contend that the
proper analogous state‐law oﬀense is conspiracy to commit
murder. Unfortunately for the defendants, however, section
1963 requires that the “violation”—in this case, the conspir‐
acy—be “based on a racketeering activity for which the max‐
imum penalty includes life imprisonment.” The defendants’
conspiracies were all based on murders for which the maxi‐
mum penalty includes life imprisonment.
The defendants also argue that the “categorical approach”
in Mathis v. United States, 136 S. Ct. 2243 (2016), ought to apply
in a RICO prosecution. This would require us to discern a “ge‐
neric” deﬁnition of RICO’s predicate oﬀenses and then to
limit the government to generic murder, rendering life im‐
prisonment unavailable under Illinois law. This argument is
not consistent with the text of the statute. Section 1963 con‐

App.000064

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

65

templates a statutory enhancement when qualifying circum‐
stances exist. See United States v. Warneke, 310 F.3d 542, 549–
50 (7th Cir. 2002) (aﬃrming life sentences for RICO conspir‐
acy based on Illinois aggravated murder predicate).
Next, the defendants argue that their enhanced sentences
were based on allegations not presented to, or found by, the
grand jury, in violation of the Presentment Clause of the Fifth
Amendment. U.S. CONST. amend. V. They add that the statu‐
tory enhancement is impermissible because the facts increas‐
ing the statutory maximum were not alleged in the indictment
and proven beyond a reasonable doubt at trial, as required by
Apprendi v. New Jersey, 530 U.S. 466 (2000).
An example helps to illustrate this argument. Count 1
charged the defendants with RICO conspiracy. It alleged that
the defendants engaged in murder and attempted murder in
violation of Illinois law. Paragraphs 8(r) and (s) speciﬁed
seven murders and ﬁve attempted murders that were com‐
mitted in aid of the enterprise. For instance, Paragraph 8(r)(i)
alleged that the “murders committed by members and associ‐
ates of the enterprise in the conduct of the aﬀairs of the enter‐
prise” included “[t]he murder of Wilbert Moore by ARNOLD
COUNCIL and PARIS POE.” The Notice of Special Findings
alleged that each of the murders identiﬁed in Paragraphs
8(r)(i)‐(iv) and 8(r)(vii) was committed in a cold, calculated,
and premeditated manner pursuant to a preconceived plan.
The Notice of Special Findings also alleged that Moore and
Daniels were murdered to prevent their testimony or because
they gave material assistance to law enforcement. The Special
Findings, to the extent the jury made them, would make de‐
fendants eligible for enhanced penalties. Using this example,
the defendants argue that only Council and Poe had notice

App.000065

Case: 17-1650

Document: 150

Filed: 08/28/2020

66

Pages: 83

Nos. 17‐1650 et al.

that the jury could return a Special Finding against them, be‐
cause they were the “named defendants.”
We are not persuaded. In the example, every defendant
was placed on notice that the murder of Moore was commit‐
ted by Council and Poe to prevent his testimony, or because
he gave material assistance to law enforcement. Although
Council and Poe were the only “named defendants,” the other
defendants were placed on notice that the conspiracy—the
RICO violation—was based upon racketeering activity
(Moore’s murder) for which the maximum penalty includes
life imprisonment. The indictment’s identiﬁcation in Para‐
graph 8(r) of speciﬁc coconspirators who committed particu‐
lar murders does not aﬀect the potential coconspirator liabil‐
ity of the remaining defendants.
Chester individually argues that the government con‐
structively amended the superseding indictment by improp‐
erly shifting from a solicitation theory to coconspirator liabil‐
ity. At trial, the government argued that Chester’s racketeer‐
ing activity included Bluitt’s murder under a Pinkerton theory
of liability. Pinkerton liability need not be speciﬁcally alleged
in an indictment, and so there was no constructive amend‐
ment.
B. Chester’s Sentence
Recall that Chester faced federal drug charges stemming
from Daniels’s controlled heroin buys. In that heroin case,
(No. 13 CR 288 in the district court), Chester was convicted at
trial of two counts: (1) conspiracy to distribute and (2) know‐
ingly and intentionally distributing heroin. In July 2014 the
Probation Oﬃcer prepared a Presentence Investigation Re‐
port (“PSR”). The PSR listed Chester’s oﬀense level as 26 and

App.000066

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

67

his criminal history category as III, resulting in a Guidelines
range of 78 to 97 months’ imprisonment. After the PSR was
submitted, the parties agreed to continue the heroin sentenc‐
ing until the conclusion of the RICO trial. The parties later
agreed that the heroin case would be transferred to Judge
Tharp, who was presiding over the RICO trial, No. 13 CR 774,
for joint resolution.
On August 4, 2017, the district court conducted a joint sen‐
tencing hearing for all defendants to calculate their oﬀense
levels under the Sentencing Guidelines. For Chester, it deter‐
mined that his racketeering activity resulted in an oﬀense
level of 51, reduced to 43 (the top level) and that his Guide‐
lines range and statutory maximum for the racketeering of‐
fense was life imprisonment. The court did not explicitly cal‐
culate the Guidelines range for Chester’s heroin case.
Six days later, on August 10, the court conducted Chester’s
sentencing hearing. It imposed a below‐Guidelines sentence
of 40 years’ imprisonment in the racketeering case. In the her‐
oin case, the district court imposed a term of 20 years for each
of the two counts, which were to run consecutively to each
other and concurrently to the term of 40 years in the racket‐
eering case.
Chester argues that the district court’s imposition of a sen‐
tence so far above the recommended Guidelines range in the
heroin case, without comment or explanation, was both pro‐
cedurally and substantively unreasonable. At sentencing, dis‐
trict courts must calculate the Guidelines range, give the de‐
fendant an opportunity to identify section 3553(a) factors that
might warrant a non‐Guidelines sentence, and explain its sen‐
tence in relation to the section 3553(a) factors. United States v.

App.000067

Case: 17-1650

68

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Gall, 552 U.S. 38, 49–50 (2007); United States v. Dorsey, 829 F.3d
831, 836−37 (7th Cir. 2016).
The district court did not follow those steps for the heroin
case. This was plain error, especially considering that the size
of the departure from the recommended Guidelines range
and the lack of explanation. The government contends that
the court “dedicated almost 30 pages of transcript to explain‐
ing why a 40‐year sentence was necessary and appropriate.”
But this explanation was focused on the racketeering conspir‐
acy. The government also argues that any error in sentencing
Chester in the heroin case was harmless because the sentence
added no additional time: it was concurrent to the 40 years’
imprisonment on the racketeering count. But this rationale
overlooks possible future developments. Suppose that Con‐
gress passes a retroactive statute that caps RICO conspiracy
sentences at 30 years. That may seem unlikely now, but Con‐
gress has passed other retroactive sentencing laws such as the
Fair Sentencing Act. Such a law would leave the 40‐year her‐
oin sentence untouched. We therefore vacate Chester’s sen‐
tence in the heroin case, No. 13 CR 288, and remand for fur‐
ther proceedings consistent with this opinion.
C. Stanley Vaughn’s Sentence
Stanley was one of the few defendants who chose not to
go to trial. After he pleaded guilty to Count 1, the RICO con‐
spiracy, his case was severed from that of his co‐defendants.
The government elected not to seek an enhanced statutory
sentence, and so Stanley proceeded directly to sentencing.
On June 29, 2017, the Probation Oﬃcer prepared a PSR. In
calculating Stanley’s oﬀense level, Probation took the position
that his racketeering activity included participation in (1) the

App.000068

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

69

Bluitt/Neeley murders; (2) the attempted murders of Jonte
Robinson, Cashell Williams, and Roosevelt Walker; and (3)
drug traﬃcking. Each of these was treated as a separate group
under Guideline § 3D1.1. The PSR calculated a total oﬀense
level of 45, reduced to 43 pursuant to Guideline § 4B1.3. Stan‐
ley had a criminal history category of VI, resulting in a Guide‐
lines “range” of life imprisonment. This was reduced to 20
years to reﬂect the statutory maximum.
At his sentencing hearing, Stanley objected to the determi‐
nation that his racketeering activity included the murders, at‐
tempted murders, and drug traﬃcking mentioned in his PSR.
The court overruled his objections, based largely on the evi‐
dence presented at his co‐defendants’ trial for the
Bluitt/Neeley murders. This evidence established that Stanley
“participate[d] in this ambush.” Although there were some
inconsistencies in the details, the court found no reason to dis‐
credit “the much larger and much more signiﬁcant consisten‐
cies in the evidence about how this transpired,” particularly
considering the ambush’s quick nature. Recorded statements
of Derrick, Stanley’s brother, implicated Stanley. Ford and
Jones also placed Stanley within the caravan that ambushed
Bluitt and Neeley.
As for the drug traﬃcking, the court looked to Todd’s and
Jones’s testimony and Ford’s proﬀer and found that Stanley
“manag[ed] drug lines at 47th and Vincennes.” It noted that
Stanley was “the leader of the eﬀort to drive the Black Disci‐
ples out of this area and to take it over for the Hobos,” refer‐
ring to an altercation between Stanley and the BDs. The court
also concluded that the evidence was suﬃcient for the at‐
tempted murders. To each racketeering act, it added an ob‐
struction enhancement that increased the proposed oﬀense

App.000069

Case: 17-1650

70

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

level by two levels. With grouping, the combined adjusted of‐
fense level was 49, reduced to 43. This again resulted in a
Guidelines range of life; that in turn was reduced to the 20‐
year statutory maximum.
On August 10, 2017, the court held a second sentencing
hearing to consider the section 3553(a) factors. Stanley and the
government both argued for a 20‐year sentence. They dis‐
puted, however, whether it should run consecutively or par‐
tially concurrently to an undischarged sentence that Stanley
was serving based on a conviction in the Central District of
Illinois. That conviction, which carried a 262‐month sentence,
was based on Stanley’s distribution of heroin in Springﬁeld.
The court held that the Springﬁeld drug trade was relevant
conduct in the racketeering case, but it decided to run Stan‐
ley’s 20‐year sentence for the latter consecutively to the
Springﬁeld term. It explained that it was necessary to account
for the violent activity and “personal participation in murders
and attempted murders” that were part of the racketeering
case. The Springﬁeld drug traﬃcking, the court thought,
“pale[d] in signiﬁcance to the conduct” in which the Hobos
enterprise engaged. While there was “some overlap,” it said,
the racketeering case “concerns a far broader and more seri‐
ous range of conduct than was at issue in the Central District
case.” Moreover, it noted that Stanley had a lengthy criminal
record and “has had a second chance, a third, fourth, ﬁfth,
sixth, seventh chance. At each opportunity that has been pre‐
sented to him to put his criminal conduct behind him, he has
instead concluded to escalate his criminal conduct … .”
Stanley raises two arguments on appeal: ﬁrst, he accuses
the district court of relying on unreliable trial evidence to cal‐

App.000070

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

71

culate his oﬀense level; and second, he contends that the evi‐
dence underlying the district court’s determination that his
racketeering activity included the murders and attempted
murders was incredible and full of inconsistences. These
make essentially the same point, and so we treat them to‐
gether.
With respect to the Bluitt/Neeley murders, Jones testiﬁed
that Stanley was in the third car of the four‐car caravan, but
Derrick told Johnson that Stanley was in the ﬁrst car. Ford’s
proﬀer suggested yet a diﬀerent lineup. The district court
chalked these inconsistencies up to the quick and chaotic na‐
ture of an ambush. It also disregarded the fact that neither of
Todd’s two sources mentioned Stanley as a participant.
Stanley also argues that the ﬁnding that he participated in
the shooting of Jonte Robinson was based on unreliable, in‐
consistent, and untrustworthy evidence. The district court
chose to credit Todd’s testimony, which implicated Stanley.
Stanley had rented the car that a witness saw during the inci‐
dent, and he later returned that car to the rental company
without license plates and traded it for a diﬀerent car. Stanley
argues that Todd was an admitted perjurer who could not be
trusted, and that his testimony conﬂicted with the testimony
of Robinson on details such as the type of car Stanley had and
where he was shot. Ford told law enforcement that Derrick,
not Stanley, was the shooter.
These discrepancies were for the district court to resolve.
The government needed to satisfy only the preponderance of
the evidence standard. United States v. England, 555 F.3d 616,
622 (7th Cir. 2009). In addition, although due process requires
reliable evidence, the rules of evidence and the Confrontation
Clause do not apply at sentencing, and so the court may rely

App.000071

Case: 17-1650

72

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

on hearsay even if the defendant did not have an opportunity
to cross‐examine witnesses. See United States v. Bogdanov, 863
F.3d 630, 635 (7th Cir. 2017).
Although the witnesses did not agree on the details, Jones,
Derrick, and Ford all placed Stanley at the scene of Robinson’s
shooting. “[A] sentencing court may credit testimony that is
totally uncorroborated and comes from an admitted liar, con‐
victed felon, or large scale drug‐dealing, paid government in‐
formant.” United States v. Clark, 538 F.3d 803, 813 (7th Cir.
2008) (internal quotation marks omitted). That is what the
court did, accepting Todd’s testimony that he met Stanley and
Derrick in front of a daycare center. Stanley was in a GMC
vehicle and Derrick was in a white Grand Am. Stanley
pointed Robinson out and then someone in the Grand Am be‐
gan shooting. Bush, who was with Stanley, also began shoot‐
ing. Todd’s testimony was corroborated by a CPD oﬃcer’s
testimony that an eyewitness to the shooting reported a li‐
cense plate of a vehicle at the scene. The report matched Na‐
tional Car Rental records showing that Stanley rented a blue
GMC SUV that was returned on the day of the shooting with‐
out license plates.
Next, Stanley asserts that the district court abused its dis‐
cretion by running Stanley’s sentence consecutively to his un‐
discharged sentence for the Springﬁeld drug conviction. The
government points us to 18 U.S.C. § 3584(a), which says that
if a defendant is “already subject to an undischarged term of
imprisonment,” the court may run a term of imprisonment
“concurrently or consecutively” to the undischarged term.
The default rule is that “[m]ultiple terms of imprisonment im‐
posed at diﬀerent times run consecutively unless the court or‐
ders that the terms are to run concurrently.” 18 U.S.C.

App.000072

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

73

§ 3584(a). Section 3584(b) instructs a court to consult the sec‐
tion 3553 factors when it makes its decision between the two
options. As we indicated earlier, that is just what the court did
here.
Stanley responds in two ways. First, he emphasizes that
the Springﬁeld conduct was relevant conduct to the racketeer‐
ing case. See U.S.S.G. § 1B1.3(a)(1)(B). Accordingly, Guideline
§ 5G1.3(b) applies. It states: “If … a term of imprisonment re‐
sulted from another oﬀense that is relevant conduct to the in‐
stant oﬀense of conviction … the sentence for the instant of‐
fense shall be imposed to run concurrently to the remainder
of the undischarged term of imprisonment.” Stanley seizes on
the word “shall” to argue that a concurrent sentence was man‐
datory.
But nothing in the Guidelines is mandatory anymore.
United States v. Booker, 543 U.S. 220 (2005), “made all Guide‐
lines advisory; the judge must understand what sentence the
Guidelines recommend but need not impose it.” United States
v. Bangsengthong, 550 F.3d 681, 682 (7th Cir. 2008). We have
recognized that courts are “free to disagree with a guidelines
recommendation, as the court did here when it rejected con‐
current sentences under section 5G1.3(b).” United States v.
Moore, 784 F.3d 398, 404 (7th Cir. 2015). The district court in
the present case thus was free to choose to impose consecutive
sentences.
Stanley also urges that the court should at least have im‐
posed a partially concurrent sentence because he was sen‐
tenced as a career oﬀender in the Springﬁeld case. Although
the career‐oﬀender designation was correct at the time of sen‐
tencing, Stanley argues, his earlier Illinois Residential Bur‐
glary conviction is no longer a qualifying predicate oﬀense for

App.000073

Case: 17-1650

Document: 150

Filed: 08/28/2020

74

Pages: 83

Nos. 17‐1650 et al.

the enhancement. Because of this, instead of 262 months, he
argues that he would have received only 120 months for the
Springﬁeld conviction, as there is nothing in the record to sug‐
gest the sentencing judge would have imposed an upward
variance of 142 months. He concludes that a partially concur‐
rent sentence was necessary to avoid a composite sentence
that is greater than necessary.
We see no abuse of discretion on the district court’s part.
The Springﬁeld sentence was imposed post‐Booker, and so
that court had the discretion to depart from the Guidelines. It
chose not to do so. Here, the district court explained in detail
why it was choosing consecutive sentences, and we have no
reason to overturn its decision.
V
We have hardly spoken of Byron Brown so as not to add
unnecessary length to an already long opinion, but Brown
was also actively involved with the Hobos. We need not delve
into all his criminal activity, which included drug dealing,
home invasions, robbery, shootings, and murder. It is enough
to give a brief summary of the facts pertinent to his individual
contentions.
On August 27, 2014, Brown pleaded guilty to Count 1,
racketeering conspiracy in violation of 18 U.S.C. § 1962(d),
and Count 4, murder in aid of racketeering in violation of 18
U.S.C. § 1959(a). He was represented by two appointed attor‐
neys, Robert Loeb and Keith Spielfogel, during the proceed‐
ings in the district court, including at the change‐of‐plea hear‐
ing. (Under 18 U.S.C. § 3005, as a person facing potential cap‐

App.000074

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

75

ital charges, Brown was entitled to representation by two at‐
torneys, at least one of whom was knowledgeable about the
defense of death penalty cases.)
At the change‐of‐plea hearing, the district court found that
Brown was competent to enter a guilty plea. Brown stated
multiple times, under oath, that he was satisﬁed with both of
his attorneys’ representation. He conﬁrmed that he had an op‐
portunity to review with his attorneys the proposed plea
agreement, and he stated he did not need more time to discuss
the plea agreement with counsel. Brown conﬁrmed that he
did not have any questions that were left unresolved in his
mind about whether he should enter into the plea agreement.
Brown also conﬁrmed that he had reviewed and signed the
plea agreement, and that no one had threatened him or pres‐
sured him to do so.
The district court discussed the terms of the plea agree‐
ment’s cooperation provision with Brown. Although the mur‐
der‐in‐aid‐of‐racketeering charge carried a mandatory mini‐
mum term of life imprisonment and the possibility of the
death penalty, the agreement speciﬁed an agreed sentence of
35 to 40 years’ imprisonment, conditioned on Brown’s contin‐
ued cooperation with the government. At the request of the
district court, the government summarized what would be re‐
quired of Brown under this provision, telling him that he was
expected to give “complete and truthful testimony in any
criminal, civil, or administrative proceeding[.]” Brown con‐
ﬁrmed that he understood and agreed to do so. He also con‐
ﬁrmed that he understood that the government had sole dis‐
cretion to determine whether he lived up to that obligation.

App.000075

Case: 17-1650

76

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Brown also acknowledged that he would not be able to
withdraw his guilty plea, and he conﬁrmed his understand‐
ing that he would be subject to life imprisonment if the gov‐
ernment determined he had not kept up his end of the bar‐
gain. Next, the court established a factual basis for Brown’s
guilty plea. Afterward, it returned to the issue of voluntari‐
ness, conﬁrming that no one had threatened or forced Brown
to plead guilty. The court then accepted his guilty plea.
The prosecutors later discovered that Brown had provided
materially false information to the government. He did so
during interviews and during testimony before the federal
grand jury. Accordingly, the government told Brown that it
would not seek a reduced sentence on Brown’s behalf.
On November 17, 2015, the district court set a sentencing
date. One month later, on December 23, Brown ﬁled a pro se
demand for special appearance and a motion to strike his
guilty plea. On January 21, 2016, Brown’s lawyers ﬁled a mo‐
tion to withdraw, which the court granted. It then struck the
sentencing date and appointed new counsel for him.
On May 20, 2016, Brown moved to withdraw his guilty
plea. He alleged that he received ineﬀective assistance from
Robert Loeb before pleading guilty. Brown asserted that Loeb
had threatened and coerced him to plead guilty even though
he knew Brown had testiﬁed falsely before the grand jury.
The district court denied Brown’s motion a month later
without an evidentiary hearing, ﬁnding that Brown’s accusa‐
tions were “exceedingly unreliable,” and that “summary de‐
nial without a hearing [was] warranted.” On March 14, 2017,
the district court sentenced him to concurrent terms of life im‐
prisonment on the two counts.

App.000076

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

77

Brown argues that the district court erred when it decided
not to hold an evidentiary hearing to investigate whether he
should be allowed to withdraw his guilty plea. Brown claims
that counsel was ineﬀective, as deﬁned in Strickland v. Wash‐
ington, 466 U.S. 668 (1984), by (1) failing adequately to advise
him that he would be required to testify at trial and (2) failing
to investigate the circumstances surrounding his untruthful‐
ness, possible coercion by law enforcement, and the possibil‐
ity of correcting misstatements in the grand jury.
Guilty pleas, as we have stressed in the past, should not
lightly be withdrawn. See, e.g., United States v. Chavers, 515
F.3d 722, 724 (7th Cir. 2008). Only a few grounds merit this
relief: “where the defendant shows actual innocence or legal
innocence, and where the guilty plea was not knowing and
voluntary.” United States v. Graf, 827 F.3d 581, 583 (7th Cir.
2016). “A defendant who contends that his guilty plea was not
knowing and intelligent because of his lawyer’s erroneous ad‐
vice must show that the advice was not within the range of
competence demanded of attorneys in criminal cases.” United
States v. Trussel, 961 F.2d 685, 690 (7th Cir. 1992) (internal quo‐
tation marks omitted). Moving to withdraw a guilty plea does
not automatically entitle a defendant to an evidentiary hear‐
ing. See United States v. Collins, 796 F.3d 829, 834 (7th Cir.
2015). A defendant must oﬀer substantial evidence support‐
ing his claim, and “if the allegations advanced in support of
the motion are conclusory or unreliable, the motion may be
summarily denied.” Id.
We begin with Brown’s contention that his counsel did not
advise him that he would be required to testify at trial against
his co‐defendants. The record shows otherwise. As we noted,
the district court ensured that Brown was fully informed

App.000077

Case: 17-1650

Document: 150

Filed: 08/28/2020

78

Pages: 83

Nos. 17‐1650 et al.

about the plea agreement and his cooperation obligations.
Brown is simply experiencing buyer’s remorse; the district
court acted within its discretion in crediting his statements,
made under oath, at the change‐of‐plea hearing.
Brown’s assertion that his lawyers failed to investigate his
truthfulness, coercion by law enforcement, and the possibility
of correcting misstatements in the grand jury strikes us as
somewhat bizarre. In any event, Brown did not present this
theory to the district court. We therefore review Brown’s ar‐
gument for plain error, which requires error that is plain, ob‐
vious, and prejudicial. United States v. Fuentes, 858 F.3d 1119,
1120−21 (7th Cir. 2017). Brown has come nowhere near meet‐
ing that standard.
Moreover, even assuming Brown received ineﬀective as‐
sistance of counsel, he cannot show prejudice. “[I]n order to
satisfy the ‘prejudice’ requirement, the defendant must show
that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have in‐
sisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985).
We ﬁnd this unlikely, as Brown was deciding between a plea
and a possible death sentence. In addition, under Brown’s
plea agreement, the government had the sole discretion to de‐
cide whether Brown provided complete and truthful cooper‐
ation deserving of a § 5K1.1 motion.
VI
Rodney Jones pleaded guilty pursuant to a plea agreement
to one count of RICO conspiracy in violation of 18 U.S.C.
§ 1962(d). He was sentenced to 450 months in prison, reduced
by 110 months to account for time that he already had served
in a related state case. Jones ﬁled a timely notice of appeal, but

App.000078

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

79

his appointed counsel has moved to withdraw under Anders
v. California, 386 U.S. 738 (1967), because she believes an ap‐
peal to be without merit or possibility of success. Pursuant to
Circuit Rule 51(b), Jones was notiﬁed of the opportunity to re‐
spond to his counsel’s motion to withdraw, but he did not do
so. Having considered counsel’s brief, which addresses the
topics one would expect to see in this situation, we grant her
motion to withdraw and dismiss the appeal.
Jones was a member of the Hobos and participated in
many of the crimes discussed above and others, including
armed robbery of a marijuana dealer, the attempted murder
of Courtney Johnson, home invasion and attempted robbery,
the murder of Daniel Dupree, and the home invasion and fel‐
ony murder of Tommye Freeman (the elderly woman whose
car he struck while trying to elude law enforcement). Jones
was charged with RICO conspiracy, and in February 2016, he
pleaded guilty and admitted to facts regarding the predicate
RICO acts.
In the plea agreement, the parties agreed to the relevant
guidelines calculations. In addition, Jones promised to pro‐
vide complete and truthful information to the government
and give complete and truthful testimony if called upon to do
so. In exchange, the government agreed that “[a]t the time of
sentencing, the government shall make known to the sentenc‐
ing judge the extent of defendant’s cooperation. If the govern‐
ment determined that defendant has continued to provide full
and truthful cooperation as required by this Agreement, then
the government shall move the Court, pursuant to Guideline
§ 5K1.1, to depart from the low end of the applicable guideline
range, and to impose the speciﬁc sentence agreed to by the
parties as outlined below.” The agreement speciﬁed that if the

App.000079

Case: 17-1650

80

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

government so moved, “the parties have agreed that the sen‐
tence imposed by the Court be a term of imprisonment in the
custody of the Bureau of Prisons of not less than 360 months
and not more than 504 months.” The court was to have dis‐
cretion to reduce the sentence below 360 months only to ac‐
count for time Jones served in state custody pursuant to
charges brought against him by the Cook County State’s At‐
torney’s Oﬃce in People v. Rodney Jones, 09‐CR‐1125729, as the
underlying oﬀense conduct in that state case was part of the
oﬀense conduct in the present case. The Cook County case
was for the felony murder of Freeman. In it, Jones was found
guilty of this oﬀense in March 2013, and he was sentenced to
42 years in state prison. After an agreement between the par‐
ties to the federal case and the State’s Attorney, that state sen‐
tence was reduced to 25 years on July 2016. Critically, the fed‐
eral plea agreement also included a waiver of Jones’s right to
appeal his conviction and sentence.
In November 2017, the government ﬁled a sentencing
memorandum. Pursuant to section 5K1.1, it asked for a sen‐
tence of 297 months based on Jones’s cooperation and testi‐
mony at trial. The government indicated that this sentence
was calculated based on a total sentence of 418 months in
prison for the federal case, which was then reduced by 121
months for the time Jones had spent in prison for the Freeman
murder. Jones requested a total sentence of 239 months based
on various mitigating factors.
The district court held a sentencing hearing on November
20, 2017. It rejected both requests and chose a sentence of 450
months, which it then reduced by the 110 months that it cal‐
culated Jones had already served for the Freeman case. This

App.000080

Case: 17-1650

Document: 150

Nos. 17‐1650 et al.

Filed: 08/28/2020

Pages: 83

81

resulting in a federal sentence of 340 months, to be served con‐
currently with the remainder of the state court sentence. The
court imposed restitution of $22,272.16 for two victims, but it
declined to impose a ﬁne. Jones also received a special assess‐
ment of $100 and a three‐year term of supervised release.
Counsel ﬁrst considers whether any challenge to Jones’s
conviction would be frivolous. Jones indicated to her that he
wants to withdraw his guilty plea, and so a potential issue for
appeal would be whether his plea was knowing and volun‐
tary. Because Jones did not move to withdraw his guilty plea
in the district court, our review is limited to determining
whether plain error occurred. United States v. Driver, 242 F.3d
767, 769 (7th Cir. 2001).
Counsel identiﬁes two Rule 11 omissions by the district
court during the change‐of‐plea hearing. First, the court did
not inform Jones of some of the rights he was waiving by
pleading guilty. These rights included the right to plead not
guilty, the right to assistance of counsel, and the right to con‐
front witnesses. See Fed. R. Crim. P. 11(b)(1)(B), (D), & (E).
“Compliance with Rule 11 is not meant to exalt ceremony
over substance.” United States v. Coleman, 806 F.3d 941, 944
(7th Cir. 2015). “If the record reveals an adequate substitute
for the missing Rule 11 safeguard, and the defendant fails to
show why the omission made a diﬀerence to him, his substan‐
tial rights were not aﬀected.” Id. at 944–45. Here, Jones knew
he could plead not guilty because he previously had pleaded
not guilty. In addition, Jones knew that he had the right to
counsel’s assistance because he had been continuously repre‐
sented since his arraignment. And Jones’s plea agreement ad‐
vised him that he had the right to confront witnesses at trial.

App.000081

Case: 17-1650

82

Document: 150

Filed: 08/28/2020

Pages: 83

Nos. 17‐1650 et al.

Thus, any error made by the omission did not aﬀect Jones’s
substantial rights. See Rule 11(h).
The court also failed to discuss the appeal waiver con‐
tained in Jones’s plea agreement. See Rule 11(b)(1)(N). To
show that this omission aﬀected his substantial rights, Jones
would have to show that there is a reasonable probability that,
but for the Rule 11 error, he would not have pleaded guilty.
United States v. Dominguez Benitez, 542 U.S. 74, 76 (2004). The
appeal waiver is unambiguous, and Jones told the district
court multiple times that he had read the agreement and dis‐
cussed it with his attorney. He also acknowledged in the plea
agreement that his attorneys had explained the rights he was
waiving, that he had read and reviewed each provision with
his attorney, and that he understood and accepted every term.
Counsel notes that it is diﬃcult to see how the omission of the
appellate waiver warning by the district court at the change‐
of‐plea hearing could have aﬀected Jones’s decision to plead
guilty, given the beneﬁts he received under the agreement, in‐
cluding a sentence that falls well below the guidelines recom‐
mendation of life in prison. We agree and ﬁnd no plain error.
Counsel next considered whether any challenge to Jones’s
sentence would be frivolous. Jones explicitly waived the right
to appeal his sentence in his plea agreement, and we review
the enforceability of a waiver of appeal rights de novo. United
States v. Woods, 581 F.3d 531, 534 (7th Cir. 2009).
Because Jones’s guilty plea was knowing and voluntary,
his waiver of appellate rights in the plea agreement was also
knowing and voluntary. We will honor that waiver unless
“the trial court relied on a constitutionally impermissible fac‐
tor (such as race), or … the sentence exceeded the statutory
maximum.” Jones v. United States, 167 F.3d 1142, 1144 (7th Cir.

App.000082

Case: 17-1650

Document: 150

Filed: 08/28/2020

Nos. 17‐1650 et al.

Pages: 83

83

1998). Neither exception applies here. Jones’s sentence of 450
months was within the statutory maximum (life imprison‐
ment) and it was within the parties’ agreed range. Jones’s sen‐
tence was also not the result of a constitutionally impermissi‐
ble factor. Therefore, we grant counsel’s motion to withdraw,
and we dismiss Jones’s appeal.
VII
In the end, almost the entirety of this complex criminal
trial will remain undisturbed thanks to Judge Tharp’s excel‐
lent handling of the case. We AFFIRM the convictions of all the
defendants. We also AFFIRM the sentences of all the defend‐
ants except for Chester. We VACATE Chester’s sentence in
13 CR 288, appeal No. 17‐3063, and order a limited remand
for further proceedings consistent with this opinion. In
Jones’s case, No. 17‐3449, we GRANT Counsel’s motion to
withdraw and DISMISS the appeal.

App.000083

Appendix B

Case: 1:13-cr-00774 Document #: 1331 Filed: 09/06/17 Page 1 of 4 PageID #:27342

App.000084

Case: 1:13-cr-00774 Document #: 1331 Filed: 09/06/17 Page 2 of 4 PageID #:27343

App.000085

Case: 1:13-cr-00774 Document #: 1331 Filed: 09/06/17 Page 3 of 4 PageID #:27344

App.000086

Case: 1:13-cr-00774 Document #: 1331 Filed: 09/06/17 Page 4 of 4 PageID #:27345

App.000087

Appendix C

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 1 of 114 PageID #:26348

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
GREGORY CHESTER, ARNOLD
COUNCIL, PARIS POE, GABRIEL
BUSH, WILLIAM FORD, and
DERRICK VAUGHN,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

No. 13 CR 00774
Judge John J. Tharp, Jr.

MEMORANDUM OPINION AND ORDER (CORRECTED)
In this case, nine defendants were charged in a Superseding Indictment (“SI”) on
September 14, 2014. SI, ECF No. 161. Three defendants pleaded guilty before trial, leaving the
charges as follows: Count One charged Gregory Chester, Arnold Council, Paris Poe, Gabriel
Bush, William Ford, and Derrick Vaughn with conspiracy to violate RICO, see 18 U.S.C. §
1962(d); Count Two charged Council and Poe with a Violent Crime in Aid of Racketeering
(“VICAR”), namely, the murder of Wilbert Moore, see 18 U.S.C. § 1959; Count Three charged
Bush with the VICAR murder of victim Terrance Anderson, see id.; Counts Four and Five
charged Vaughn with the VICAR murder of Antonio Bluitt and Gregory Neeley see id.; Count
Six charged Poe with Obstruction of Justice by Murder, see 18 U.S.C. § 1503, as to victim Keith
Daniels; Count Seven charged Council with aiding and abetting the use, carrying, and
brandishing of a firearm during a robbery, see 18 U.S.C. § 924(c)(1)(A) & (2); and Counts Eight
through Ten charged Ford with possession of a firearm by a felon, possession with intent to
distribute marijuana, and possession of a firearm in furtherance of a drug trafficking crime,
respectively, see 18 U.S.C. § 922(g), 21 U.S.C. § 841(a)(1), and 18 U.S.C. § 924(c)(1)(A). The
1
App.000088

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 2 of 114 PageID #:26349

Superseding Indictment was partially superseded once more days before trial; in the Second
Superseding Indictment (“SSI”), which had no “counts” enumerated, the grand jury reasserted
the Count Six charge against Poe and added allegations specifically identifying the proceedings
he was charged with obstructing. See SSI, ECF No. 771. After a four-month trial, on January 4,
2017, the jury found each of the six trial defendants guilty on each Count against him, with the
exception of Count Ten, of which defendant Ford was acquitted. The defendants have filed
motions for a judgment of acquittal, see Fed. R. Crim. P. 29, and for a new trial, see Fed. R.
Crim. P. 33. For the reasons explained below and at trial, the motions are denied. The jury’s
verdicts stand.
BACKGROUND
In summary, the government alleged that the defendants, most of whom grew up in the
same housing projects on Chicago’s south side and were members of gangs—more accurately, in
some cases, gang factions—formed a criminal enterprise called the Hobos, which was especially
violent, strategic, and lucrative. According to the government, the Hobos banded together with
the common purposes of accumulating wealth, expanding their sphere of power, and increasing
their reputation and status; they carried out those purposes through a pattern of racketeering acts
committed by the defendants and their associates, 1 including murders, shootings, home

1

In these proceedings the government has asserted that the Hobos “included” at least the
following 19 individuals: “(1) Gregory Chester, aka Bowlegs; (2) Arnold Council, aka
Armstrong; (3) Gabriel Bush, aka Louie; (4) Paris Poe, aka Poleroski; (5) Stanley Vaughn, aka
Smiley; (6) Derrick Vaughn, aka D-Block; (7) William Ford, aka Joe Buck; (8) Patrick Davis,
aka Lil Pat; (9) Kevin Daniels, aka Parkay; (10) Leon Baylor, aka Leeski; (11) Gary Chester, aka
Chee; (12) Walter Thompson, aka Lil Walt; (13) Lance Dillard, aka Double; (14) Rodney Jones,
aka Milk; (15) Byron Brown, aka B-Rupt; (16) Brandon Brown, aka Twinsko; (17) Pierre
Skipper, aka P-Mac; (18) Chad Todd, aka Young Money; and (19) Ingemar Vaughn, aka Boo.”
See, e.g., Government’s Version of the Offense at 2, ECF No. 1227 (The government does not
say this is a comprehensive list of all known Hobos.)
2
App.000089

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 3 of 114 PageID #:26350

invasions, drug trafficking, and robberies. Some of those acts were separately charged in Counts
Two through Ten.
Trial was scheduled for September 6, 2016. About a week before the trial, defendant Poe
moved for the dismissal of Count Six from the Superseding Indictment because it failed to allege
the obstruction of any specific pending judicial proceeding. Poe Mot., ECF No. 747; Govt.
Resp., ECF No. 753. As the Court mulled Poe’s potentially meritorious argument, the
government scurried to the grand jury, which returned a Second Superseding Indictment against
Poe on September 1, mooting Poe’s motion. The Second Superseding Indictment did not repeat
Counts One through Five or Seven through Ten of the First Superseding Indictment, and it was
returned against only Poe. Enumerating no count, it simply charged that Poe murdered Keith
Daniels in order to obstruct the then-pending drug cases against Gregory Chester and codefendant Lance Dillard (Daniels was the confidential informant to whom they sold drugs), see
13 CR 288 and 289 (N.D. Ill.), as well as the grand jury investigation in this case, 11 GJ 740. At
a status hearing on September 2, 2016, this Court noted that Poe’s argument had been “well
founded” as to the technical deficiency of Count Six, but that the defect was cured by the new
charge, with no prejudice to Poe, who was well aware from the discovery process of which
judicial proceedings he was alleged to have obstructed. See Tr. at 18, ECF No. 1200. The Court
overruled Poe’s objection that as a matter of right he could not be tried for 30 days after the
filing of a superseding indictment (Poe does not specifically challenge that ruling in his pending
motions.) Id. at 16. Poe was arraigned on September 6, 2016, before the jury selection process
began. See Tr. at 5, ECF No. 1201. The government did not formally withdraw Count Six of the

3
App.000090

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 4 of 114 PageID #:26351

superseding indictment, but the Court confirmed: “the trial of that [new] charge will proceed
today in lieu of the trial on the Count Six of the . . . first superseding indictment.” 2 See id. at 6.
Also on the eve of trial, defendant William Ford expressed his desire to plead guilty to
Count One. As his co-defendant Stanley Vaughn very recently had done, Ford provided the
government and the Court, on August 24, 2016, with a draft plea declaration as to Count One.
Ford acknowledged a maximum penalty of 20 years’ imprisonment on the conspiracy count. At
the hearing on Ford’s request to change his plea to Count One, see Tr., ECF No. 1198, the
government maintained that Ford was possibly subject to a maximum of life imprisonment on
Count One, depending on any Additional Findings the jury made beyond a reasonable doubt
about specific underlying racketeering acts Ford was alleged to have engaged in. The Court
agreed that it would need to advise Ford as part of the Rule 11 colloquy that, pursuant to 18
U.S.C. § 1963(a), the maximum statutory penalty was, potentially, life imprisonment, pending
the proof of certain facts beyond a reasonable doubt. 3 See id. at 4-6. After an extensive colloquy

2

William Ford, who was not named in the new count and as to whom no findings were
made by the jury with respect to the murder of Keith Daniels, raised a contemporaneous
objection to proceeding in this fashion. See Mot. to Dismiss, ECF No. 804, and the Court’s
ruling, Order, ECF No. 812; Trial Tr. 3 at 333-334.
3

Perhaps prompting Ford’s desire to plead guilty, the Court had accepted a guilty plea
from defendant Stanley Vaughn pursuant to a plea declaration on August 16, 2016. See
Trancript, ECF No. 734. The plea declaration reflected Stanley Vaughn’s belief that the statutory
maximum for him on Count One was 20 years, as he was charged only with Count One and was
singled out only in connection with a single act of attempted murder, and thus there would be no
factual findings about his conduct that could be used as the basis for an enhanced sentence.
Vaughn’s attorney represented that Vaughn was “pleading guilty to the conspiracy, the elements
of the conspiracy, which is all he needs to do at this time, and simply preserving his right to
contest a separate factual issue regarding the shooting of victim No. 4.” Id. at 4. Counsel further
stated: “Mr. Vaughn has been advised and he will acknowledge on the record that he
understands that he could be subject to life imprisonment if certain facts are found. And he’s
willing to submit those facts to Your Honor for factual finding.” Id. at 5 (emphasis added). This
Court ruled that “to have a plea hearing, Mr. Vaughn would have to acknowledge the possibility,
based on the government’s position that he is still subject to life imprisonment on the basis of
this plea, and the government intends to pursue whatever course is necessary to prove up the
4
App.000091

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 5 of 114 PageID #:26352

with the Court, Ford’s counsel stated: “Well, my belief is that if Mr. Ford were to plead guilty
and potentially be admonished that he was facing— that he could be facing life that he would be
waiving—that's my opinion, that he would actually be waiving the argument that he's not
potentially facing life.” See id. at 8. Counsel therefore agreed, on behalf of Mr. Ford, that “[w]e
cannot go forward, at least today.” Id. Mr. Ford made no further efforts to change his plea, and
he went to trial beginning on September 6, 2016 along with the five remaining codefendants.
On January 4, 2017, a jury returned verdicts of guilty on all counts against all six trial
defendants as charged in the First and Second Superseding Indictments, with the exception of
Count Ten (possession of a firearm in connection with drug trafficking activity), of which the
only charged defendant, William Ford, was acquitted. After reaching its general verdicts, the jury
also returned “Additional Findings” against each defendant in order to fulfill the mandate that
any facts that effectively raise the statutory maximum penalty be found by a jury beyond a
reasonable doubt. Apprendi v. New Jersey, 530 U.S. 466 (2000); United States v. Smith, 308 F.3d
726, 740 (7th Cir. 2002) (condoning special verdict form for finding of drug quantity). The jury
had been instructed orally once, before deliberations, on both the General Verdicts and the
Additional Findings. See Trial Tr. Vol. 56 at 13411-13434. The jury was instructed, however,
that it should not access the written Additional Findings Instructions and Verdict Forms unless
and until it first completed all the general verdicts and found any defendant guilty. See id. To

predicates that would lead to the imposition of that sentence.” In his change of plea hearing,
Vaughn did acknowledge that the potential penalty he faced for the racketeering conspiracy was
life imprisonment, although he reserved the right to argue during sentencing proceedings that the
government could not show a factual basis for such a sentence. The Court advised him that due
to the competing views of the parties, and the lack of full briefing on the legal issues, there was
at least a possibility that his maximum penalty would be life imprisonment, and that Vaughn had
to “understand and acknowledge that the maximum—potentially the maximum penalty that
could be imposed on you predicated on this conviction will be life in prison.” By contrast,
defendant Ford refused to make this acknowledgment, and so his guilty plea was not taken.
5
App.000092

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 6 of 114 PageID #:26353

reinforce this instruction, the Additional Findings Instructions and Verdict Forms were sealed in
a separate envelope with the instruction to open it only after all the General Verdict Forms had
been completed and one or more defendants had been found guilty of one or more offenses. The
dates of the jurors’ signatures on the respective verdict forms suggest they followed those
instructions and did not complete any Additional Findings Verdicts until they had completed all
of the General Verdict Forms. See Redacted Jury Verdict and Additional Findings Forms, ECF
No. 1089. 4
The defendants now file motions for judgment of acquittal, see Fed. R. Crim. P. 29, and
for a new trial, see Fed. R. Crim. P. 33. Each defendant has adopted his co-defendants’ motions
insofar as they pertain to him and has also incorporated and re-asserted his own objections and
motions made before and during the trial.
DISCUSSION
As a preliminary matter relevant to all the post-trial motions, the government asks the
Court to disregard the defendants’ motions to the extent they incorporate their own previous
arguments or the arguments of other defendant(s), or rest on “conclusory and barebones
allegations of error.” Govt. Resp. 68, ECF No. 1207. But a defendant’s incorporation of his own
arguments made before or during trial is permitted after trial. The process requires the review of
multiple additional motions, briefs, and written and oral rulings, but the Seventh Circuit
apparently allows this approach to raising arguments in the district court, United States v. Brown,
726 F.3d 993, 1005 (no waiver where “new trial motion incorporated by reference all objections
and positions taken during trial”), although not in the appellate court, see DeSilva v. DiLeonardi,
181 F.3d 865, 866 (7th Cir. 1999) (because “incorporation is a pointless imposition on the
4

The Court empaneled an anonymous jury for this trial, and therefore, the signed verdict
forms are sealed and access is restricted. See Sealed Jury Verdict, ECF No. 1088.
6
App.000093

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 7 of 114 PageID #:26354

court’s time,” “[a] brief must make all arguments accessible to the judges, rather than ask them
to play archaeologist with the record”). The inefficiencies of this process would hardly be
remedied by requiring the defendants to set out at length in their post-trial briefs arguments that
have already been developed and addressed. Of course, if a defendant incorporates previous
arguments without giving the court good reason to reconsider its previous rulings, there is no
reason to restate that analysis here.
It is also permissible for a defendant to adopt a relevant argument made by another
defendant. This Court has no use for six sets of motions arguing the same issue if it applies
across the board, to the extent that any defendant is willing to rely upon another’s framing of the
issue and presentation of the argument and authorities. It would not and could not require joint
briefing of any issue, but nothing prevents the defendants from voluntarily doing so. And if this
Court were to accept an argument made by one defendant, it could hardly exclude the other
defendants to whom the same argument applies in applying a remedy simply because that
defendant did not separately brief it. For example, if this Court were to agree with one
defendant’s argument that a jury instruction was erroneous, the remedy for that error would be
applicable to each defendant to whom the instruction applied, whether or not he made a separate
argument on that issue. The government’s contention to the contrary is not well founded.
On the other hand, the government rightly cites the familiar principle that cursory
arguments are waived. Even in the criminal context, perfunctory and undeveloped arguments,
unsupported by pertinent authority, are waived; courts are not obligated “to research and
construct the legal arguments open to parties, especially when they are represented by counsel.”
United States v. Holm, 326 F.3d 872, 877 (7th Cir. 2003) (quotation marks and citations
omitted); United States v. McLee, 436 F.3d 751, 760 (7th Cir. 2006). Given the number of issues

7
App.000094

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 8 of 114 PageID #:26355

before the Court, as well as the fact that each defendant is represented by two able lawyers (and
the government by three), 5 this rule has been enforced against both sides.
I.

Rule 29 Motions for Judgment of Acquittal

Every defendant raises a challenge to the sufficiency of evidence against him. After a
jury’s guilty verdict, a criminal defendant seeking a judgment of acquittal under Rule 29 faces a
hurdle that the Seventh Circuit has deemed “nearly insurmountable.” See United States v. Jones,
713 F.3d 336, 339 (7th Cir. 2013). Nevertheless, it is not “wholly insurmountable,” and because
the government bears the burden of proof, “the height of the hurdle depends directly on the
strength of the government’s evidence.” Id. If the evidence is insufficient to sustain the
conviction, this Court must grant a motion for judgment of acquittal. See id. at 339-40. In
considering a Rule 29 motion, this Court views the evidence in the light most favorable to the
government, and the verdict will be overturned only if no rational trier of fact could have found
beyond a reasonable doubt that the defendants committed the essential elements of the crime. See
Jackson v. Virginia, 443 U.S. 307, 319 (1979); United States v. Genova, 333 F.3d 750, 757 (7th
Cir. 2003) (“Rule 29(c) does not authorize the judge to play thirteenth juror.”).

5

On a related note, the official transcript of the trial alone (excluding myriad other
hearings) comprises 13,612 pages in 62 volumes. The volume numbers exist for a purpose.
Unfortunately, due to the parties’ failure to cite the transcripts by volume number—when they
bothered to cite the transcripts at all—this Court had to relive most of the four-month trial to
ferret out the pages cited. The government and every defendant—except Paris Poe, whose
counsel are commended—are guilty of this imprecision, and it is both inexcusable and
detrimental to the parties’ arguments (to the extent that the Court is unable to locate the
testimony bearing on a party’s fact assertions). For future reference, the format for citing trial
transcripts is handily available in the “Quick Reference” table on the interior back cover of The
Bluebook. To understand and review the parties’ arguments, the Court and staff were required to
create a table that correlates page numbers to volumes; that chart is attached as an Appendix to
this opinion. At the very least, this Court can spare the Court of Appeals the same wasteful
exercise if any appeal arises.
8
App.000095

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 9 of 114 PageID #:26356

The Court will not catalog all of the evidence presented over the course of the four-month
trial; rather, evidence is discussed as relevant to and only in the detail required to address the
defendants’ arguments about its sufficiency. The government summarizes much of the evidence
in its consolidated response, see Government’s Consolidated Response Brief 2 – 67, ECF No.
1207 (“Resp.”), and the three defendants who filed reply briefs did not challenge the recounting
of the evidence (nor did those who declined to reply). This is not to say that the Court accepts the
government’s summary uncritically, and deviations from the record will be noted if needed.
A.

Count One: The RICO Conspiracy (All Defendants) 6

Each trial defendant argues that the government lacked sufficient evidence to prove the
existence of a racketeering conspiracy and his participation in it. Arguments of this nature were
addressed in rulings on motions to dismiss before trial, as well as in ruling on objections the
government’s Santiago proffer. See Order 4 et seq, ECF No. 560; Order 3 et seq., ECF No. 782.
In both contexts, this Court held that the government had, based on the applicable standard,
sufficiently alleged and proffered evidence of the existence of a conspiracy, and the trial
defendants’ knowing participation. The government’s burden at trial, however, is proof beyond a
reasonable doubt, so those rulings must be revisited now that the full body of admitted evidence
is before the Court.
Count One of the Superseding Indictment, ECF No. 169, charged the defendants with
conspiracy to engage in a racketeering enterprise known as the Hobos, in violation of 18 U.S.C.
§ 1962(d). Each defendant was alleged to have agreed to conduct and participate in the affairs of
an enterprise through a pattern of racketeering acts including drug trafficking, home invasions,
6

This Section addresses only the sufficiency of the evidence against the defendants on
Count One, and not with respect to the Additional Findings as to specific racketeering acts.
Although those findings relate to Count One, they are discussed in the sections that follow, in the
context of the specific acts underlying the Findings, to better provide context.
9
App.000096

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 10 of 114 PageID #:26357

robberies, shootings, and murders. The indictment alleges that the enterprise in question is the
Hobos, “that is, a group of individuals associated in fact.” SI ¶ 2.
Under RICO, it is illegal for a person “associated with any enterprise...to conduct or
participate, directly or indirectly, in the conduct of such enterprise’s affairs through a pattern of
racketeering activity.” 18 U.S.C. § 1962(c); United States v. Volpendesto, 746 F.3d 273, 283-84
(7th Cir. 2014). The RICO statute, 18 U.S.C. § 1962(d), also prohibits conspiracy to commit a
violation of its substantive provisions. Volpendesto, 746 F.3d at 284. In other words, the goal of
a RICO conspiracy is a violation of RICO. United States v. Garcia, 754 F.3d 460, 482 (7th Cir.
2014). To prove a RICO conspiracy, the government must show (1) an agreement to conduct or
participate in the affairs (2) of an enterprise (3) through a pattern of racketeering activity. United
States v. Olson, 450 F.3d 655, 664 (7th Cir. 2006).
1.

Existence of a “Hobos” Enterprise

All defendants contend that there was insufficient evidence to prove beyond a reasonable
doubt that an “enterprise” known as the Hobos existed. The Supreme Court has defined an
enterprise associated in fact as “simply a continuing unit that functions with a common purpose.”
Boyle v. United States, 556 U.S. 938, 948 (2009). The absence of the structural attributes of a
more formal enterprise is not material. United States v. Olson, 450 F.3d 655, 664 (7th Cir. 2006)
(“We have held that in informal organizations such as criminal groups, there ‘must be some
structure, to distinguish an enterprise from a mere conspiracy, but there need not be much.’”).
An enterprise includes “any union or group of individuals associated in fact,” which is to
say, “associated together for a common purpose of engaging in a course of conduct.” Boyle v.
United States, 556 U.S. 938, 944 (2009) (quoting United States v. Turkette, 452 U.S. 576, 583
(1981)); Volpendesto, 746 F.3d at 284. The purpose may be illegitimate. Turkette, 452 U.S. at

10
App.000097

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 11 of 114 PageID #:26358

587. What is required is “at least three structural features: a purpose, relationships among those
associated with the enterprise, and longevity sufficient to permit these associates to pursue the
enterprise’s purpose.” Boyle, 556 U.S. at 946; United States v. Hosseini, 679 F.3d 544, 558 (7th
Cir. 2012) (RICO enterprise requires purpose, relationships, and longevity).
As the defendants argue, the “enterprise” cannot be defined coextensively with the
“pattern of racketeering activity,” lest the two statutory elements collapse into one. “The
enterprise is an entity, for present purposes a group of persons associated together for a common
purpose of engaging in a course of conduct. The pattern of racketeering activity is, on the other
hand, a series of criminal acts as defined by the statute.” Turkette, 452 U.S. at 583. “The
existence of an enterprise at all times remains a separate element.” Id. However, the enterprise
does not have to have a purpose that is different than carrying out a pattern of racketeering
activity (that is, violating RICO’s substantive provisions).
The defendants’ argument that a reasonable jury could not have concluded that “The
Hobos” existed as an association-in-fact enterprise lacks merit. They focus on the lack of
structure, rules, profit-sharing, or a coordinated drug trafficking operation, among other things.
These carefully selected attributes are certainly relevant to the existence of a criminal enterprise,
but they are not necessary. As in United States v. Phillips, 239 F.3d 829 (7th Cir. 2001), the
defendants unpersuasively argue that the evidence showed nothing more than that they were a
group of individuals who occasionally committed crimes together, not an “enterprise.” Ignoring
considerable evidence, they say that all the government showed was that they engaged in
“accidentally parallel action.” See Volpendesto, 746 F.3d at 284 (finding it “highly implausible”
that defendants’ criminal acts were simply “accidentally parallel action”). The evidence of an
“enterprise,” however, was more than sufficient.

11
App.000098

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 12 of 114 PageID #:26359

First, several witnesses, including Hobos insiders and enemies, testified that the Hobos
were a gang. William Ford, in a secretly recorded conversation with Hobo-turned-cooperator
Chad Todd, discussed how “we” were “the hottest gang” of the moment. See Ford Tr. 4860GT 7
at 20. Ford also referred to his “squad” as the Hobo Dirty Low. Ford Tr. 4860BT at 1-2. He
talked about his and Todd’s rank “in an organization.” Ford. Tr. 4860CT at 2.
Chad Todd and Rodney Jones were each Hobos before cooperating against them; their
testimony that the Hobos existed and that they were members is competent evidence of that
organization’s existence. See Todd Test., Trial Tr. Vol. 20 at 4872; Jones Test., Trial Tr. Vol. 32
at 7402. Todd testified that he received Bush’s and Council’s “blessing” to call himself a Hobo
in 2007. Trial Tr. Vol. 20 at 4873. Jones, of the “Met Boy,” faction, also became a Hobo
sometime in 2006 after starting to sell drugs for and committing crimes with “people that was
Hobos.” Trial Tr. Vol. 32 at 7419, 7421.
Todd considered other Dirty Lows like Derrick Vaughn and William Ford to be Hobos.
Trial Tr. Vol. 20 at 4877. He considered Gregory Chester a Hobo, id. at 4895, and “the leader,”
while Council, Bush, and Poe had “positions of authority,” id. 4907. At some point, Todd also
considered the “Met Boys” to be Hobos, after they began selling drugs for Arnold Council. Id. at
4914. Jones testified that Arnold Council was a Hobo. Trial Tr. Vol. 32 at 7388. So were Fat
Shorty, id. at 7406, Bush, Derrick Vaughn, and William Ford, id. at 7415, 7424, 7477, as were
Arnold Council and Gregory Chester, see id., among others.
Another Hobo, Kenneth Bland, confirmed the existence of the Hobos by testifying that
“Fat Shorty” (Alonzo Cole) “was one of the Hobos,” Trial Tr. Vol. 36 at 8477, as were Arnold
Council, Paris Poe, Rodney Jones, the Brown twins, and “Chee” (Gary Chester), id. at 8481,
7

The transcript citations in this paragraph correspond to the audiotapes in evidence as Gov. Exs.
4860G, 4860B, and 4860C, respectively.
12
App.000099

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 13 of 114 PageID #:26360

8510, 8518, 8520, 8559. Bland himself (originally a Gangster Disciple eventually became “part
of another gang”—the Hobos. Id. at 8480. Kevin Montgomery, an associate of Gabriel Bush,
also testified that the Hobos were a gang. He testified that Arnold Council was part of a “group
or organization” called the Hobos. Trial Tr. Vol. 8 at 1805. Montgomery said that he himself was
not a Hobo. Id. at 2023; Trial Tr. Vol. 9 at 2156. Marcus Morgan testified that at one point Poe
told him that he was not ready to “be down with . . . their gang,” which he knew meant “the
Hobos.” Trial Tr. Vol. 15 at 3691.
Cashell Williams, a member of the Fifth Ward faction of the Black Disciples, testified
that the Fifth Ward and New Town (an allied faction) BD’s were in a conflict with the Dirty Low
and the Hobos in September 2007. Trial Tr. Vol. 29 at 6839. Williams testified that the Hobos
included “Joe Buck [William Ford], Poe, a few more dudes.” Id. at 6842. Courtney Johnson, a
Mickey Cobra, testified that his gang was in a conflict with a “group” called the Hobos in August
2007. Trial Tr. Vol. 27 at 6389.
In sum, witnesses from inside and outside the group testified that the Hobos were a
distinct and identifiable group of people—in other words, an association-in-fact. The jury was
entitled to credit one or more of these witnesses, which is all that was needed for there to be
sufficient proof of the existence of an association-in-fact known as the Hobos.
Second, the defendants are simply wrong to suggest that there is no evidence of the
cherry-picked characteristics that they say were not proved about the Hobos, such as a hierarchy,
profit sharing, rules, and more. The government proved a structure, albeit loose, of the Hobos
gang. See pp. 26-27 infra. According to cooperating witnesses, and Chester’s own statement to
police on October 22, 2008, Chester was the chief “breadwinner” of the Hobos, and a founding
member. Paris Poe ranked “below” Chester, according to the evidence, because he served as a

13
App.000100

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 14 of 114 PageID #:26361

protector or bodyguard to Chester at times; he protected Chester during a shoot-out at a carwash,
and he committed at least one murder in order to protect Chester from prosecution. Gabriel Bush
and Arnold Council were shown to have leadership roles in various ways. They each recruited
younger members of the Hobos: Council folded in Met Boys Byron and Brandon Brown and
Rodney Jones, while Gabriel Bush brought Chad Todd into the Hobos. They planned major
undertakings such as the coordinated drive-by shooting of Antonio “Beans” Bluitt and Gregory
“Slappo” Neeley. The younger members of the gang assisted with, rather than led, drug
operations, obtaining the drugs from Bush and Council, among others. Likewise, mid-grade
Hobos such as William Ford and Derrick Vaughn (as well as uncharged Hobos associates such
as Kevin Montgomery) worked in drug lines that were overseen by higher-ranking Hobos.
William Ford specifically referred to a “totem pole” and the Hobos’ “ranks” in conversation with
Chad Todd. These hierarchical relationships, although not memorialized with titles as in some
gangs, show an informal structure to the gang.
A finding of informal sharing of wealth, if not “profit sharing” among the Hobos could
also have been made by the jury. When a robbery occurred, proceeds were allocated among
those who directly participated and those who did surveillance in advance. The defendants, Poe
in particular, say this is meaningless because all criminals divide up robbery proceeds. But that is
not the only permissible inference from the evidence. It was also reasonable to conclude that the
organizers paid subordinates, especially because “surveillance” was often done by Hobos who
did not ultimately participate in the crime. Moreover, drug money was spread around, as were
firearms. Younger Hobos were treated to shopping sprees, occasional cash payments (not loans),
or distributable quantities of drugs; incarcerated Hobos were financially supported by those on
the outside, and newly released Hobos received payments or gifts. As there is no record evidence

14
App.000101

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 15 of 114 PageID #:26362

of any Hobos being legitimately employed, the jury certainly could have inferred that financial
support among members was part of the Hobos’ creed. Perhaps this is not a formal system of
“profit sharing” that Poe would require, but the pooling of resources such as money and firearms
is amply supported by the record.
Further, there was sufficient evidence that the Hobos’ drug trafficking operations were
not, as the defendants claim, entirely separate from each other. The trial record established that
Gregory Chester was a major purchaser of large quantities of heroin, and yet he was not dealing
drugs himself; he sold wholesale quantities to other Hobos, including Council, Bush, and Keith
Daniels. On at least one occasion, Ford conducted surveillance with Chester on a Mexican drug
importer for the purpose of stealing a large stash. Arnold Council provided sale quantities of
drugs to the “Met Boys” Hobos to sell at 51st Street and Calumet Avenue, and Bush did the
same for Brandon Brown.
The Hobos also controlled a handful of distinctly branded, lucrative drug lines, including
“Cash Money” (heroin); X-Men (crack); “Pink Panther” (crack, heroin, and marijuana); “Blue
Line” (crack). Bush managed the Cash Money and X-Men lines, supplying the drugs and
receiving the proceeds, although leaving the street-level transactions to others. Pink Panther and
Blue line were Council’s operations. Other Hobos and Hobos associates operated these drug
lines, collected the money, and provided armed security. They included Ford, who managed
“Cash Money” drug spots for Bush, Alonzo Cole, who operated a Pink Panther line at 4429
South Federal Street, and Kevin Montgomery, who was Bush’s money collector. Stanley Vaughn
helped secure the area of 47th Street and Vincennes Avenue for the Dirty Low, where Gabriel
Bush later operated drug lines, running them with help from William Ford and Derrick Vaughn.

15
App.000102

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 16 of 114 PageID #:26363

There was also evidence that Council and Bush occasionally used the same apartment to
mix and package drugs to sell, that younger Hobos provided armed security for the transport of
drugs or drug proceeds, and that, on several occasions, different Hobos were arrested together
and separately in possession of drugs, or for selling drugs to confidential informants in the
known Hobos territories. Finally, Gregory Chester provided distribution quantities of heroin to
other Hobos on several occasions, including the three controlled transactions with informant
Keith Daniels. These drug-related associations among the defendants, coupled with the evidence
that drug trafficking was at the core of each trial defendant’s livelihood, provided solid evidence
of an association-in-fact. The jury could even have concluded, reasonably, that the breadth of the
drug activity evinced the Hobos’ wide sphere of power and influence, not a lack of connectivity.
Also probative of a link among the members of the Hobos was their willingness to
protect each other and retaliate on behalf of each other. The most obvious example is the
involvement of every trial defendant other than Poe in the murder of Antonio Bluitt (which also
turned out to be the murder of Gregory Neeley and the attempted murder of Cashell Williams
and Roosevelt Walker). Bluitt was suspected of being responsible for Chester being shot, and
within days, Gabriel Bush and Arnold Council were planning a response and, the jury could have
believed, offering a cash reward for Bluitt’s murder (either at their own initiative or at the behest
of Chester). The shooting of Chester also ignited an all-out war with the New Town and Fifth
Ward Black Disciples. In quick succession after the shooting of Chester on June 3, 2007, the
Hobos targeted Andre Simmons (“Diamond Dre”) in a drive-by shooting perpetrated by Bush,
Council, Ford, and Todd. On June 27, Bush, Derrick Vaughn, Chad Todd and others shot Jonte
Robinson in New Town Black Disciple territory. On July 9, 2007, Bush and Ford shot the minors
Lee Turner and Marvin Dickerson in Fifth Ward Black Disciple territory. On August 27, Bush

16
App.000103

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 17 of 114 PageID #:26364

and Jones participated in the shooting of Bluitt’s close associate, Eddie Jones. Days later came
the Bluitt murder. 8 These attacks on the New Town Black Disciples, the gang believed to be
behind Chester’s shooting, took place shortly after that shooting. Coincidence? The jury need not
have believed so.
Rodney Jones was also given the loyalty treatment. When he was shot by members of the
Row Row Gangster Disciples, he was visited by Bush, Council, Ford and the Brown twins,
something hardly indicative of a random assortment of individuals who occasionally committed
crimes together. Council later obliged Jones with a powerful semi-automatic handgun to use for
retaliation against suspected associates of his assailants. The Hobos also protected each other by
surveilling scenes during robberies and providing armed security for each other.
Many other crimes the government proved showed relationships among various Hobos
that supports the existence of an enterprise as opposed to a mere “group of individuals” who
sometimes committed crimes together (crimes that were, according to the defendants, all outside
the scope of the conspiracy and completely unrelated to each other). Council committed the
Wilbert Moore murder with Poe (with a tip from Bush), and another murder (of Anderson) with
Bush. Council and Poe robbed Bobby Simmons, and then led him on a wild car chase through
the streets of Chicago, punctuated at frequent intervals by gunfire from the Hobos’ car. William
Ford protected Arnold Council from apprehension by using his car to block police officers. Poe
committed a home invasion with Gary (not Gregory) Chester (also known as “Chee,” and
8

Gabriel Bush’s contention that the Bluitt/Neeley murder was “the only incident which
appears to have a relationship between and among various participants,” and “bears no relation
to . . . any other alleged violent act,” Bush Mot. 7, ECF No. 1189, is beyond the pale in its
misrepresentation of the evidence at trial. If believed, the government’s evidence showed an
interconnected web of criminal activity and collaboration among various combinations of the
defendants that make the Bluitt/Neeley murder just another day at the office for these defendants.
At any rate, Bush himself betrays the connections among the defendants by repeatedly referring
to them as a “group.” Bush Mot. 5, 9, ECF No. 1189.
17
App.000104

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 18 of 114 PageID #:26365

“Benson”—because he frequently served as Gregory Chester’s driver), another indicted Hobo
(who pled guilty before trial). 9 After Stanley Vaughn took over the area from the Black
Disciples, Derrick Vaughn and William Ford each sold drugs in the same territory at 47th &
Vincennes, an unlikely occurrence if the two were not part of the same gang and sharing
territory. Ford and Council were among the Hobos who robbed party-goers of jewelry at a
carwash in 2008. And in the cars used for the drive-by murders of Bluitt and Neeley were Ford,
Derrick (and Stanley) Vaughn, Bush, Council, and Brandon Brown. Given the web of crimes
connecting the trial defendants with each other (of which the foregoing is only a partial
summary), and common associates, the idea that these crimes were all unrelated, and that the
defendants were not associated with one another, was not one the jury must have accepted.
Further, the Hobos group had a number of common practices and procedures that support
the existence of an association-in-fact. The Hobos had a reputation for using, and indeed
characteristically used, high-powered firearms with extended clips and semi-automatic
capabilities. They shared the weapons, too; the government’s evidence linked several guns used
in different criminal episodes committed by different Hobos, providing compelling evidence that
the group shared their considerable firepower. The Hobos frequently rented cars—sometimes for
just hours—for use during shootings and other crimes, although there was plentiful evidence that
Hobos including Chester, Council, and especially Bush had fleets of their own cars (very
expensive cars, at that). The Hobos also had a modus operandi of using visual surveillance teams
to plan and protect burglaries and using police scanners to evade capture after crimes.
Also suggestive of an association-in-fact: at least four of the trial defendants—Chester,
Poe, Council, and Ford—had tattoos referring to the Hobos (or so the jury could have
9

The jury, of course, was not privy to the fact that Gary Chester had been indicted or
pled guilty; the evidence admitted showed, however, that he was a member of the Hobos.
18
App.000105

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 19 of 114 PageID #:26366

concluded). At least two Hobos had “Hobo” embroidered on the headrests of their cars. Hobos
used a hand sign, as documented in photographs put in evidence. They called each other “Hobo”
and used expressions such as “on Hobo” (functionally equivalent, the evidence suggested, to an
oath made to the memory of “me dearly departed mother”). The jury might have believed that
these “Hobo” invocations all related to a deceased friend and mentor who went by that name, as
Chester and others maintain, but it was not required to; instead, they concluded, reasonably, that
there was an enterprise known as the Hobos to which these defendants pledged fealty.
The Hobos were also defined by what they were not. The Hobos included members who
began as Gangster Disciples (including the Dirty Low faction), Met Boys, and Black Disciples.
The coalescence of different factions and gangs was unusual, but the coalition was not universal.
Over time, the trial evidence showed, the Hobos were “into it,” or at war with, other gang
factions including the Fifth Ward Black Disciples, the New Town Black Disciples, the Mickey
Cobras, and the Row-Row Gangster Disciples. The Hobos united as a group against these gangs
and factions, targeting them for robberies and shootings. This unity against outside rivals
suggests that the Hobos were a group, not unrelated individuals. Or at least the jury could have
concluded as much.
In light of this other evidence, the absence of a written constitution or rules, formal titles
and ranks for members, formal induction of new members, and punishment for “violations”
perhaps distinguished the Hobos from some other street gangs, but does not render a jury finding
that the Hobos formed an enterprise unreasonable. These are traits of an entity that is defined by
common interests, characteristics, and allegiances, not simply by the assortment of criminal acts
that members committed over time.

19
App.000106

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 20 of 114 PageID #:26367

2.

Participation In and Furtherance of the Enterprise

The defendants also say that that the government failed to prove their respective
participation in the enterprise. To prove participation, there must be proof that the conspirators
were “aware of the essential nature and scope of the enterprise and intended to participate in it.”
Olson, 450 F.3d at 664 (quoting United States v. Useni, 516 F.3d 634, 646 (7th Cir. 2008)). In
other words, “one must knowingly agree to facilitate the activities of those who are operating an
enterprise.” Useni, 516 F.3d at 646 (7th Cir. 2008). The actual participation of any defendant in
any particular racketeering act is irrelevant. “To prove primary liability for a RICO conspiracy
under section 1962(d), the government must prove only that a particular defendant agreed that a
member of the conspiracy would commit two predicate racketeering acts, not that the particular
defendant committed or agreed to commit two predicate acts himself.” United States v. Benabe,
654 F.3d 753, 776 (7th Cir. 2011) (emphasis in original). Indeed, a § 1962(d) conspiracy charge
“does not require proof that the defendant committed two predicate acts of racketeering, that he
agreed to commit two predicate acts, or, for that matter, that any such acts were ultimately
committed by anyone.” United States v. Tello, 687 F.3d 785, 792 (7th Cir. 2012) (internal
citations omitted). Thus, the only individual “participation” at issue is the agreement that a
member or members of the enterprise would commit at least two racketeering acts and the
awareness of the general contours of the conspiracy. United States v. Amaya, 828 F.3d 518, 531
(7th Cir. 2016). Here, a defendant “can prevail only if no rational juror could have found that he
was part of, or agreed to facilitate, the activities” of the Hobos. See United States v. Garcia, 754
F.3d 460, 477 (7th Cir. 2014).
The evidence of an enterprise summarized above highlights the interconnected web of
criminal activity that was suggestive of an enterprise, and given the repeat players and

20
App.000107

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 21 of 114 PageID #:26368

characteristic behavior of the Hobos, the jury also had grounds for concluding that these
defendants were aware of nature and scope of the enterprise. There was also the direct testimony
from a number of witnesses that these defendants were Hobos. The jury could have reasonably
determined that each defendant understood, at a minimum, that the Hobos would engage in drug
trafficking, murders, retaliation, and robberies for common purposes including enrichment and
increased status. 10 The element of “knowing participation” was established with sufficient
evidence that each trial defendant personally participated in two or more racketeering acts—
something that goes far beyond the minimum standard of showing that a defendant agreed that
any participant would commit two acts.
Examples of the acts as to which there was sufficient evidence of the respective
participation of individual defendants abound. Gregory Chester was, he admitted himself (either
at trial, in statements made to police, or both), the Hobos’ most successful drug dealer, and was
involved in robberies of drug dealers, drug sales to Keith Daniels, and Daniels’ subsequent
murder. Arnold Council assisted in the Terrance Anderson murder, murdered Wilbert Moore,
and participated in an armed robbery of a clothing store in which he aided and abetted the
brandishing of a firearm. Gabriel Bush facilitated the murder of Wilbert Moore; engaged in
extensive drug trafficking; shot Andre and Darnell Simmons, Lee Turner and Marvin Dickerson;
and killed Terrance Anderson, Antonio Bluitt, and Gregory Neeley. Paris Poe murdered Wilbert
Moore and Keith Daniels. William Ford dealt crack cocaine and participated in the drive-by
shooting of Bluitt, Neeley, Williams, and Walker, as well as the shooting of Darnell and Andre
10

This is one of the reasons that many of the out-of-court statements by members of the
Hobos were admissible as coconspirator statements in furtherance of the conspiracy: they
showed that members of the conspiracy talked about their past and future criminal plans and
advised each other of what sorts of criminal activity had been, and would be, afoot. See, e.g,
United States v. Rea, 621 F.3d 595, 605 (7th Cir. 2010); United States v. Alviar, 573 F.3d 526,
545 (7th Cir. 2009); United States v. Doyle, 771 F.2d 250, 256 (7th Cir. 1985).
21
App.000108

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 22 of 114 PageID #:26369

Simmons. Derrick Vaughn also dealt crack cocaine and participated in the funeral home shooting
of Bluitt and his associates, as well as the shootings of Devin Seats and Jonte Robinson. These
examples are simply representative acts of which there was sufficient evidence to conclude that
the respective defendants knowingly participated and from which the jury reasonably could have
concluded that the defendants all agreed to further goals of the conspiracy through the
commission of racketeering acts by a member.
Gabriel Bush contends that the criminal activities were not proved to be connected to the
“affairs of the enterprise” or any common purpose; instead, all the robberies, shootings, murders,
home invasions, and drug trafficking offenses discussed at trial were “random criminal acts.”
Bush Mot. 7, ECF No. 1189. The dubious “random” nature of the acts, given the web of
relationships among the Hobos, has been addressed already, but to be clear, the evidence was
also sufficient to establish that the criminal activity was calculated to advance the common goals
of the enterprise. The government presented substantial evidence of the accumulation of wealth
by the Hobos, particularly the senior members. None had legitimate employment and yet there
were group vacations (some paid for entirely by Gabriel Bush alone), fleets of vehicles,
expensive jewelry and designer clothes, and other trappings of substantial wealth displayed by
the co-conspirators. The accumulation of reputation and status through crime was also borne out.
William Ford himself described how the Hobos were “one of the hottest gangs right now.” See
Ford Tr. 4860GT at 20 (“We living up to our street creds.”). 11 And again, the flashy displays of
wealth such as cars and jewelry evince outward attempts to impress and demonstrate status. The
same could reasonably inferred from the brazen nature of some of the criminal activity; for
example, robbing people en masse at a carwash party; stealing a unique and expensive pendant

11

The transcript corresponds to the jailhouse recording evidence at Gov. Ex. 4860G.
22
App.000109

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 23 of 114 PageID #:26370

from a high-profile NBA player near a crowded nightclub; or shooting at Antonio (“Beans”)
Bluitt and three associates outside a funeral service; at Darnell and Andre Simmons (associated
by the Hobos with the New Town Black Disciples) in their car; at the minors Lee Turner and
Marvin Dickerson (associated by the Hobos with the Fifth Ward Black Disciples) on the
sidewalk; at Jonte Robinson (associated by the Hobos with the New Town Black Disciples)
outside his child’s daycare; at Eddie Jones (a close friend of Antonio Bluitt) outside his home; at
Devin Seats (a Fifth Ward Black Disciple ) leaving a T-shirt shop; and at Wilbert “Fat Shorty”
Moore (a cooperator), all in public, often in broad daylight—with little or no effort to conceal the
shootings except from law enforcement, after the fact. Bush and his codefendants are far off-base
in arguing that there was no evidence from which a reasonable jury could infer that the
defendants acted with common purposes and to further the enterprise’s goals of accumulating
wealth and “street cred.”
The defendants’ further individualized arguments about the proof of their participation in
the enterprise are addressed below.
a.

Gregory Chester as Leader

Chester contends that the government’s only theory of his participation was that he was a
“leader,” but it did no more than prove there was a “rumor on the street” that Chester “was the
leader of the Hobos” although there was “no evidence” supporting that rumor. Chester Mot. 11,
ECF No. 1192. Whether Chester was the “leader” of the Hobos, of course, is a red herring—he
need not be the leader of the enterprise to be guilty of the charged conspiracy. Whether the
evidence about Chester’s participation in the conspiracy warranted labeling him the leader of the
Hobos is beside the point, as it nevertheless established his participation in the conspiracy.

23
App.000110

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 24 of 114 PageID #:26371

That said, there is certainly sufficient evidence from which the jurors could have
concluded that Chester was the leader of the Hobos. William Ford and Chad Todd discussed a
“totem pole” with Chester at the top, and quibbled over the “rank” of the others. Tr. 4860C at 25. 12 Todd testified that he considered Chester the “leader.” Trial Tr. Vol. 20 at 4895. So did
Rodney Jones. Trial Tr. Vol. 34 at 8128. Keith Daniels, a Hobo-turned-informant, said that
Chester was the “leader” while Council, Poe, and Bush were “under him” and of “equal rank.”
Trial Tr. Vol. 45 at 10519-10520. Chester denigrates the cooperating witnesses who identified as
Hobos, contending that “even” they “could not point to any actual evidence.” Chester Mot. 11,
ECF No. 1192. However, their testimony is evidence. If a self-described Hobo or Hobo associate
testified that Chester was a part of, and the leader of, the Hobos, this is probative evidence that
the jury could reasonably credit.
What is more, Chester was among those who identified him as a leader of the Hobos. In
his police interview on October 22, 2008, Chester called himself the most influential member of
the Hobos, and the group’s most successful drug dealer and main “breadwinner.” Trial Tr. Vol. 4
at 804. Chester also does not address any of the acts that fit with him not only being a drug
dealer, but one who obtained drugs for the Hobos (Chester, for example, testified about having a
steady source for distribution quantities of very pure heroin).
Chester similarly ignores the evidence relating to the retaliation by the Hobos after he
was shot 19 times in New Town Black Disciple Territory in June 2007. There was ample
evidence that the Bluitt and Neeley murders were carried out as retaliation for that shooting.
After the shooting of Chester, on at least two occasions before the funeral home drive-by
shooting, different Hobos surveilled Bluitt with an eye toward killing him. The evidence showed

12

The transcript corresponds to the recording in evidence as Gov. Ex. 4860C.
24
App.000111

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 25 of 114 PageID #:26372

that Bush, Council, Ford, and Jones, at a minimum, linked the killing of Beans to the attack on
Chester. Trial Tr. Vol. 21 at 5108, 5111; Vol. 30 at 7500-7505; Ford Tr. 4860B at 6. 13 The
massive retaliation could reasonably be taken as evidence of Chester’s status in the Hobos.
So too could the evidence that Chester took care of Hobos when they came out of prison,
giving them drugs, money, clothing, and/or cars to facilitate their re-entry. And there was also, of
course, the evidence of Chester’s Hobo tattoo, the most detailed and elaborate sported by the
various members of the gang, and for that reason providing further reason to credit the accounts
of his leadership status. In short, there was sufficient evidence from which a jury could find that
Chester was a leader of the Hobos, and in any event easily suffices to show that he agreed to
participate in the Hobos enterprise through a pattern of racketeering activity. Chester focuses on
the allegation that he was a “leader” without addressing any evidence that he was, at a minimum,
a knowing member of the conspiracy.
Finally, on this and all other issues as to which Chester disputes the sufficiency of the
evidence, it is important to note that Chester testified at trial, broadly asserting that the Hobos did
not exist and were not a gang and that “Hobo” was one person, a deceased friend. See Trial Tr.
Vol. 47 at 11163, 11203; Vol. 48 at 11342. He also flatly denied having called himself “the most
influential” member or the “breadwinner.” Trial Tr. Vol. 48 at 11329. He said he told the FBI
(Agent Bryant Hill) that “I don’t know nothing about no Hobos, no robberies, no shootings, no
murders, no nothing.” Trial Tr. Vol. 48 at 11343. In so testifying, Chester put his own credibility
on the line and the jurors, of course, were free to assess the credibility of his testimony just as
they did all of the other witnesses at trial. By testifying, Chester gave the jurors the opportunity
to conclude that he was lying to them, and their verdict reflects that they so concluded. And if the

13

The transcript corresponds to the exhibit in evidence as Gov. Ex. 4860B.
25
App.000112

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 26 of 114 PageID #:26373

jury disbelieved Chester, “it was further entitled to consider whatever it concluded to be perjured
testimony as affirmative evidence of guilt.” Wright v. West, 505 U.S. 277, 296 (1992) (citing
Wilson v. United States, 162 U.S. 613, 620-21 (1986); United States v. Zafiro, 945 F.2d 881, 888
(7th Cir. 1991); Dyer v. MacDougall, 201 F.2d 265, 269 (2d Cir. 1952) (L. Hand, J.)). See also,
e.g., United States v. Jocic, 207 F.3d 889, 893 (7th Cir. 2000) (“When a defendant decides to
testify and deny the charges against him and the finder of fact thinks he is lying, his untruthful
testimony becomes evidence of guilt to add to the other evidence.”). To the mix of evidence that
convinced the jury of his guilt, then, must be added Chester’s own testimony.
b.

Absence of Hierarchy Generally

Defendant Poe (as well as Bush and others) argues, among other grounds for acquittal on
Count One, that the government failed to prove Poe’s alleged place in the Hobos hierarchy as
depicted in a demonstrative chart used during the trial. Poe Mot. 3, ECF No. 1188. First, that
chart was not evidence, nor did it purport to summarize evidence. Second, the government did
not argue that the photos underneath Poe depicted gang members under his control or who
committed crimes “as Poe’s subordinates,” although it certainly argued that Poe, Bush and
Council were higher in the pecking order than Hobos other than Chester. Finally, the entire
argument, like the “Chester was not the leader” argument, misses the point. The government did
not have to prove that Poe had a defined position in the hierarchy; the existence association-infact that the government alleged did not depend on Poe’s place in the pecking order. The
government sought to prove, for example, that Gregory Chester was a founding Hobo and gang
leader; that certain Hobos recruited, mentored, and involved younger members in the criminal
activities of the gang; and that Poe was a protector of Chester’s. This evidence set forth a loose
structure of the enterprise, but the government did not have to prove each defendant’s place

26
App.000113

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 27 of 114 PageID #:26374

simply because its theory of the case reflected a rough hierarchy. In any event, there was
evidence of a hierarchical structure, as discussed generally, see p. 14, supra, and with respect to
Chester, see pp. 24-25, supra. To that evidence can be added still more evidence that Poe
overlooks, including: the recorded conversation between Hobos Ford and Chad Todd about the
“echelons” of members and the “rank” of individual members, Kenneth Bland’s testimony that
Arnold Council was “higher up” than he was in the Hobos gang, to the point where he ended a
dispute with a rival named “Go Go” at Arnold Council’s direction. The evidence was sufficient
to show both that there was a loose hierarchy within the Hobos enterprise and that Poe occupied
a position near the top of that hierarchy, but even if he did not, that would not provide a basis for
acquittal.
3.

Other Count One Arguments
a.

Continuity and Timeliness

Certain defendants raise the argument that, whatever their participation in the Hobos
enterprise (assuming its existence for the sake of argument), the government failed to prove that
their participation continued into the limitations period, or relatedly, that the enterprise had the
required element of continuity. See Bush Mot. 8-11, ECF No. 1189. No defendant, however,
develops an argument for reconsideration of the Court’s pretrial rulings on this subject.
Specifically, the Court addressed these arguments in its rulings on motions to dismiss, see Order,
ECF No. 560 (ruling on Motion ECF No. 327); and motions for severance of Poe and/or Count
Six, see Order, ECF No. 564 (ruling on Motions at ECF Nos. 341 and 350). The Court is given
no reason to depart from its original analysis, which the defendants do not mention, let alone
substantively address. “It is the defendant’s burden to prove that he withdrew from the
conspiracy.” See United States v. Nagelvoort, 856 F.3d 1117, 1128 (7th Cir. 2017). Otherwise,

27
App.000114

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 28 of 114 PageID #:26375

the conspiracy is presumed to continue. See United States v. Vivit, 214 F.3d 908, 918 (7th Cir.
2000) (conspiracy continues for statute-of-limitation purposes so long as any action is taken in
furtherance of the conspiracy). No defendant proved withdrawal from the conspiracy before
2013, and the jury need not have inferred from the evidence that the Hobos ceased to operate in
2008 or so.
Defendant Bush would have it that without more examples of predicate crimes within the
five-year limitations period, the charges were untimely. That is not the law; there is no quantum
of predicate acts that must occur within the limitations period. Moreover, in advancing this
argument, Bush sets apart the most recent enumerated crimes in the indictment—the Castro
home invasion, the Collections store robbery, and the murder of Keith Daniels—from any
“enterprise” by arguing that they were each isolated events with no connection to each other.
This overlaps with the argument that there was no enterprise at all, and that argument is
addressed elsewhere, but notably, Bush says all these crimes have in common is that “a few of
the persons once associated with the Hobos were involved.” Nothing backs up the “once
associated with” descriptor. In any case, Bush leaves out many other examples of ongoing
racketeering activity on behalf of the enterprise beyond 2008 (when Bush went to prison),
including the Chester-Daniels drug sales, William Ford’s plans for a Waukegan drug operation
with seed financing by Chester, and the burglary of Chad Todd’s home after he was revealed as
an informant.
Most importantly, however, as this Court explained previously, it does even not matter
whether any of the specific predicate acts took place within the limitations period. All that
matters is whether the conspiracy continued into the statutory period. United States v. Schiro,
679 F.3d 521, 528 (7th Cir. 2012); United States v. Useni, 516 F.3d 634, 655-56 (7th Cir. 2008).

28
App.000115

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 29 of 114 PageID #:26376

Generally, “[a] conspiracy ends when its central criminal purpose has been accomplished.”
United States v. McKinney, 954 F.2d 471, 475 (7th Cir. 1992). “A conspiracy that contemplates a
continuity of purpose and the continued performance of acts is presumed to exist until there has
been an affirmative showing that it has terminated.” United States v. Maloney, 71 F.3d 645, 660
(7th Cir. 1995) (citing United States v. Elwell, 984 F.2d 1289, 1293 (1st Cir. 1993).
Incarceration—most defendants were in jail by 2013, some for years—does not prove
withdrawal, because the “active” participation of any defendant is not required. Nagelvoort, 856
F.3d at 1129.
For all these reasons, the arguments related to the timing of the indictment and the
continuity of the enterprise do not require a judgment of acquittal.
b.

“Caution and Great Care” Witnesses

Defendants Arnold Council and Paris Poe attack the sufficiency of the evidence based
upon the large amount of evidence of the “enterprise,” and the defendants’ respective
participation, that came from cooperating witnesses who expected benefits for their testimony,
who had motives to lie, and who had credibility issues of all stripes. 14 The premise cannot be
denied, but does not matter.

14

These witnesses were: Kevin Montgomery, Chad Todd, Courtney Johnson, Marcus
Morgan, Shanice Peatry, Brian Zentmyer, Keith Daniels (who testified posthumously by way of
a prior statement under oath), Cashell Williams, Kenneth Bland, and Rodney Jones. All but
Peatry, who admitted to previously lying under oath, were felons who expected or had received
benefits ranging from sentencing recommendations to immunity from prosecution. And like
Peatry they had records of lying, and further: Todd and Jones were admitted Hobos (Todd
cooperated and was not charged and Jones pleaded guilty and cooperated), and Montgomery (a
Gangster Disciple) was a known associate of the Hobos. Bland also considered himself a Hobo;
he was close with Defendant Council and robbed the Collections clothing store with him; Bland
received immunity for his testimony in this case. Cashell Williams was a Black Disciple and
shooting victim during the drive-by murder and attempted murder at the funeral home; he was
granted immunity for his testimony. Courtney Johnson was a Mickey Cobra and another
shooting victim (there was evidence he was shot by Rodney Jones) who had been paid to be an
29
App.000116

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 30 of 114 PageID #:26377

The defendants’ attempt to undo their convictions based upon issues of credibility is a
non-starter; it is decidedly the jury’s province to weigh evidence and make credibility
determinations. Sufficiency arguments based upon witness credibility are all but frivolous. See
United States v. Elder, 840 F.3d 455, 460 (7th Cir. 2016); United States v. Johnson, 729 F.3d
710, 716 (7th Cir. 2013); United States v. Green, 648 F.3d 569, 578 (7th Cir. 2011). Whatever
the witnesses’ credibility problems, the defendants’ (and particularly, Arnold Council’s)
generalized challenge to their testimony is insufficient to show the testimony was “incredible as
a matter of law,” as would be required to overturn the verdicts. See Green, 648 F.3d at 578. A
string of Seventh Circuit cases beginning with United States v. Molinaro, 877 F.2d 1341, 1347
(7th Cir. 1989) hold that a defendant can be convicted of conspiracy based on “totally
uncorroborated” evidence that “comes from an admitted liar, convicted felon, large scale drugdealing, paid government informant.” See Elder, 840 F.3d at 460; United States v. Pulido, 69
F.3d 192, 206 (7th Cir. 1995). It is “particularly true” when “the jury has been properly informed
through cross-examination, jury instructions, or both, about drug use, criminal background, and
alternative motivation” that it is “the jury’s job . . . to gauge the credibility of the witnesses and
decide what inferences to draw from the evidence.” United States v. Stevenson, 680 F.3d 854,
857 (7th Cir. 2012).
Here the jury was appropriately instructed on how to approach testimony from these
witnesses. See “Testimony of Certain Witnesses,” Final Jury Instructions at 8-10, ECF No. 1087.
The jury instruction named the compromised witnesses and explained why their credibility
FBI informant and who had recorded several conversations with Dereck Vaughn. Morgan and
Zentmyer both testified about information they learned while incarcerated with some of the
defendants, hoping to receive benefits for cooperating. Morgan was a Gangster Disciple familiar
with several of the defendants, and who was jailed for a short time (24 days) with Poe; he had
hoped to receive a sentencing recommendation on an unrelated crime in return for his
cooperation. Zentmyer was a jailhouse lawyer who advised Poe in connection with this case.
30
App.000117

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 31 of 114 PageID #:26378

should be scrutinized. In their cross-examinations and closing arguments, the defense attorneys
seized the opportunity to show the jurors that they should not believe those witnesses. The jury
was not swayed, nor did it have to be as a matter of law. This was not inherently incredible
testimony. For every argument the defense advanced about why these witnesses should not be
believed, the prosecution offered one for why the testimony was credible. It was the jury’s job to
assess those arguments and decide what weight to give to the disputed testimony.
Moreover, unlike in Molinaro, as to many events in this case it is inaccurate to suggest
that the testimony of the tainted witnesses was “uncorroborated.” The defendants fail to
acknowledge the myriad instances when physical or other more neutral evidence corroborated
the testimony of the complained-of witnesses. The whole of the government’s case did not come
from informants, criminals, and perjurers; there were recorded conversations, physical and
forensic evidence, ballistics, live victim testimony and identifications, statements to law
enforcement by the defendants and by witnesses and victims, bank records, phone records,
photographs, medical and expert testimony, and more. And of course there was the extensive
testimony of the primary investigators: William Brogan of the Chicago Police Department and
Bryant Hill and Alissa Ehr of the FBI, as well as legions of Chicago patrol officers, detectives,
evidence technicians, forensic investigators, etc. Although they might have been “pathological
and prodigious liars” in some contexts, see Council Mot. 7, ECF No. 1186, there was enough
reason to credit the testimony offered by the “caution and great care” witnesses in this trial; that
testimony did not have to be rejected by the jury as a matter of law.
B.

Count Two (Council and Poe): Murder of Wilbert Moore in Aid of
Racketeering and Related Additional Findings (Council, Poe, Bush)

“Big Shorty,” or Wilbert Moore (not to be confused with “Fat Shorty” Alonzo Cole, a
Hobo), was gunned down after leaving a barbershop and trying to flee from his assailants until
31
App.000118

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 32 of 114 PageID #:26379

they caught up with him near a van in a vacant lot. The physical evidence confirmed witness
testimony that Moore was heading to his blue car, that he was shot both there and in the nearby
lot, that he ran away from the assailants, that he was on the ground next to a van when he died,
that there were two shooters (evinced by the two kinds of bullets and spent cartridges at the
scenes), and that Moore was shot many times.
Paris Poe and Arnold Council were found guilty of committing this murder in aid of the
Hobos racketeering enterprise—specifically, to retaliate against and silence Moore because they
believed (correctly) that he was a source of the information used to obtain a search warrant for
Council’s apartment that led to the seizure of firearms and large quantities of drugs. The jury
also made an Additional Finding that Gabriel Bush’s racketeering conduct included the
commission, or aiding and abetting, of Moore’s murder. This was based on evidence that Bush
spotted Moore’s car and called in his location to the murderers. As to all three of these
defendants, the jury made the Additional Findings that the murder was committed “because
Moore was a witness in any prosecution or gave material assistance to the State of Illinois in any
investigation or prosecution, either against the defendant or another person,” and that it “was
committed in a cold, calculated, and premeditated manner pursuant to a preconceived plan,
scheme, and design to take a human life by unlawful means, creating a reasonable expectation
that the death of a human being would result therefrom.”
Poe argues that the three witnesses who testified about his participation in the murder
lied, made inconsistent statements, and gave testimony contrary to “civilian” witness Alan Pugh,
such that their testimony could not have reasonably been credited. Poe also argues that the
testimony of Pugh, the primary disinterested eyewitness, was not probative of his involvement

32
App.000119

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 33 of 114 PageID #:26380

and was, on certain points, exculpatory (for example, Pugh testified that the assailants did not
have “distinguishing characteristics” whereas Poe had distinctive dreadlocks).
In brief summary, Hobo associate Kevin Montgomery, who worked for Gabriel Bush’s
narcotics operation, testified that he was at the barbershop with Bush when Bush made a phone
call to alert someone to Moore’s presence; that Council and Poe soon pulled up in a red car; and
that later the same day, Bush reported to Montgomery that Moore had been killed. Trial Tr. Vol.
8 at 1923-1934. Montgomery identified the gun he saw Poe with as a .40 caliber. Rodney Jones
testified that Poe described Moore’s murder to him after the charges in this case were filed (Poe
told him this, Jones testified, because Poe was wondering how he had been identified as one of
Moore’s assailants) and Jones and Poe were transported together to court; Jones mentioned
details including that Moore ran away and tried to hide underneath a car. Trial Tr. Vol. 33 at
7607-7610. He also testified that Arnold Council told him (in more vulgar words than the Court
will use) that he and someone else killed Moore because Moore had sent police to Council’s
house to have it “raided.” Id. Marcus Morgan also testified that while Poe was jailed with him in
Cook County, Poe told him about killing Moore. Trial Tr. Vol. 14 at 3561-3563. Brian
Zentmyer 15 testified that Poe told him the same thing when they were jailed together in Kane
County. Trial Tr. Vol. 43 at 10149-50.
The Court has already addressed as a general matter the folly of seeking acquittal based
upon arguments that witnesses lacked credibility. Poe’s arguments about the testimony of
Montgomery, Jones, and Morgan, see Poe Mot. 4-9, ably highlights problems with their
testimony—including Montgomery’s unhelpful vantage point, Jones’s motives to lie and the

15

The testimony of Zentmyer, a so-called “jailhouse lawyer,” about Poe’s admissions were
admitted only against Poe, and the jury was instructed not to consider his testimony against any
other defendant.
33
App.000120

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 34 of 114 PageID #:26381

unlikelihood that Poe would confess to an informant, and the lack of familiarity between Morgan
and Poe as well as Morgan’s criminal history and vague testimony. But Poe still falls well short
of demonstrating a reasonable juror could not have credited some or all of this testimony (for all
we know, the jurors did reject the entire testimony of one or more of these witnesses, which
would still leave sufficient evidence to convict). Other witnesses and physical evidence
confirmed the general picture of how the murder occurred; only one other witness had to be
credited in order to find that Poe participated. The bar is not high when it comes to whom a jury
might choose to believe, and this Court cannot conclude that the evidence against Poe was so
incredible that it must be disregarded as a matter of law.
Council also argues that there was insufficient evidence to convict him on Count Two
because: “There was no physical evidence connecting Arnold Council to the Wilbert Moore
murder: no fingerprints, DNA, or ballistics matching a gun possessed by Arnold Council. The
civilian who witnessed the murder, 16 Alan Pugh, viewed a lineup in which Arnold Council
participated. Mr. Pugh did not identify Mr. Council as either of the persons he observed shooting
and killing Wilbert Moore.” Council Mot. 8, ECF No. 1186. Like Poe, Council attacks the
credibility of Kevin Montgomery’s testimony, both because he was not in a position to see that
Council was driving the red car and because he had a strong motive to lie as he escaped being
charged in this conspiracy and was facing charges for possessing a cache of firearms and
ammunition in a storage locker (that was linked to Bush). He also highlights inconsistencies
between Montgomery’s story and Alan Pugh’s. Council argues that Jones’s testimony must be
discredited because he reported Council’s admission to authorities only after being indicted in

16

The defendants, by contrast, do not dwell on Pugh’s testimony that he was in his home,
a third floor apartment across the street, watching through a window and not wearing his glasses
when he saw the murder.
34
App.000121

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 35 of 114 PageID #:26382

this case, showing that he simply parroted allegations from the indictment about Council’s
involvement. But since Jones was a charged co-conspirator, he is not likely to have provided any
information to law enforcement until after he was indicted and had motive to cooperate. Again,
although the Court agrees that the jury could reasonably have declined to credit the testimony of
Montgomery and Jones, and perhaps it did reject some or all of their testimony, it was not
required as a matter of law to reject it wholesale, or even in part.
Council next argues that the government’s evidence, if believed, showed that the Moore
murder was committed with only the motive of “personal revenge” and as “payback for Moore
being the informant on a search warrant” for Council’s apartment. Council Mot. 11, ECF No.
1186. It was not, therefore, for the purpose of maintaining or increasing his position in the
enterprise. The argument is weak. It is possible that Council had the added personal motive to
kill Moore, but the seizure of drugs and weapons from his home hurt the whole enterprise, or so
the jury could have reasonably found, and maintaining or advancing his position in the Hobos
need not have been his sole purpose. Moreover, it is inaccurate to say that the government “took
the position that the motive . . . was one of personal revenge.” There was no evidence or
argument that Bush or Poe had a personal motive to harm Moore; their involvement strongly
suggests that Council was acting on behalf of the Hobos and not just himself.
Council also argues that there was insufficient evidence that Moore had even cooperated
against Council at all, calling into question his supposed motive for the murder. This argument
was fully vetted at a Franks hearing on the subject of whether the search warrant for Council’s
apartment was based on false information. The Court took evidence and ruled that Council did
not meet his burden. Order 4-10, ECF No. 738. Council provides no reason to reconsider that
analysis.

35
App.000122

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 36 of 114 PageID #:26383

Finally, Council (in an argument equally applicable to Poe and Bush) challenges the
sufficiency of the evidence for the Additional Findings on the Moore murder—again, that the
murder was motivated by Moore’s cooperation with law enforcement, and that it was committed
in a cold, calculated, and premeditated manner. Council barely develops these arguments, relying
for the former on arguments made elsewhere and for the latter on conclusory statements with no
citations to authority. See Council Mot. 16-17, ECF No. 1186. Poe does not develop any
argument about the Additional Findings (see Poe Mot. 4 n.1, ECF No. 1188), and Bush does not
mention them, although his brief incorporates all relevant arguments of his co-defendants.
For clarity, this Court holds that there was sufficient evidence to support the jury’s
finding that Moore was murdered for cooperating with local law enforcement by providing the
factual basis for a search warrant for Council’s apartment. Retaliation against informants was
part of the Hobos’ creed (Kevin Montgomery was threatened for doing so when he testified
against Bush in a murder prosecution; Keith Daniels was murdered.) There was evidence that
Council told Jones that Moore was killed for causing the police to “raid” his apartment, and that
Poe told a cell mate, Brian Zentmyer, the same, see Trial Tr. Vol. 43 at 10150. 17 Finally, as
Council’s Franks hearing established, there was sufficient evidence supporting the conclusion
that Moore had in fact acted as an informant and supplied the basis for the search warrant.

17

It bears noting that Zentmyer, the jailhouse lawyer, testified that Poe did not tell him
who his accomplice in murdering Moore had been. Id. This is one of many occasions when
“caution and great care” witnesses acknowledged having limited information, which the jury
could have reasonably taken as an indication of their truthfulness (had they been the pathological
liars depicted by defense counsel, the jurors could have concluded, they would have falsely
implicated defendants at every opportunity). Zentmyer’s lack of knowledge concerning
Council’s identity as Poe’s accomplice, moreover, casts doubt on Poe’s argument at trial that
Zentmyer had access to the indictment in the case; both the original and superseding indictments
charged Poe and Council together with the murder of Wilbert Moore.
36
App.000123

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 37 of 114 PageID #:26384

As for whether the murder was cold, calculating, and premeditated, see 720 ILCS 5/9–
1(b)(11), the jury was more than entitled to conclude that it was. To make the finding, the jury
must have had sufficient evidence that the defendant(s) were “not motivated by mercy or the
emotion of the moment,” People v. Williams, 737 N.E.2d 230, 250 (Ill. 2000), and that they
“deliberated or reflected upon [the murder] for an extended period of time,” id. A permissible
view of the evidence is that the intent to murder Moore existed before the day of the murder;
Bush called in Moore’s location for a reason. Council and Poe arrived on the scene in response to
that call—again, arriving with purpose and plan. Moreover, the murder occurred on January 19,
2006, whereas the search warrant had been executed in May 2004, further suggesting an
“extended period” of reflection (during some of which Council was incarcerated). The murder
was “cold” because Moore was ambushed and then literally made to run for his life, and there
was evidence that he was shot multiple times and at least twice while he was trying to hide or
had fallen to the ground. It could be viewed, as the government argued, as an “execution,”
particularly in light of the fact that there was no evidence that Moore had been killed during a
robbery—the shooters took neither his watch nor his wallet. And Alan Pugh testified that
afterward, the assailants did not flee; rather, they slowly and deliberately walked back to their
car. Therefore, the jury was entitled to conclude that the murder was not motivated by mercy nor
the emotion of the moment.
C.

Count Three (Bush): Murder of Terrance Anderson in Aid of Racketeering
and Related Count One Additional Findings (Bush, Council)

Defendant Bush challenges his conviction on Count Three and the related Additional
Findings, on multiple fronts. The government alleged that Bush committed the racketeering act
of first-degree murder (as defined by Illinois law) in killing Anderson. Bush contends that the
government failed to prove: “1) that Defendant Bush had the requisite intent to kill to be guilty
37
App.000124

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 38 of 114 PageID #:26385

of the first-degree murder of Terrance Anderson, 2) that his actions on September 1, 2007 in
discharging a weapon ‘caused’ the death of Terrance Anderson, a fact necessary to prove him
guilty of murder, and 3) that the specific intent and purpose of murdering Terrance Anderson
was to enhance his position as a member of the Hobos enterprise.” Bush Mot. 3, ECF No. 1190.
Bush does not, therefore, challenge the conclusion that he shot Anderson—just why he
did it, whether he intended to, and whether his bullets were a “but-for” cause of Anderson’s
death. Not challenging the shooting itself is consistent with the evidence that in state court, in the
midst of his first-degree murder trial, Bush pled guilty to the second-degree murder of Anderson.
After being read the amended charge and confirming that he understood it, Bush stated under
oath that he was “guilty” of that charge (although he continues to maintain his innocence). The
charge was that Bush “without lawful justification, intentionally and knowingly shot and killed
Terrance Anderson while armed with a firearm, and that, at the time of the killing [he] believed
the circumstances to be such that that if they existed would justify or exonerate the killing under
the principle [of self-defense], that his belief in this was unreasonable, and constitutes a violation
of [second degree murder statute].” Bush Guilty Pl. Tr., Gov. Ex. 1809.
This evidence defeats Bush’s argument that the government failed to prove that he had
intent to kill that is an element of first-degree murder under Illinois law (which provides the
substantive law for RICO’s enumerated racketeering acts). Although Bush’s state-court seconddegree murder plea was based on the charge that he shot and killed Anderson with the actual, but
unreasonable, belief that he was shooting in self-defense, that qualification only underscores that
he intended to kill Anderson. But even aside from the admission, the evidence showed that Bush
had been planning to murder Anderson since a dispute arose between them years earlier—a
dispute that entailed Anderson shooting Bush in the hand and Bush sending an associate to slap

38
App.000125

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 39 of 114 PageID #:26386

Anderson’s girlfriend and deliver a threat to Anderson. Anderson then went to prison. Chad
Todd testified, and the jury was entitled to believe, that Bush told Todd he was “stalking”
Anderson’s “out date,” i.e. release date. Trial Tr. Vol. 25 at 5848. This statement demonstrates
intent to kill and also goes to the Additional Finding that the murder was “premeditated.”
Finally, as counsel for Bush pointed out during a jury instructions conference, see Trial Tr. Vol.
50 at 11726 et seq., there are three variations of first-degree murder in the Illinois statute.
Accordingly, the jury was instructed that a person commits first-degree murder if, in causing a
person’s death, he: “(a) intends to kill or do great bodily harm to that individual; or (b) he knows
that such acts would cause death to that individual; or he knows that such acts create a strong
probability of death or great bodily harm to that individual.” These states of mind are disjunctive.
Yet Bush seeks acquittal because “the requisite intent to kill” was not proved. He fails to
account for the other two guilty states of mind that stop short of affirmative intent to kill but are
sufficient for conviction of first degree murder.
Bush also argues that there is no evidence that the murder was committed in aid of
racketeering. But the circumstantial case for a connection to the racketeering enterprise was
substantial. Anderson was infringing on Bush’s drug operation at the Ida B. Wells “extensions”
(a part of a housing project) and Bush had warned Anderson to vacate the territory. Then, in
2005, Anderson shot Bush in the hand at one point, and later Bush had someone approach
Anderson’s girlfriend and threaten Anderson while slapping her. Further, there was evidence that
on one occasion Bush pointed Anderson out to his Hobos associates (Todd, Ford, and Council),
and declined Ford’s offer to shoot him on the spot, for fear of surveillance cameras. Thus Bush
involved other Hobos, including Ford and Council, in the plot to murder Anderson. The plot
came to fruition when Anderson had a weekend pass from his work-release program on the

39
App.000126

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 40 of 114 PageID #:26387

weekend of September 1, 2007. Anderson was present for a party reuniting former residents of
the Robert Taylor homes, which Bush and Council also attended. The timing of the murder
might have made it, as Bush says “a crime of opportunity,” but the point is that Bush was
seeking that opportunity over a period of time. It may be correct, as Bush argues, that there was
no active dispute over drug territory between Anderson and Bush at the time of the murder,
because Anderson had been imprisoned for two years and was out on a weekend pass when he
was murdered. But the dispute arose over drug trafficking, which was a key act of racketeering in
the Hobos enterprise, and escalated from there. That it took Bush a couple of years to gain
closure, because of Anderson’s incarceration, does not undermine the jury’s reasonable
conclusion that he murdered Anderson in aid of racketeering; rather, it serves as evidence of the
continuity of the Hobos enterprise and Bush’s commitment to accomplishing its objectives.
Bush also raises the argument that the government failed to prove that Bush’s shooting
caused Anderson’s death because (as he correctly notes) the record contains evidence of shots
entering Anderson’s body through his front and his back and of at least two kinds of bullets, and
no evidence of what kind of gun Bush possessed at the time of the shooting. 18 Seemingly, then,
at least one other person shot Anderson in addition to Bush. 19 Further, the medical examiner
could not identify a single gunshot as “the” cause of death, although he said that at least one—

18

The medical examiner who conducted the autopsy of Anderson, Dr. Michel Humilier,
testified to the presence of two kinds of bullets in Anderson’s body as well as the location of the
entry and exit wounds.
19

Candidates for the other shooter include Arnold Council and Alonzo “Fat Shorty”
Cole. The evidence implicating Council in the murder is recounted further below; see pp. 45-46,
infra. This Court excluded, over Bush’s objections, prior testimony from Cole that he fired a .357
magnum at Anderson and believed that he hit him; that issue is addressed in the context of
Bush’s new-trial motion.
40
App.000127

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 41 of 114 PageID #:26388

which entered through the neck and lodged in the brain—was “a fatal shot” in itself. 20 Further,
the testimony of Rodney Jones that both Bush and Council discussed the murder with him did
not include any detail attributing the one known fatal shot to Bush. Bush says the government
was required to prove that one of Bush’s bullets was an independent cause of death, which is to
say that, but for Bush’s shooting at Anderson, he would not have died from his other wounds.
Bush relies on Burrage v. United States, 134 S. Ct. 881 (2014), in which the Supreme
Court held that where it could not be determined whether the heroin or the cocaine in the
decedent’s system caused the death, the heroin dealer could not be held responsible. In Burrage,
the Court considered whether a mandatory minimum sentence under the Controlled Substance
Act where death “results from” the use of the substance “applies when use of a covered drug
supplied by the defendant contributes to, but is not a but-for cause of, the victim’s death or
injury.” 134 S. Ct. at 885. The crime the defendant had been found guilty of was heroin
distribution. Medical experts determined that the heroin “contributed to an overall effect” that
stopped the victim breathing, and that death would have been “very less likely” without the
heroin, id., but that was not sufficient. The Court held that the requirement that death “result[]
from” the controlled substance required proof not just of proximate causation but also but-for
causation. Id. at 890-91.

20

There was no evidence of what kind of gun Bush fired, and so no way to connect that
gun to a particular wound. Dr. Humilier did not testify that each gunshot wound was fatal,
independently, and Anderson had gunshot wounds to his thighs and hand in addition to
seemingly more serious shots to his neck/head and back. Dr. Humilier Testimony, Trial Tr. Vol.
17 at 4292. The shot that settled in the occipital load of Anderson’s brain was, according to the
medical examiner, “a fatal wound.” Id. at 4307. But no other wound was identified as such,
although Humilier testified that Anderson died of “multiple gunshot wounds.” Id. at 4309. On
cross examination, Dr. Humilier testified that there was not “a” cause of death, and “[t]he cause
of death is multiple because the wound to the brain is not the only one.” Id. at 4315. He also
stated that he could not “pin[] down” any of the shots as being the “fatal bullet.” Id.
41
App.000128

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 42 of 114 PageID #:26389

Based on Burrage, Bush argues that although “the government [is] required to prove that
the agent leading to the death of the victim was an independently sufficient ‘but for’ cause of the
death,” there was no evidence that “any bullets [Bush] fired in the direction of Terrance
Anderson even struck him, let alone led to his death.” Bush Mot. 7-8, ECF No. 1190. But once
again, Bush simply ignores evidence that undermines his argument. Here there was compelling
evidence that Bush shot and killed Terrance Anderson—namely, his admission that he did so
when he pleaded guilty to second-degree murder. The jury was not required to credit Bush’s
argument (made at trial 21 and in response to a motion in limine, see Bush Resp. 5-6, ECF No.
899), and supported generally by testimony from A.C. Cunningham, the defense expert on the
Cook County criminal justice system) that he pled guilty because the State offered him a great
deal, not because he was guilty. It was reasonable for the jury to take at face value Bush’s prior
statement, under oath, that he was in fact guilty of that crime: Bush was present; Bush shot at
Anderson intending to kill him because he thought (unreasonably) that Anderson was trying to
kill him; and Bush killed Anderson. In pleading guilty to second degree murder, Bush himself
provided all of the evidence of “but for” causation that the jury needed—if such evidence was
needed at all.

21

“You heard what Gabe Bush was facing, what the charges were, first-degree murder.
And if you look at the certified conviction, you will see a whole first page of 20 some charges
that he was looking at a mandatory minimum of 45 years up to life. Right? That he denied he
was guilty, that he entered a not guilty plea, that he went to trial. He made the government try to
prove their case; right? And then the state made an offer while the jury was deliberating. 14
years. So he went from having to serve 100 percent of time, if convicted, which means that he
would have gotten 45 years, 20 years minimum for the murder, 25 additional years because of
the involvement of the weapon, and he would have had to serve 100 percent of that time. And he
could have gotten a lot more at 100 percent. And, instead, they made him an offer for 14 years at
50 percent, which meant he would only have to do seven years. And he could also resolve his
UUW case that had been pending for free, basically, because it would run wholly concurrent
with the seven years. And they made him that offer, and he accepted it.” Trial Tr. Vol. 55 at
13105-06.
42
App.000129

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 43 of 114 PageID #:26390

Whether the Illinois murder statute requires a showing of but-for causation is a murky
point that Bush never addresses. Instead, he relies entirely on Burrage for the legal premise that
the law generally requires a showing of “but for” causation. In Burrage, however, the Supreme
Court was interpreting a federal statutory sentencing enhancement; the relevant law here is
Illinois law because Count Three required proof of Anderson’s murder “in violation of the laws
of the State of Illinois.” Whereas Burrage expressly rejected the premise that proof that an act
was a “contributing cause” is sufficient to satisfy the requirements for a sentencing enhancement
under 21 U.S.C. § 841 where death “results from” the defendant’s conduct, the Illinois Supreme
Court has held that under the Illinois murder statute, “the defendant’s act need only contribute to
the victim’s death to prove the defendant guilty of murder.” People v. Brown, 169 Ill. 2d 132,
153 (1996). See also, e.g., People v. Martinez, 348 Ill. App. 3d 521, 529 (1st Dist. 2004) (citing
Brown in holding that defendants who participated in a group beating that resulted in death
caused victim’s death even in absence of evidence about “who struck each blow or how many
there were”). As Burrage acknowledges, there are a number of states that treat “substantial” or
“contributing” causes as causes-in-fact, and the Seventh Circuit has said that Illinois is among
them. 22 See Blood v. VH-1 Music First, 668 F.3d 543, 546 (7th Cir. 2012) (“To establish cause in

22

Burrage also acknowledges that Prosser and Keeton advances the proposition that
“[w]hen the conduct of two or more actors is so related to an event that their combined conduct,
viewed as a whole, is a but-for cause of the event, and application of the but-for rule to them
individually would absolve all of them, the conduct of each is a cause in fact of the event.”
Prosser and Keeton on Torts (5th ed. 1984) at § 41, page 268. Burrage dismissed the contention
by noting that no one had expressly adopted it as of 1984, but that was not correct. As Justice
Sotomayor noted in her dissent in Paroline, “[t]he Fifth Circuit recognized this standard more
than 60 years ago when it observed that “‘[a]ccording to the great weight of authority where the
concurrent or successive acts or omissions of two or more persons, although acting
independently of each other, are in combination, the direct or proximate cause of a single
injury,’” any of them may be held liable “‘even though his act alone might not have caused the
entire injury, or the same damage might have resulted from the act of the other tort-feasor[s].’”
Paroline v. United States, 134 S. Ct. 1710, 1737 n.1 (2014) (Sotomayor, J., dissenting) (quoting
43
App.000130

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 44 of 114 PageID #:26391

fact, the plaintiff must show the defendant's conduct was a material element and a substantial
factor in bringing about the injury.”) (citing and applying Illinois law). There are, to be sure,
Illinois cases pointing the other way, toward a requirement of but-for causation. See, e.g., People
v. Nere, 2017 IL App (2d) 141143, 2017 WL 2807984, at *18-20 (wrestling at length with the
question of whether under Illinois law “an act can be a ‘contributing cause’ of death without
being either a but-for cause or one of two or more independently sufficient concurrent acts” and
concluding that the answer is no); People v. Mars, 985 N.E.2d 570, 574–75 (Ill. App. Ct. 2013)
(“It has long been established that when the State has shown the existence, through the act of the
accused, of a sufficient cause of death, the death is presumed to have resulted from such act . . .
The injury inflicted by an accused need not be the sole or immediate cause of death in order to
constitute the legal cause of death.”); Brackett v. Peters, 11 F.3d 78, 79 (7th Cir. 1993)
(interpreting Illinois law) (“An act is a cause of an event if two conditions are satisfied: the event
would not have occurred without the act; the act made the event more likely.”).
The government says in a footnote that the evidence showed Bush’s shots to be a
“contributing cause,” but it does not support that as the correct standard, as compared to but-for
causation. See Govt. Resp. 51 n.22, ECF No. 1207. And although the prosecutor stated in closing
argument that “Gabriel Bush walked up to him and put a bullet through his neck and in the back
of his head,” Trial Tr. Vol. 53 at 123595, the government’s response brief provides no citation to
evidence demonstrating that the shot to the neck was fired by Bush, nor has the Court found any.
But Bush ignores Illinois law entirely, placing all his eggs in Burrage’s basket while failing to
Phillips Petroleum Co. v. Hardee, 189 F.2d 205, 212 (1951) (quoting 38 Am. Jur. Negligence
§ 257, p. 946 (1941)). And courts have continued to recognize it. See, e.g., Maiz v. Virani, 253
F.3d 641, 675–76 (11th Cir. 2001) (applying doctrine of concurrent causation in civil RICO case
and citing Prosser & Keeton: “As we have explained in prior civil RICO opinions, a wrongful act
is a proximate cause if it is ‘a substantial factor in the sequence of responsible causation.’”)
(internal citations omitted).
44
App.000131

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 45 of 114 PageID #:26392

engage with the requirements of the Illinois first-degree murder statute and it is far from selfevident that Burrage directly applies to this question. Therefore, it is not necessary to resolve this
issue; any argument premised on the requirements under the Illinois murder statute is forfeited. 23
It is, in any event, academic, because there was sufficient evidence to support a finding by the
jury that Bush shot and killed Anderson, including his own admission and the recounting of the
murder later by Bush and Council.
Sticking with the Anderson murder, Bush’s helper, Council, challenges the sufficiency of
the evidence supporting the Additional Findings that (1) his racketeering activity “includes the
commission, or aiding and abetting, of the first degree murder of Terrence Anderson,” and (2)
that the murder was “cold, calculated, and premeditated.” The argument about the first is feeble.
The jury had sufficient evidence from which it could reasonably conclude that Council was
involved. For example, if the jury chose to credit this portion of Rodney Jones’ testimony,
Council pulled up to Jones’s corner shortly after the murder and informed him that he and Bush
had done it and he personally had pushed Anderson down to the ground. Trial Tr. Vol. 33 at
7704- 706; Vol. 34 at 7881-82. And it is undisputed that Council was present at the party where
Anderson was killed and that within the crime scene was a white hat that contained his DNA.
Trial Tr. Vol. 17 at 4257-60. (One witness testified that “Gabe,” not Council, was wearing a
white hat, but Bush’s DNA was not detected. Trial Tr. Vol. 17 at 4386, 4390; Vol. 18 at 447778.) All of this corroborated Jones’s testimony.
23

It bears noting as well that Bush did not propose a jury instruction relating to causation,
despite proposing his own instruction for first-degree murder (Defendants’ Proposed Instruction
U), and devoted only a few seconds of a closing argument of roughly three hours to the issue:
“[W]hen there was mayhem and pandemonium and shots being fired in all directions, Terrance
Anderson was hit in the front and in the back. That's what the medical examiner said. Not just in
one direction, in multiple directions. Nobody knows what bullets killed him or who exactly shot
him. Right? Nobody knows whether one of these two bullets were bullets fired by Gabe Bush. It
was chaos. All right?” Trial Tr. Vol. 55-B at 13108-09.
45
App.000132

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 46 of 114 PageID #:26393

As to the “cold, calculated, and premeditated” finding, this Court has already addressed
premeditation. Council knew that Bush was surveilling Anderson for the purpose of killing him
(he helped), see Trial Tr. Vol. 20 at 4997, and Bush admitted to “stalking” Anderson’s release
date. Trial Tr. Vol. 21 at 5000, Vol. 25 at 5848. The jury could have also concluded, reasonably,
that the murder was “cold and calculated,” that is to say, “not motivated by mercy or the emotion
of the moment.” Williams, 737 N.E.2d at 250. The first prong is inapplicable, and the second was
sufficiently proved. Bush and Council crept up on Anderson and secreted themselves in bushes
in order to ambush him. This is not an “emotional” approach. Further, there was no interaction
with Anderson that could support a finding that Bush and Council were provoked into an
emotional response. Therefore, the jury was within its rights in making the “cold and calculated”
finding. Bush does not make any separate argument about the special findings on the Anderson
murder, so any sufficiency-of-the-evidence argument that he incorporated also fails.
D.

Counts Four and Count Five (D. Vaughn): Murders of Bluitt and Neeley
in Aid of Racketeering and Related Count One Additional Findings
(Vaughn, Bush, Council, Ford)

Counts Four and Five charged Dereck Vaughn with the VICAR murders of Antonio
“Beans” Bluitt and Gregory “Slappo” Neeley, the two New Town Black Disciples who were
ambushed in a parked Range Rover outside a funeral home they had recently exited. Cashell
Williams and Roosevelt Walker were in the backseat of the Range Rover, and survived the
shooting, which was carried out by a processional of cars carrying multiple shooters.
In his cursory challenge, which cites neither authority nor evidence, defendant Derrick
Vaughn contends that although “the jury could have rationally concluded that the Defendant’s
statements [to witness Courtney Johnson] were an admission of his presence at the scene when
Bluitt and Neeley were shot and killed,” what it could not have concluded, “based o[n] any

46
App.000133

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 47 of 114 PageID #:26394

evidence, was that the Defendant participated in the murder.” Vaughn Mot. 2, ECF No. 1185.
There was no evidence to confirm his “actual participation,” he says, because he stated only that
“he did not shoot at the victims, since the weapon he had malfunctioned.” Id. at 2-3. Moreover,
the only corroborating evidence (according to Vaughn), the testimony of Rodney Jones (who
testified to his own participation in the murders as well) was too incredible, vague, and
contradictory to be considered as evidence. Both of these arguments fail. Again, the credibility
of Jones was for the jury to decide, and the Court cannot and does not conclude that he was
incredible as a matter of law. Moreover, there is nothing “vague” about the following testimony
from Jones: “Q. Who did you see firing out of the car that Joe Buck was driving? A. D-Block. Q.
Who was D-Block shooting at? A. He was shooting into the Range Rover.” Jones Test., Trial Tr.
Vol. 33 at 7568.
To characterize Vaughn’s own statements as evidence of “mere presence” and not
“participation,” moreover, is a substantial stretch. “The mere-presence doctrine means just what
it says—presence and nothing more.” United States v. Starks, 309 F.3d 1017, 1026 (7th Cir.
2002). Vaughn was there (according to Rodney Jones, in the last car in the drive-by procession,
as a passenger), with a gun, and he tried to fire at the victims. He had every intention of
participating in the sneak attack. He was not a “bystander,” see id., in any possible way.
Moreover, Vaughn “did not shoot at the victims,” in only the most technical sense, if his
statements to Courtney Johnson are credited. He told Johnson once that his gun did not work, see
Tr. 5613T at 13 24 (gun “don’t even fire” when he tried), and then later that he “didn’t even get a
chance to shoot the one I had [because] [t]hey shot so fast,” Vaughn Tr. 5613T at 14. Vaughn
seemed either unsure or evasive about his participation in the murders; indeed, it appeared that
24

The transcripts, not in evidence, were used to aid comprehension of the actual
recording in evidence, see Gov. Ex. 5613.
47
App.000134

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 48 of 114 PageID #:26395

he didn’t distinguish his own actions from any of the other Hobos soldiers. He told Johnson more
than once, with reference to these murders, “We did that shit.” In any event, it doesn’t matter
whether he was able to shoot or not; even if he didn’t shoot, Vaughn was present, lending
support and strength in numbers to the operation. He was another body, another potential
shooter, another set of eyes. As such the evidence was sufficient to convict him.
The jury also returned Additional Findings on the funeral home shooting against Council,
Ford, Bush, and Vaughn. The first two of these defendants expressly challenge the sufficiency of
the evidence regarding these findings (although Council does so only in two conclusory
sentences), while the others incorporate the others’ (primarily Ford’s) arguments. Vaughn, as
noted, was convicted on two counts of VICAR murder, and the jury further found as to all four
of these defendants that their racketeering activity for purposes of Count One included the
murders of Bluitt and Neeley, and that the murders were committed in a cold, calculated, and
premeditated manner.
Ample testimony placed all four defendants in the procession of cars from which the
drive-by ambush occurred. Rodney Jones participated in the murder and gave detailed testimony
about which car each defendant was in and where, and what weapons certain of them possessed
at the time. E.g., Trial Tr. Vol. 32 at 7510, 7515-17, 7536 – 7537. Chad Todd reported what he
remembered Bush telling him about the murders (albeit with at least one error—placing the
incarcerated Poe at the scene). Trial Tr. Vol. 21 at 5180. Jones also testified that Council was the
one who found him and other associates and had them get weapons and get in cars because
Council “got a location” on Beans. Trial Tr. Vol. 32 at 7514. Bush had already arrived at the
rendezvous point when Council and Jones arrived. Id. at 7515. Shortly thereafter Gabriel Bush
and Arnold Council were “discussing about how [the group] was going to go about trying to get

48
App.000135

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 49 of 114 PageID #:26396

to the guy as far as to kill him.” Id. Bush and Council “came up the plan to crash the car into
another car.” Id. at 7518. Ultimately it was Bush who ordered the alternate plan to just line up
and “go, go, go,” and while he was in front, he was telling the others where to go. Id. at 7519,
7523-24. Bush was in the front car to start with. Id. at 7523. Jones was in the car with Council
and others, and they eventually took the lead ahead of Bush; behind Bush was a third car, and the
last car was driven by Ford with Derrick Vaughn as the passenger. Id. at 7524-25. Chad Todd
testified that Bush called him at college the day of the murders to tell him what happened. Trial
Tr. Vol. 21 at 5176-78. Cashell Williams, who survived the shooting, corroborated the general
description of the incident, although he had not seen who, other than Ford, was in the cars from
which the hail of gunfire rained. Trial Tr. Vol. 28 at 6803-6828; Vol. 29 at 6837-6846. This
evidence, if believed, was a sufficient basis on which the jury could conclude that Vaughn,
Council, Bush, and Ford all took part in the drive-by murders, and, indeed, that Bush and
Council spearheaded the whole event.
Related to the killing of Bluitt, defendant Chester also challenges the sufficiency of the
evidence supporting the Additional Finding that the racketeering activity upon which his Count
One guilty verdict was based “includes the first degree murder of Antonio Bluitt by one or more
co-conspirators whose acts advanced the goals of the conspiracy and were reasonably
foreseeable to Chester”—in other words, the finding that Chester was guilty of the Bluitt murder
by means of Pinkerton liability. See Pinkerton v. United States, 328 U.S. 640, 647–48 (1946). 25
Chester argues that there was no evidence that Bluitt’s murder was foreseeable to him.
Chester correctly states that there is no evidence that he was on the scene of the murder and no
25

A separate instruction on Pinkerton was given in the Additional Findings instructions
but not the general instructions, see Jury Instr. “Potential Liability for Other Conspirator’s Acts,”
ECF No. 1087. Chester’s challenge to the instruction is addressed in the ruling on his motion for
a new trial.
49
App.000136

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 50 of 114 PageID #:26397

evidence that he discussed it with anyone before it occurred. But he goes too far in suggesting
that the jury was required to accept his testimony that, having been shot 19 times months before
the murders, he was “incapacitated” or in a coma at the time of the shooting and could not have
foreseen or been aware that it was in the works. Chester Mot. at 12, ECF No. 1192. The records
of the rehabilitation institution show otherwise, see Gov. Ex. 1200_C, and having opted to
testify, the jury was entitled to reject Chester’s testimony as not credible, partially or wholesale,
in any event.
As noted, the attack on Chester, according to multiple sources, is what prompted the
Hobos to target Bluitt in the first place, and as a leader in an organization where retaliation was
part of the code, Chester would have had reason to foresee that the Hobos would avenge his
shooting and reinforce their dominance. As Chester admits, moreover, there was “evidence of
rumors on the street that Mr. Chester had put a bounty on Bluitt,” and although he says no
evidence showed there was really a bounty (and, indeed, that Bush was offended by the notion of
paying anyone for an honor killing 26), the existence of such a rumor tends to support Chester’s
knowledge of, if not involvement in, the murder. Whether the rumor was true or not, the jury was
entitled to conclude that Chester knew about it if it was circulating among the Hobos. The jury,
moreover, could reasonably conclude that Bush or Council would not have independently
decided to “put a bag” on (i.e., offer a reward) the suspected orchestrater of Chester’s shooting.

26

In William Ford’s jailhouse recordings with Todd, he recounted that Bush was
offended at Chester’s suggestion of paying for Beans’ murder. After Todd said that Chester said
after Bluitt’s murder: “I’ma hit y’all for that shit . . . I’ma pay y’all for …don’ it,” Ford stated:
“And the whole time Louie [Bush] be like ‘Fuck you mean pay us? What you mean pay us?
Nigga you one of the guys. Nigga we ain’t getting’ paid for that nigga. That’s what we supposed
to did . . . for you.” Ford Tr. 4806 B at 6. The defendants ignore this evidence in arguing that the
Hobos was not an enterprise.
50
App.000137

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 51 of 114 PageID #:26398

That no bounty ever was paid does not disprove that one might have been offered, or was
believed by the younger Hobos to exist.
Next, there was ample evidence that the murders were committed in a cold, calculated,
and premeditated way. Premeditation is clear, if the trial testimony is credited. The jury could
reasonably conclude that the Hobos had been planning to murder Bluitt to avenge Chester’s
shooting by, they believed, Bluitt’s gang faction, the New Town Black Disciples. Also, there
was testimony that the murder of Bluitt was being plotted within days of Chester’s shooting and
that there was a bounty on Bluitt’s head. In the days preceding the funeral home shooting, Chad
Todd “went looking for Beans” and was planning to kill him. Trial Tr. Vol. 21 at 5108. He and
Gabriel Bush waited outside Bluitt’s house one day for that purpose. On the day the murder was
actually committed, Council rallied up shooters upon learning Bluitt’s location.
The defendants also spent time planning the killing after they met up near the funeral
home where they knew Bluitt was present. Plans were discussed. Everyone there knew why they
had come. This was not a crime of passion; it was carried out after reflection and deliberation.
Ford’s argument that the murderers were “a haphazard and hurried collection of people and
resources to quickly confront ‘Beans’ and ‘Slappo’ out on the street” is wholly inconsistent with
the evidence at trial. The shooters gathered from all over in a single location. And it was not a
crime of passion, motivated by the emotion of the moment. This was an ambush of unknowing
victims who had not provoked the killers beforehand (that day, anyway). Consider just Derrick
Vaughn’s account of waiting for the ambush to begin:
So they come out. . . . We back there bored, tweaking. All us back
there. Parked right there, hoping police don’t come back there. We
back there with hoods up and shit. . . . Waiting for a minute. . . .
I’m thinking, I’m like this shit finna happen. That’s all I was
saying, I swear to God. That’s all that was in my mind. God damn.
It’s a hit.
51
App.000138

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 52 of 114 PageID #:26399

Vaughn Tr. 5603T at 15. The jury had sufficient grounds for finding that the murder was cold,
calculated, and premeditated.
E.

Second Superseding Indictment: Obstruction of Justice by Means
of Murdering Keith Daniels (Poe) and Related Count One Additional
Findings (Chester and Poe)

As to the Charge Formerly Known As Count Six, Paris Poe argues that the government
failed to prove that, for the purposes of obstructing ongoing judicial proceedings, he murdered
Keith Daniels, the Hobo-turned-informant who did three controlled drug buys from Gregory
Chester that led to Chester’s arrest in 2013 with Lance “Double” Dillard on drug charges. See 18
U.S.C. § 1503(a) & (b)(1). At the time, the federal grand jury investigation into this conspiracy
case was ongoing as well. The drug prosecution and the grand jury investigation are the two
judicial proceedings referred to in the Second Superseding Indictment. The charge required the
government to prove that Poe obstructed or intended to obstruct the named proceedings, and that
in killing Daniels he acted knowingly, corruptly, and with the purpose of wrongfully impeding
the due administration of justice. Id.; see generally United States v. Aguilar, 515 U.S. 593, 599
(1995); Torzala v. United States, 545 F.3d 517, 522–23 (7th Cir. 2008) (describing the
“elements” of a violation of the omnibus clause to include that: “(1) a judicial proceeding was
pending; (2) the defendant knew of the proceeding; and (3) the defendant corruptly intended to
impede the administration of that proceeding.”).
For his protection, Daniels had been relocated from Chicago to Dolton, Illinois, but the
precaution was for naught. Daniels was gunned down in front of his fiancée, Shanice Peatry, and
their two small children on April 14, 2013, as the family arrived home after visiting Daniels’
family. A shooter approached from the area in front of the car and began firing at the windshield.
Daniels, who had been in the front passenger seat, got out, and after he was felled by a shot to

52
App.000139

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 53 of 114 PageID #:26400

the armpit, he was shot again multiple times as he lay on the ground. Neither Peatry, who was in
the driver’s seat facing the shooter as he approached firing, nor the children were hit by the
gunfire. The assailant (or assailants) escaped in a waiting vehicle which was parked close by; the
shooter at the front of the car walked right by Peatry, seated in the driver’s seat, as he left the
scene. A seemingly distraught Peatry called 911 while also trying to tend to Daniels’ wounds.
She told the 911 dispatcher that there were “two of them” and that “Poleroski” (a.k.a. Paris Poe)
shot Daniels. The getaway car, she said, was a “gold Trailblazer.” Later that night Peatry picked
Poe out of a photo array as the man she “seen shooting,” and she identified Poe in court.
The murder occurred days after Gregory Chester had been arrested on April 10, 2013 on
the charges relating to the drug deals he had done with Daniels. When Chester was arrested, he
learned that Daniels was the informant in his case, not because law enforcement officials gave
him a name, but because it was clear from the charges. On the same day, Paris Poe, who had
been on electronic monitoring as part of his supervised release in another criminal case, cut off
the monitoring device strapped to his ankle and absconded, just a few months before his twoyear supervision would have ended.
On April 13, 2013, from jail, Chester phoned an acquaintance who put Poe on the line
with him. The three-minute call was recorded. The two spoke at times in what the government
characterized and the jury could have accepted as a simple code intended to disguise the
discussion. Chester appeared to tip Poe off about a broader investigation in saying things such as
“They on sin-ome other shit,” [they on some other shit] and “they coming with some other shit
and goddamn it, probably real soon . . . . All type of shit.” Chester Tr. 4619AT at 1-3. 27 Poe told

27

This transcript corresponds to the recording in evidence as Gov. Ex 4619.
53
App.000140

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 54 of 114 PageID #:26401

Chester, “it’s all good” and that Chester should “play chess,” 28 and then, (phonetically): “But a
motherfucker bin-op din-ead. 29 [“But a motherfucker be . . . dead.”] When I catch him.” Id.
The murder occurred the next day. Within an hour of the shooting, Chester spoke to the
same acquaintance who previously connected him to Poe (he did not speak to Poe at that time).
Of “Dude,” with whom the caller had not spoken since the day before, Chester said “He didn’t
even have to do that.” Tr .4619BT at 1. But Chester also “underst[ood] though, too” and stated,
“Better be safe than sorry.” Id. at 2. The caller suggested, “there gotta be a outcome,” and
Chester laughed and said “it’s gone be a outcome.” Id. Later that night, an unidentified male
caller (whom Chester identified in his testimony as Lamar Murphy) told Chester that a guy had
“pulled up in his lil’ Trailblazer and shit on it.” Tr. 4619_DT at 4.
Poe remained at large for weeks after he absconded from supervised release; evidence
showed he travelled to Madison, Wisconsin, and then the Wisconsin Dells, then to Las Vegas,
and back again to Madison. During this time period, he cut off his distinctive dreadlocks. He
made several new acquaintances, who provided him with lodging and meals and some of whom
accompanied him to Las Vegas. They knew him as “Chris.” Ultimately Poe was arrested on May
3, 2013, as he tried to hastily leave town with a woman he had met in Wisconsin.
In addition to the evidence summarized above, the government presented the testimony
of Brian Zentmyer (admissible only against Poe, pursuant to a limiting instruction), who was in
28

The government argued that “play you some chess” was a suggestion to think
strategically: “[Poe] wasn't talking about playing chess. He was talking about strategizing about
what they had to do to get rid of this threat. You heard in one of the William Ford recordings this
reference to chess: Louie played chess. Louie make his move and he watching the board.” Trial
Tr. Vol. 53 at 123660. Chester argued: “’Keep strategically thinking,’ it's dumb. It's not code.
And you wouldn't need to say that unless you were trying to paint the target.” Trial Tr. Vol. 54 at
12798.
29

Chester’s counsel suggested at trial that the phrase on the recording sounded like “binop din-own” [“bop down”]. Trial Tr. Vol. 45 at 10536.
54
App.000141

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 55 of 114 PageID #:26402

jail on a state-court conviction for marijuana trafficking, and was a cell mate of Poe’s for months
in the Kane County jail. Zentmyer often served as a jailhouse lawyer for others in custody, and
he testified that Poe sought advice from him about his arrest and the charges in this case. Trial
Tr. Vol. 43 at 10118 -10259. Zentmyer testified, among other things, that Poe told him he cut off
his monitoring band, went to Dolton, and shot “the victim” in his car several times. Zentmyer
said Poe told him “this guy had made heroin buys off of Bowlegs” and was “the main guy to
testify against Bowlegs.”
As he did at trial, in his motion Poe tries to discredit the primary witnesses who pointed
the finger at him. He brought out the stormy relationship between Daniels and Peatry, including
mutual infidelity, something that prompted Peatry to post on Facebook a year earlier, in April
2012, that Daniels was working as an informant for the government. She later lied about having
posted this information that “outed” Daniels. Peatry was also in very frequent contact with her
paramour, Arsenio Fitzpatrick, in the ten days leading up to the murder. Peatry deleted these
contacts, and all of her text messages and call records, from her mobile phone hours after the
murder, to prevent anyone from seeing her “personal business.” Peatry had also been
inconsistent throughout the investigation about whether Poe was wearing a mask, a beanie, or
nothing, on his head and face during the murder, but ultimately she rested on the story that the
shooter’s face was covered. And at trial she testified for the first time (having previously given
statements to police and testified before the grand jury) that she identified Poe as the shooter
based primarily on his walk. Poe called an expert who testified about numerous factors that
would undermine an identification such as Peatry’s, including the obstruction of the suspect’s
face and the presence of the firearm. Further, Peatry might have been predisposed to identify Poe
because she and Daniels had heard that Poe was at large, and they were concerned. Poe also

55
App.000142

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 56 of 114 PageID #:26403

challenged Peatry’s testimony that, insofar as she couldn’t view the face of the masked (or
beanied) assailant, she identified Poe by his walk. Poe cast doubt that Peatry had carefully
observed Poe on prior occasions. She testified that she had seen Poe “at most, four times” in her
entire life. Trial Tr. Vol. 42 at 9923. And Poe also showed that Poe was in jail in the “hot”
months of 2009 or 2010, the only (somewhat) specific time she testified that she observed him in
the past, walking with Daniels in Washington Park. See Trial Tr. Vol. 55 at 12994 (“He goes in
May 14th of 2009 when it is not hot outside, and he doesn't get out until December 17th of
2010.”).
As to Zentmyer, Poe made a vigorous effort to show that his notes and testimony seemed
to be pulled from the indictment or new reports rather than Poe himself. The government
responded with evidence and argument that Zentmyer had related details about the Daniels
murder that had not been reported. The jury could have credited the witness’s own testimony that
Paris Poe was his “source of information,” Trial Tr. Vol. 43 at 10237, and that he never saw a
criminal complaint against Poe for the murder of Keith Daniels, id. at 10241. The government
also showed, through this Court’s judicial notice, that the location of the murder (Dolton,
Illinois), and the fact that Daniels was Council’s younger brother did not appear in the complaint,
but Zentmyer knew those facts. Id. at 10244. The same was true with respect to the presence of
Daniels’ girlfriend (who had been referred to only as “Witness 1”) and their children.
Poe also emphasized that Zentmyer was an admitted liar who testified that as a pseudoattorney, his motto was that clients should tell him the truth and let him do the lying for them.
Both Peatry and Zentmyer were, deservedly, “caution and great care” witnesses whose testimony
the jury was instructed to weigh carefully. But that does not mean that the jurors could not have
reasonably believed some or all of their testimony.

56
App.000143

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 57 of 114 PageID #:26404

Poe also presented the jury with some alternative theories of the murder. One was that
any number of people knew for about a year, from Peatry’s Facebook post, that Daniels was an
informant, and therefore many people might have had the motive to kill him. But this is not
inconsistent with the jury’s conclusion that Poe killed Daniels for being an informant; it simply
shows that others who learned about Daniels in another way had a similar motive to wish harm
on Daniels. Another theory was that there were multiple shooters. And there may well have been,
but only Poe was on trial, and if the jury thought that more than one person murdered Daniels, 30
that does not show that Poe wasn’t one of them. Poe also floated the idea that Peatry might be
covering for Arsenio, whom she called “her man.” 31
Poe’s most specific alternate theory of the crime is that it was committed by two men
named Lamar Murphy and Ricky Royal. Daniels had committed crimes with them in the past—
specifically, a home invasion/robbery/kidnapping. Moreover, according to Peatry, at one time
she was present when Royal and Murphy asked Daniels to run their drug line on the west side of
Chicago. Poe contends that this evidence points to Murphy and Royal as the killers because they,
unlike Poe, had a criminal history with Daniels, and, unlike Poe, they had a “close relationship”
with Daniels. Moreover, on the day of the murder, Daniels received a text message warning him
that two people (described with a racial slur) from “out west” were out to kill him. Peatry
confirmed that Murphy and Royal were west-siders (consistent with the location of their drug
line). Poe further argues that the evidence of two shooters—the presence of two different caliber
30

Peatry testified that there were two people there, but identified only one shooter. A
neighbor testified that on April 10, 2013, the day of Chester’s arrest, she had observed a “tan
SUV” (consistent, at least somewhat, with a gold Trailblazer), casing Daniels’ home. This person
could not have been Poe, whose monitoring records show that he was at home at that time on
April 10.
31

In view of Peatry’s testimony that the shooter fired at the windshield, while she was
sitting in the driver’s seat, and at the car while her children were in the back seat, it seems
particularly far-fetched to argue that the shooter was Peatry’s lover.
57
App.000144

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 58 of 114 PageID #:26405

shell casings at the scene, each in their own, different, area, and the differing descriptions of the
killer by Peatry and her son—supports the Murphy-and-Royal hypothesis. Finally, there was
evidence that the unidentified male to whom Chester spoke from jail after the murder was Lamar
Murphy, a.k.a. “Lil’ Cuz.” Chester, who testified at the trial, stated that he had been speaking
with Murphy, not Poe, after the murder (a fact that, if Poe’s theory were credited, hardly
exculpates Chester).
Because (according to Poe) there were no credible witnesses against him and a more
plausible theory of the murder, he argues that as a matter of law he must be acquitted for lack of
sufficient evidence. The problem is that Poe presented all of this to the jury during cross
examinations, his defense case, and closing arguments. 32 His motion simply highlights that the
jury was not persuaded. The jury could have rejected the government’s witnesses, or believed
Poe’s theory, but apparently it did not. “Alternative explanations are generally not enough to win
a challenge to the sufficiency of the evidence.” United States v. Presbitero, 569 F.3d 691, 700
(7th Cir. 2009). Taking the evidence in the light most favorable to the government, the jurors’
conviction of Poe on Count Six was reasonable. The timing of Poe’s disappearance (right after
Chester’s arrest); his discussion with Chester about the arrest and possible further charges; his
identification as the shooter by an eyewitness (Peatry); his flight for weeks thereafter for no good
reason; and his history of protecting Chester and silencing cooperators like Wilbert Moore
through murder add up to sufficient evidence for a reasonable jury to conclude beyond a
reasonable doubt that he killed Daniels. The jury’s verdict cannot be overturned for insufficient
evidence just because there was a reasonable alternate theory.

32

The Court even permitted Poe’s counsel to demonstrate that there was nothing
distinctive about his walk that would have permitted Peatry to identify him.
58
App.000145

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 59 of 114 PageID #:26406

Next, Poe argues that there was insufficient evidence of his intent to obstruct the drug
cases against Chester and Dillard, and the grand jury investigation into the racketeering
conspiracy in this case. Here, Poe is splitting hairs about what the jury reasonably could have
inferred from the evidence. It is true, as Poe says, that there is no evidence that he knew about
the grand jury investigation per se, but, as Poe concedes, there is evidence (from his conversation
with Chester) that he knew “charges were coming.” Poe Mot. 21, ECF No. 1188. It is not
unreasonable as a matter of law for the jury to have inferred that Poe, who had ample exposure to
the criminal justice process, knew that charges “were coming” from a grand jury. Poe also says
that the government failed to supply evidence that he knew about Chester’s drug case, as he only
heard from Chester about his arrest, not the nature of the charges. Poe’s failure to ask Chester
about the charges suggests he was well aware, from whatever source, that Chester and Dillard
were being held on federal drug charges.
Chester also challenges the Additional Finding that the Keith Daniels murder was
foreseeable to him and in furtherance of the conspiracy. This challenge is specious because there
was ample evidence to support the finding. Poe, who was on electronic monitoring that was soon
to expire, went AWOL right after Chester was arrested for the drug sales to Keith Daniels.
Chester knew immediately that Daniels was the confidential source, as he stated to the police
when informed of the evidence against him. Chester spoke to Poe and they cryptically discussed
a game plan; hours later, Daniels was dead, Poe was on the run, and Chester was informed about
the murder in a call to the jail. On the calls, Chester, for good reason, did not say in clear and
grammatical language that Poe should kill Daniels or that Poe had done so, but the jury could
have reasonably believed, especially given the timing and context, that Chester’s conversations
from jail were admissions of exactly that. Moreover, Arnold Council told his (and Daniels’)

59
App.000146

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 60 of 114 PageID #:26407

mother that Daniels, in essence, got what he had coming; it was no secret, therefore, among the
Hobos that Daniels was murdered for ratting out Chester and others. Chester does not address
any of this evidence; instead he resorts once again to the frivolous refrain that there was “no
reliable evidence” that he had “any involvement whatsoever.” Chester Mot. 12, ECF No. 1192.
Absent a more specific argument, Chester fails to show that the extraordinary step of vacating a
jury finding should be taken. And, again, it bears noting that the jury was free to reject Chester’s
account of his phone calls and, in so doing, to treat his false denials as substantive evidence of
his complicity in Daniels’ murder. Jocic, 207 F.3d at 893.
F.

Count Seven (Council): Aiding and Abetting The Use, Carrying, or
Brandishing of a Firearm During and in Relation to a Robbery Affecting
Interstate Commerce and Related Additional Finding of “Brandishing.”

Arnold Council challenges the sufficiency of the evidence to convict him on Count
Seven, which pertains to the armed robbery of the Collections clothing store on November 8,
2008. The robbery was captured on videotape, see Gov. Ex. 4002_A-4002_D. It depicts the
robbers entering the store, with Arnold Council last. Council goes straight to the back wall and
begins stripping it of Pelle Pelle (an expensive luxury brand) jackets, while the others round up
the store employees and force them into a back room. When the jackets were stuffed into bags,
the robbers grabbed them and left the store. At least two robbers, Kenneth Bland and Ahmad
Hicks, carried guns during the robbery (the fourth robber was Hobo Pierre Skipper).
Council does not deny his participation in the robbery (he pled guilty to the offense in
state court). 33 But he argues there was no evidence he knew about the guns before the robbery or
that he became aware of them during the robbery because Bland and Hicks kept them up their

33

Specifically Council pled guilty to “straight robbery”: that on November 8, 2008, he
“took property, to wit clothing, from the person or presence of Eleanor Johnson by the use of
force or threatening the imminent use of force.” Trial Tr. Vol. 36 at 8664.
60
App.000147

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 61 of 114 PageID #:26408

sleeves. But there was a sufficient basis in the evidence for the jury to have reasonably drawn
either conclusion.
That Council knew about the guns before the robbery is supported by the videotape. At
several points, albeit fleetingly, guns are visible. Further, there was a clear and organized
procedure being deployed from the moment the robbers entered: secure the employees, round
them up and keep them from fleeing, grab the jackets, and go. No physical force was used to
compel the employees; they were physically guided but not beaten, which is consistent with
testimony that guns were used to gain their swift compliance. With such an orderly process, the
jury could reasonably infer from the videotape that using guns was part of the plan from the start.
By the same token, the video allows the conclusion that whatever Council knew before the
robbery, he must have realized what was happening almost immediately. The employees were
marched right past him and held in a back room very close to where Council was grabbing
jackets with Skipper. Common sense would permit the jury’s inference that Council, no babe in
the woods, was aware of what was happening—and even that he deliberately ensured that the
firearms were wielded only by his junior colleagues.
The testimony of Kenneth Bland directly supported the prior-knowledge theory of the
crime. Council argues that none of Bland’s testimony can be credited. Indeed, Bland’s trial
testimony was at time internally contradictory, and was inconsistent in several ways with his
prior statements about the robbery and, particularly, the guns. But, once again, the testimony
was not incredible as a matter of law, and the jury could have believed Bland. Bland was
consistent that Council proposed the robbery when he approached the car parked near
Collections where Bland, Hicks, and Skipper were sitting. Trial Tr. Vol. 36 at 8528-29. When he
was apprehended, Bland disclaimed knowledge of any guns and then attributed them to Pierre

61
App.000148

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 62 of 114 PageID #:26409

Skipper (Bland also told some ridiculous lies about working with the FBI). He ultimately said
that all three of them had guns, and Council either saw them in their laps or asked them if they
had guns. Id. at 8529-30, 8589. Bland understood that Council was proposing a “stick up.” Id. at
8531. Council explained the plan to Bland and the others: “We going in there for the Pelles. He
told me where we going to take them at, where we going to take the people at, how many people
was in there and where the camera was at off the alley. He told me there was a camera off the
alley.” Id. at 8531-32. When everyone agreed to the plan, Council went off to buy masks and
laundry bags. Id. at 8532. He distributed these to the rest of the crew before they entered the
store. Bland put his gun into his sleeve before he went into the store, and he was the first one in.
Id. at 8538. During the robbery, Hicks (“Pig”) “upped” his gun—pulled it out where it could be
seen “all the way.”
Physical evidence bore out Bland’s testimony as a general matter. For example, he
testified that after telling the others that they were going to steal Pelle Pelle jackets from the
store, Council went and purchased zip ties, masks, and laundry bags. Evidence recovered after
the robbery provided further corroboration; the police recovered the jacket Council wore during
the robbery (visible in the video), the guns, the stolen jackets, and zip ties and masks. The video
corroborated Bland’s account of the robbers’ plans to first secure the people in the store and then
proceed to collect the jackets. Moreover, the jury could have found it inherently unlikely that as
the mastermind, Council was unaware that this was to be an armed robbery.
At a minimum, the jury could reasonably have inferred from the video and the testimony
of the Collections employees that Council gained knowledge of the guns during the robbery
when his fellow robbers were able to so efficiently escort the employees straight to the back
room with little struggle. The employees’ testimony supports this view. The manager, Thaer

62
App.000149

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 63 of 114 PageID #:26410

Atieh, was in the store with two workers, Eleanor “Veronica” Johnson and Tony. Trial Tr. Vol.
35 at 8333; Vol. 36 at 8430. When the robbers entered, “each one of them grabbed one of us
[and] took us all the way to the back room…[a] small room for storage.” Vol. 35 at 8337. Atieh
said he felt something hard pressed against his side that “could be a gun.” Id. at 8338-39. He saw
the tip of a gun either in the back room or outside it. The two men were bound with zip-ties and
Johnson with a belt. Johnson testified similarly. When the robbers entered, she was on a ladder at
the side of the store. Trial Tr. Vol. 36 at 8432. She said the robbers “ grabbed us all and told us to
go to the back with some guns in their hand.” Id. at 8433. She later said she didn’t see the gun
until she was in the storage room. Id. at 8441. The man who guarded the employees in the back
storage room “had a gun in his hand, but he wasn’t pointing it at [them].” Id. at 8437.
Based on the video and the testimony, the jurors could reasonably have concluded that
Council became aware that just steps away from the back wall from which Council was stripping
jackets, the store employees were being held at gunpoint Moreover, Counsel himself admitted in
state court that he obtained the clothing “by the use of force or threatening the imminent use of
force,” which adds weight to the inference that he knew (during, if not before) that guns were
used to rob the store. In the unlikely event that he did not plan for the crime to be facilitated with
firearms, the jurors certainly could have concluded that Council became aware of the guns
during the robbery,
Council makes no separate challenge the jury’s Additional Finding on Count Seven that
in the course of the robbery he aided and abetted the “brandishing” of a firearm (as opposed to
the use or carrying of one). The jury’s finding therefore stands.

63
App.000150

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 64 of 114 PageID #:26411

G.

Count Eight and Count Nine (Ford): Unlawful Possession of a Firearm and
Possession of Marijuana with Intent to Distribute

Ford does not challenge his conviction on Count Eight, the illegal possession of a firearm
by a felon. He does contend that, regarding Count Nine, there was insufficient evidence to prove
beyond a reasonable doubt that on February 2, 2013, he possessed marijuana with the intent to
distribute it. Ford Mot. 4, ECF No. 1184. Ford concedes that the government showed that “Ford
had some cannabis on a shelf in a bedroom.” Id. (During a parole search, police found a pink bag
containing marijuana in a closet in Ford’s bedroom, with a gun nearby.) That takes care of
“possession.”
Ford argues that “intent to distribute” was not proved because there was no evidence that
“Ford was actively selling cannabis at the time of his arrest”; that he was seen “selling drugs on
the street”; that there were “undercover purchases of cannabis from Ford”; or that there were any
“communications attributable to Ford discussing cannabis sales.” Id. at 5. But none of these
things was an element of the offense that had to be proved beyond a reasonable doubt.
The intent to distribute was proved primarily by way of how the marijuana was packaged.
The pink bag contained 50 miniature zip-top bags of marijuana, grouped into five larger bags of
ten, which were, in turn, grouped into one large zip-top bag. The total weight of the marijuana
was 10.6 grams. An FBI agent confirmed the obvious: that drugs in this format are packaged for
distribution. Trial Tr. Vol. 6 at1410-1411. See Carter v. Douma, 796 F.3d 726, 738 (7th Cir.
2015) (packaging and quantities evidence of intent to distribute); United States v. Baker, 655
F.3d 677, 684 (7th Cir. 2011) (expert witness testifying to distribution-sized amount). Finally,
before this search, Ford had previewed his drug trafficking activities himself, when he was
recorded in prison telling Chad Todd that he was going get a pound of “kush” (high quality

64
App.000151

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 65 of 114 PageID #:26412

marijuana) to sell, and that he did not “smoke weed” himself. Tr. 4860_G at 3. 34 The jury had
ample grounds for a reasonable conclusion that Ford intended to sell the marijuana that was
found in his bedroom.
II.

New Trial Motions

This Court may grant a new trial “if the interest of justice so requires.” Fed. R. Crim. P.
33(a). A defendant is entitled to a new trial if there is a reasonable possibility that a trial error
had a prejudicial effect upon the jury’s verdict. United States v. Van Eyl, 468 F.3d 428, 436 (7th
Cir. 2006). A jury verdict in a criminal case is “not to be overturned lightly,” and therefore a new
trial should be granted only where there is serious danger that a miscarriage of justice occurred.
See United States v. Morales, 902 F.2d 604, 606 (7th Cir. 1990). In other words, a new trial is
warranted only in “extreme cases.” Id.; see United States v. Linwood, 142 F.3d 418, 422 (7th Cir.
1998).
A.

Errors Raised by Multiple Defendants

Common arguments are grouped and addressed together in this section. The Court
recognizes that all arguments are “common” to the extent that all defendants have adopted all of
their co-defendants’ relevant arguments and their own prior motions and objections, but this
section addresses the issues that were substantively briefed by more than one defendant. Later
sections address issues raised by one defendant about his own case.
1.

Co-Conspirator Statements

Multiple defendants state that this Court erred by admitting co-conspirator statements
under Rule 801(d)(2)(E) as statements made by a co-conspirator “during and in furtherance of
the conspiracy” or, failing those criteria, as statements against penal interest under Rule

34

This transcript corresponds to the recording in evidence as Gov. Ex. 4860_G.
65
App.000152

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 66 of 114 PageID #:26413

804(b)(3). Chester says, without elaboration, that it was error to allow such statements in as
statements-against-interest because they incriminated him and other defendants, not just the
declarant. Chester Mot. 6, ECF No. 1192. Bush says many of the statements admitted as nonhearsay co-conspirator statements were “not in furtherance of any conspiratorial objective, were
made after the conspiracy had ended, and were idle chit chat and narratives.” Bush Mot. 6, ECF
No. 1191. But Chester and Bush fail to identify any specific statements that should not have been
introduced, much less why. The Court cannot, then, discern whether there was any particular
error or whether, if there was, any erroneously admitted statements might have seriously
prejudiced the jury’s evaluation of the case. Such undeveloped, broad-brush arguments do not
warrant relief.
For the sake of leaving a trail of breadcrumbs for the Court of Appeals in the event of any
appeal, the Court notes that it partially rejected the government’s Santiago proffer on the ground
that it merely identified kinds of statements it sought to admit as co-conspirator statements,
rather than specific statements. See Order, ECF 755; Order, ECF No. 782; Pretrial Tr. 76, ECF
No. 1199 (Aug. 30, 2016). Noting that “in almost no case does the Santiago proffer actually say,
‘here are . . . statements that we believe are admissible as co-conspirator statements and why,’”
the Court found the proffer “wanting.” 35 To avoid wasting time ruling on statements on an
objection-by-objection basis in front of the jury, the Court imposed a process for ruling on
admissibility in advance (subject to further objections in real time), which required the
government to identify with precision every single statement that it sought to introduce as a coconspirator statement pursuant to Rule 801(d)(2)(E):
35

The Court did find that the Santiago proffer adequately established the existence of the
conspiracy and the identities of many (though not all) of the co-conspirators. As reflected in the
discussion of the defendants’ challenges to the sufficiency of the evidence, see pp. 10-23 supra,
the evidence at trial proved sufficient to confirm the preliminary rulings in that regard.
66
App.000153

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 67 of 114 PageID #:26414

I’m going to require the government by . . . the end of Sunday of each
week of trial, to specifically identify statements the government intends to
offer as co-conspirator statements a week later. So if we define a Sunday
before a trial week as day one, the government’s required to identify for
both the Court and the defendants the statements that it expects to offer as
co-conspirator statements the week beginning day 8, a week later, the
method to that madness being that will give the defendants . . . time to
review those proffered statements and identify any objections that they
have which I will require to be submitted by the end of the day on
Thursday to the Court so that I may address them on Friday before the
beginning of the week where we anticipate that they’re going to be
introduced. *** I need those statements identified as to statements that the
government believes are admissible under 801(d)(2)(E) so that I can make
the appropriate determination as to whether . . . there’s a basis to conclude
whether they are, in fact, in furtherance of the conspiracy and that they are
being made by a member of that conspiracy.
Id. 78-79. No one objected to this process, and therefore, throughout the four-month trial, there
were regular sessions outside the jury’s presence in which the Court went through a statementby-statement analysis of the admissibility of the government’s proffered statements—indeed, not
just under Rule 801(d)(2)(E), but on any other basis by which the government sought to
introduce the statements. Throughout the process, which occupied scores of hours of the Court’s
time during the trial, 36 the Court excluded substantial portions of potential testimony, written
statements, and tape-recorded conversations which the Court found were not made in furtherance
of the conspiracy or were inadmissible for other reasons.
In light of this process, any defendant seeking to challenge a particular statement or
statements in a new-trial motion had a way to identify the statement and address why the Court’s
stated reasoning was erroneous. The defendants’ having failed to do so, except where noted in
the remainder of this opinion, this Court will not rule on whether or not, as a general matter, coconspirator statements should have been admitted generally.
36

See, e.g., Trial Tr. Vol. 18 at 4420 (“Since last Friday, so over the past week, I have
spent approximately 26 hours reviewing these transcripts.”); Trial Tr. Vol. 16 at 4094; Trial Tr.
Vol. 45 at 10434.
67
App.000154

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 68 of 114 PageID #:26415

Defendant Bush’s related argument is that the Court improperly admitted co-conspirator
statements that addressed matters outside the scope of the conspiracy, either in time (Bush says
any conspiracy ended by 2008) or substance, i.e., not in furtherance of the conspiracy. See Bush
Mot. 6 (Issue “5E”), ECF No. 1191. Bush makes one unelaborated mention of the recorded
statements of defendant William Ford, but does not point to any particular inadmissible
statement about an offense that purportedly “had no relation to the charged conspiracy.” In any
case, the Court has consistently ruled against Bush with respect to the acts within the temporal
and substantive scope of the conspiracy and, as explained elsewhere in this opinion (as relevant
to the statute-of-limitations arguments and the admissibility of evidence of “unrelated” crimes),
it sees no factual or legal basis for changing course now.
2.

The Admission of Keith Daniels’ Prior Testimony

The murder of Keith Daniels was charged as an act in furtherance of the conspiracy under
Count One and against Paris Poe in the Second Superseding Indictment; it was also the subject of
Additional Findings against Chester (as part of his Count One acts) and Poe. As set forth in more
detail above, Daniels, the younger brother of Arnold Council and a Hobo associate, had been
cooperating with law enforcement against Chester, Lance Dillard, and the Hobos as a whole. As
part of that cooperation, Daniels gave testimony under oath to the grand jury, and the
government expected him to be a witness (likely a star witness) at trial. But he was murdered
before that could happen. The government moved in limine to admit Daniels’ grand jury
testimony under the doctrine of forfeiture-by-wrongdoing, Fed. R. Evid. 804(b)(6), and the Court
granted the motion provisionally, subject to prove-up during trial. See Mot., ECF No. 590-3;
Mot. ECF No. 585; Suppl., ECF No. 1028; Orders, ECF Nos. 783 and 1040; Trial Tr. 45 at
10432 et seq. Before the evidence was admitted, the Court solicited the defendants’ further

68
App.000155

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 69 of 114 PageID #:26416

objections to Daniels’ statements, subjected those statements to the same line-by-line review
process used to address the admissibility of co-conspirator statements, granted many of the
defense objections, and excised substantial portions of the Daniels’ grand jury statement. The
Court also revisited its provisional ruling and admitted the redacted grand jury statement
pursuant to Rule 806. See Order, ECF No. 1040; Trial Tr. 45 10432. At the relevant time, the
Court allowed the evidence to be admitted.
Defendants including Chester and Bush now challenge the Court’s decision to allow the
testimony into evidence in redacted form. That discussion took place in great detail after the
Court’s initial decision. See Trial Tr. Vol. 45 at 10432-10447. Chester contends that even if the
Court found that Poe murdered Daniels, Daniels’ “statements were only admissible against Mr.
Chester if the government could establish that Mr. Daniels was murdered at Mr. Chester’s
request for the purpose of preventing him from testifying against him,” and further, that the
forfeiture doctrine “does not allow for the admission of testimonial evidence of the offense that
rendered the witness unavailable.” Chester Mot. 7, ECF No. 1192. Bush contends that this Court
“misuse[d] . . . the Pinkerton theory of liability for acts that are reasonably foreseeable to coconspirators in order to nullify the requirement of knowledge and acquiescence.” Further, Bush
argues that the Court went afoul of Giles v. California, 554 U.S. 353 (2008), because “the
exception only applies when the intent for committing the murder is related directly to the
purpose of making the potential witness available at a trial.” Bush Mot. 8, ECF No. 1191.
Finally, Bush argues that it was error to conclude that the Daniels murder fell within the scope of
the conspiracy in that the conspirators knew of, engaged in, or acquiesced in the killing. See
United States v. Scott, 284 F.3d 758 (7th Cir. 2002). Therefore, he claims that he and the other
defendants not directly involved were denied their right of confrontation.

69
App.000156

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 70 of 114 PageID #:26417

This issue has been well litigated already, and for the most part these arguments are not
new, so the Court addresses it only briefly. Giles holds that “unconfronted” testimony shall not
be admitted without a showing that the defendant intended to prevent a witness from testifying,
even if the defendant killed the person who made the prior statements. 554 U.S. at 361; see id. at
359 (“The terms used to define the scope of the forfeiture rule suggest that the exception applied
only when the defendant engaged in conduct designed to prevent the witness from testifying.”).
On the facts of this case, Giles is of no help to those who participated in Daniels’ murder. The
jury found beyond a reasonable doubt that Daniels was killed in order to obstruct these and other
judicial proceedings. The intent to procure Daniels’ unavailability, as required by Giles and
Scott, was proved. 37
Nor does Giles help the co-conspirator defendants who were not directly implicated in
the Daniels murder, a group that includes Bush. He contends that those defendants’
“acquiescence” to the killing was not proved. See Scott, 284 F.3d 758 at 762. But it was. For
purposes of Count One, the jury concluded that each defendant agreed to participate in a pattern
of racketeering activity including intimidating and murdering witnesses, which was one of the
purposes of the enterprise (SI ¶ 4(d)) and one of the “means and methods” (id. ¶8(b), (l), (m)), as
expressly set forth with respect to the Daniels murder in Notice of Special Findings #2, which
the jury later concluded was proven. As participants in the enterprise, the defendants are
37

Bush’s reliance on Jensen v. Clements, 800 F.3d 892, 894 (7th Cir. 2015), is also
misplaced. Jensen had nothing to do with obstruction of justice or witness murder. It was, for
lack of a better word, a “routine” murder case against a husband for killing his wife, where she
had earlier written a letter that pointed the finger at her husband if anything were to happen to
her. That kind of testimony from the grave violated the Confrontation Clause as interpreted by
Giles. That case’s narrowing of exceptions to the Confrontation Clause did not impact the
scenario in this case at all: the forfeiture by wrongdoing rule was limited to circumstances where
the witness’s unavailability was procured by wrongdoing with the intent to cause the
unavailability. That is exactly what the evidence in this case shows the defendants did (or
acquiesced in doing) to Daniels.
70
App.000157

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 71 of 114 PageID #:26418

responsible for every criminal act in furtherance of the conspiracy to the extent it is foreseeable.
The Daniels murder satisfies both prongs: the government had sufficient evidence that it
furthered the conspiracy because it was designed to cover it up and protect the members, and that
it was foreseeable because the defendants knowingly agreed to join a conspiracy in which the
killing and intimidation of cooperators and witnesses against the gang was within the
conspiracy’s scope. Bush certainly understood as much, given his participation in the murder of
Wilbert Moore, another cooperator silenced by the Hobos.
Rule 804(b)(6) speaks to “acquiescence” in the wrongful act intended to cause the
declarant’s availability. That rule is not limited to criminal conspiracies. In the context of one,
however, it would be strange indeed to conclude that the knowing agreement to participate in a
conspiracy involving murder of witnesses and cooperators does not more than satisfy the general
requirement of “acquiescence.” That is at the heart of the holding of United States v. Thompson,
286 F.3d 950, 964 (7th Cir. 2002), which stated: “by using the term ‘acquiesce,’ the drafters of
Rule 804(b)(6) expressed an intent to allow for the imputation of waiver.” Through Pinkerton,
imputation of foreseeable wrongdoing is the rule in a criminal conspiracy. See id. at 964.
Therefore, it is no leap to hold that a defendant who knowingly participates in a conspiracy
involving a foreseeable act of witness murder to conceal and protect the conspiracy is one who
“acquiesces” for purposes of Rule 804(b)(6). The government met its burden with respect to the
forfeiture-by-wrongdoing doctrine under the rule and the three-part test of Scott, and it was
proper to admit Daniels’ redacted grand jury testimony against all the defendants.

71
App.000158

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 72 of 114 PageID #:26419

3.

Additional Findings on Offenses Not Charged

Defendants including Chester 38 and Ford 39 contend that it was error for this Court to
submit Additional Findings to the jury about defendants unless the underlying criminal act was
charged against that defendant in a separate Count or associated with the defendant, by name, in
Count One’s description of the representative acts of racketeering or in the Notice of Special
Findings. They contend that this process violated the Presentment Clause, constructively
amended and broadened the indictment, failed to provide them with adequate notice, and
violated the rule of Apprendi.
38

The jury returned Additional Findings against Chester on Count One regarding the
murder of Antonio Bluitt, first finding that “the racketeering activity upon which defendant
Gregory Chester’s violation is based includes the first degree murder of Antonio Bluitt by one or
more coconspirators whose acts (1) advanced the goals of the conspiracy; and (2) were
reasonably foreseeable to defendant Chester,” and second, that the murder was “committed in a
cold, calculated, and premeditated manner pursuant to a preconceived plan, scheme, and design
to take a human life by unlawful means, creating a reasonable expectation that the death of a
human being would result.”
The jury also returned Additional Findings against Chester regarding the murder of Keith
Daniels, beginning with the finding that “the racketeering activity upon which defendant
Gregory Chester’s violation is based includes the first degree murder of Keith Daniels by one or
more coconspirators whose acts (1) advanced the goals of the conspiracy; and (2) were
reasonably foreseeable to defendant Chester.” The jury further found that: (1) it was committed
in a cold, calculated, and premeditated manner pursuant to a preconceived plan, scheme, and
design to take a human life by unlawful means, creating a reasonable expectation that the death
of a human being would result therefrom; (2) it was committed with intent to prevent Daniels
from testifying or participating in any criminal investigation or prosecution or giving material
assistance to the State of Illinois in any investigation or prosecution, either against the defendant
you are considering [a.k.a., Chester] or another person; and (3) it was committed because Daniels
was a witness in any prosecution or gave material assistance to the State of Illinois in any
investigation or prosecution, either against the defendant you are considering [a.k.a., Chester] or
another person.”
39

The jury returned Additional Findings against Ford on Count One regarding the
murders of Antonio Bluitt and Gregory Neeley, first finding that “the racketeering activity upon
which defendant William Ford’s violation is based includes the commission, or aiding and
abetting of the first-degree murder” of each victim, and second, that each murder was
“committed in a cold, calculated, and premeditated manner pursuant to a preconceived plan,
scheme, and design to take a human life by unlawful means, creating a reasonably expectation
that the death of a human being would result.”
72
App.000159

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 73 of 114 PageID #:26420

All of these arguments are based on the premise that Chester and Ford were not charged
with committing the predicate acts of murder that make them eligible for a life sentence as the
result of their conviction on Count One. The premise is correct, but irrelevant. It is true that
neither Chester nor Ford were charged with personally participating in the Bluitt and Neely
murders, but their eligibility for life sentences does not turn on whether they did so. Count One
of the indictment charged them not with murder but with agreeing to conduct the affairs of an
enterprise through a pattern of racketeering activity. The defendants’ convictions on that count
did not depend on proof that they committed the Bluitt and Neely murders personally (which of
course is why we are talking about “Additional Findings,” that is, findings beyond those that
were necessary to convict the defendants on Count One). Indeed, their convictions on Count One
did not require proof that the defendants even agreed to commit those specific murders, or any
murders at all for that matter. United States v. Tello, 687 F.3d 785, 792 (7th Cir. 2012) (“A
section 1962(d) conspiracy charge thus does not require proof that the defendant committed two
predicate acts of racketeering, that he agreed to commit two predicate acts, or, for that matter,
that any such acts were ultimately committed by anyone.”) (internal citations omitted).
None of the “Additional Findings” by the jury about the murders of Bluitt and Neely,
then, were necessary to support the convictions on Count One, and the facts that were the subject
of those findings were not “elements” of that offense. Rather, the Additional Findings about
those murders were submitted to the jury because, if proved, they established the defendants’
eligibility for a life sentence rather than the 20 year maximum sentence that would otherwise
have applied because they showed that the conspiracy was “based on” racketeering activity
punishable by life imprisonment. Section 1963(a) of Title 18 sets forth the penalty provisions for
violations of the RICO statute, including § 1962(d) (RICO conspiracy, the charge for which the

73
App.000160

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 74 of 114 PageID #:26421

defendants were convicted in Count One). Section 1963(a) provides that, “if the violation is
based on a racketeering activity for which the maximum penalty includes life imprisonment,” a
sentence of up to life imprisonment may be imposed. Thus, evidence that the defendants’
violation of § 1962(d) was based on racketeering activity punishable by life in prison increases
the maximum sentence that can be imposed on the Count One conviction to life imprisonment.
This brings us to the principal flaw in the defendants’ various arguments about the
Additional Findings: the “violation” for which they were convicted was RICO conspiracy, so
there was no requirement to charge that they personally committed racketeering acts of murder;
their violation of § 1962 was, again, to conspire to conduct the affairs of an enterprise through a
pattern of racketeering activity. That conspiracy was “based on” racketeering activity subject to
life imprisonment where the predicate acts committed in furtherance of that conspiracy included
acts, like murder, that were subject to life imprisonment themselves. And, based on the
requirements of Jones v. United States, 526 U.S. 227, 243 n.6 (1999) and Apprendi v. New
Jersey, 530 U.S. 466, 476 (2000), to increase the maximum penalty for that violation, the
government was required to charge, and prove, that the defendants’ conspiracy to violate RICO
included the commission of such acts.
But that does not mean that it required proof that the defendants personally committed, or
participated in, murders—to be guilty of a violation of § 1962(d), the RICO conspiracy statute,
one need not personally commit any predicate act. Personal involvement in murder will suffice,
of course, but it suffices as well to show that the murder was committed by a co-conspirator in
furtherance of the conspiracy and was foreseeable to the defendant. In other words, that the
requirements for vicarious liability under Pinkerton v. United States, 328 U.S. 640, 647-48
(1946) apply. That is precisely what the Seventh Circuit held in United States v. Benabe:

74
App.000161

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 75 of 114 PageID #:26422

[O]nce the jury found the defendants guilty of the RICO
conspiracy, the maximum penalties they each faced depended on
whether the involvement of each in the conspiracy included
responsibility for murders or drug crimes serious enough to
authorize a life sentence. Each defendant could be held responsible
for the various predicate acts charged, either as a direct participant,
as an aider-and-abetter, or under Pinkerton.
654 F.3d at 777-78.
And as there was no requirement to prove that a particular defendant personally
participated in any of the charged racketeering murders, there could not of course been any
requirement to charge any defendant with personally participating in any of the murders.
Further, there was no requirement that the indictment charge that the defendants were vicariously
responsible for racketeering murders based on Pinkerton liability. United States v. Sax, 39 F.3d
1380, 1389-90 (7th Cir. 1994); see also, e.g., United States v. Powell, 652 F.3d 702, 708 (7th Cir.
2011) (no requirement to charge aiding and abetting liability in indictment); United States v.
Galiffa, 734 F.2d 306, 312, 314 (7th Cir. 1984) (neither Pinkerton nor aiding and abetting need
be charged in an indictment).
Against this backdrop, the specific arguments advanced by the defendants do not stand
up. To begin, Chester’s argument that the Additional Findings violate the Presentment Clause40
founders because the Additional Findings are not required to support the convictions on Count
One. The Additional Findings are relevant only to the penalty that may be imposed for that
violation, pursuant to § 1963(a). As such, the Findings are not elements of the offense and do not
set forth a separate “capital, or otherwise infamous crime” that must be separately indicted. And
in any event, the indictment charged Chester with conspiring to violate RICO through a pattern
of racketeering acts that included the murders of Antonio Bluitt and Keith Daniels. The murder
40

“No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury.” U.S. CONST. AMEND. V.
75
App.000162

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 76 of 114 PageID #:26423

allegations were presented to the grand jury as part of the conspiracy and Chester does not
explain why additional allegations about his role in those murders—beyond his membership in
the conspiracy of which the murders were a part—were required by the Presentment Clause,
particularly since he was not required to have committed those murders. The Presentment Clause
is not implicated here. 41
The argument advanced by Chester and Ford that there was an unlawful constructive
amendment of the indictment as it pertains to Count One also lacks merit. Constructive
amendment to an indictment occurs when either the government or the court broadens the
possible bases for conviction beyond those presented by the grand jury. See United States v.
Turner, 836 F.3d 849, 863 (7th Cir. 2016), as supplemented, 840 F.3d 336 (7th Cir. 2016). A
constructive amendment occurs only where the offense charged in the indictment is materially
different or substantially altered at trial, such that it cannot be known whether the grand jury
would have indicted for the altered crime that the government actually proved. See id. Here, the
jury was instructed on Count One precisely as it was charged in the indictment, and the
government’s proof correlated with that charge. Chester cites no authority for the proposition
that the government cannot “attempt[] to prove a fact that was not even submitted to the grand
jury at all.” Chester Mot. 9, ECF No. 1192. The grand jury is not a fact-finding body, however,
and an indictment need not (and could not) set forth every factual allegation that the government
intends to prove. Moreover, the Additional Findings against Ford and Chester were not elements
of the federal offense Charged in Count One, 42 so in no way were “the possible bases for
41

Even if the allegations set forth in the Additional Findings were inadequate under the
Presentment Clause, that deficiency would not warrant a new trial; it would simply mean that the
maximum sentence that can be imposed based on the conviction would be 20 years.
42

Bush argues to the contrary. He aired that argument fully during trial, and this Court
rejected it. He restates the argument in his new-trial motion, see Bush Mot. 10-11, ECF 1191:
76
App.000163

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 77 of 114 PageID #:26424

conviction” on Count One broadened, as Chester argues. The RICO violation for which these
defendants were convicted was clearly set out in the indictment and the jury instructions—Count
One did not charge any substantive offense, only the conspiracy. And “to prove primary liability
for a RICO conspiracy under section 1962(d), the government must prove only that a particular
defendant agreed that a member of the conspiracy would commit two predicate racketeering acts,
not that the particular defendant committed or agreed to commit two predicate acts himself.
United States v. Benabe, 654 F.3d 753, 776 (7th Cir. 2011). The Additional Findings did not go
to the existence of the conspiracy, but only to whether a specific act by some conspirator, and
how it was committed, had been proved beyond a reasonable doubt. The purpose of those
findings was not to prove Count One. There was, then, no constructive amendment of the
indictment in proving facts that established vicarious liability for acts of co-conspirators in
furtherance of the conspiracy. Galiffa, 734 F.2d at 314-15 (rejecting claim that government
constructively amended the indictment by asserting Pinkerton liability).
“Defendant Bush sought to have the jury make individual findings
as to each of the allegations of Count One and Count Three not
merely as sentencing enhancements but as elements of the offense.
We continue to believe that there is no such thing as a sentencing
finding by a jury: there are only simple offenses and aggravated
offenses. The government here charged aggravated offenses and
therefore must prove them, to the jury’s satisfaction, beyond a
reasonable doubt, as elements of the offense. The Supreme Court
since Apprendi has never countenanced a procedure in which the
jury may make ‘sentencing findings’ that satisfies the
constitutional command that any fact that alters the maximum
sentence or the sentencing range, must be alleged in the
indictment, proved beyond a reasonable doubt, and determined by
a jury. The Court erred in fashioning the hybrid sentencing
findings or special findings for Count One.”
Bush has preserved his argument for appeal, but it flies in the face of established Circuit
precedent and will not be addressed again here. See generally United States v. Gilmer, 534 F.3d
696, 704 (7th Cir. 2008) (facts such as drug quantity go to the severity of the sentence, not the
existence of the crime).
77
App.000164

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 78 of 114 PageID #:26425

Notice is not an issue, either. Both Chester and Ford were defendants named in Count
One, which contains multiple references to murders as a major part of that conspiracy. See
SI ¶¶ 4 (Purposes); 5 (Roles in the Enterprise 43); 6(d)(i) (Racketeering Conspiracy); and multiple
subparagraphs of paragraph 8 (Means and Methods): ¶¶ 8(b), 8(l), and 8(r), the last of which
listed specific murders. As relevant to Chester and Ford’s arguments, paragraph 8(r)(iii) lists
“[t]he murder of Antonio Bluitt, a/k/a ‘Beans,’ and [as relevant to just Ford] Gregory Neeley,
a/k/a ‘Slappo,’ by DERRICK VAUGHN and others known and unknown to the Grand Jury on or
about September 2, 2007.” Paragraph 8(r)(vii), which is relevant only to Chester’s argument,
refers to “[t]he murder of Keith Daniels by PARIS POE and others known and unknown to
Grand Jury on or about April 14, 2013.”
The Notice of Special Findings for Count One contains allegations about how the
Paragraph 8 murders were committed, for the purposes of triggering the potential life sentence
allowed by 18 U.S.C. § 1963(a), which, again, provides: “Whoever violates any provision of
section 1962 of this chapter shall be . . . imprisoned not more than 20 years (or for life if the
violation is based on a racketeering activity for which the maximum penalty includes life
imprisonment).” See Notice of Special Findings Nos. 2-6, SI p. 13-14, ECF No. 169. Under
Illinois law, imprisonment may be imposed for first degree murder if aggravating circumstances
are present. See 720 ILCS 5/9-1(b).
Paragraph 2 of the Notice refers to the murders of Wilbert Moore (¶8(r)(i)) and Keith
Daniels (¶8(r)(vii)), alleging that these murders were committed by the “named defendant(s)” to,

43

Ford contends that the lack of notice to him depends partially on the phrasing of the
“roles in the indictment”; namely that his “role” did not include “murder,” although Chester’s
did. See SI ¶¶ 5(a), 5(f); Ford Mot. 9, ECF No. 1184. Ford’s role, however included attempted
murder and drug trafficking “among other things.” And, again, Ford’s alleged “role” in the
conspiracy is not determinative of his liability for acts of his fellow conspirators, or his own.
78
App.000165

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 79 of 114 PageID #:26426

in short, prevent their cooperating with law enforcement or being a witness against “the
defendant or another.” Paragraph 3 alleges that murders including the Bluitt/Neeley murders (SI
¶8(r)(iii))) and the Daniels murder (¶8(r)(viii)) were committed in a “cold, calculated and
premeditated manner” and “the conduct of the named defendant(s) created a reasonable
expectation” that death would occur as a result. 44
Ford argues that these portions of the Notice do not pertain to him, because he is not a
“named defendant” in Paragraph 8(r)(iii). See Ford Mot. 10, ECF No. 1184; Ford Reply 5, ECF
No. 1214. The Court accepts and agrees with Ford’s reading of the Notice, in that the “named
defendant(s)” do not include him. For purposes of the Notice of Special Findings, the “named
defendant(s)” in the Bluitt and Neeley murders is Derrick Vaughn alone; see SI ¶ 8(r)(iii).
But accepting Ford’s interpretation does not mean that the Court finds his broader
argument meritorious, because he does not correctly interpret the Findings returned against him
on the Bluitt/Neeley murders. A walk through the Additional Findings Instructions and the
Additional Findings for Ford demonstrates this.
The Jury returned two Additional Findings against Ford for the Bluitt murder and the
same two (but for the victim’s name) for the Neeley murder. The pertinent Finding as to each
victim was: “As to Count One, we, the Jury find that the racketeering activity upon which
defendant William Ford’s violation is based upon includes the commission, or aiding and
abetting of the first degree murder of” Bluitt and Neeley, respectively. This Finding closely
tracks the RICO penalty provision, § 1963(a), as quoted above.

44

Other allegations about these murders (that the Bluitt/Neeley murder was a contract
killing and that in all the murders the named defendant(s) personally discharged a firearm) are
not relevant to the defendants’ argument here because Additional Findings were not submitted
against them on these grounds.
79
App.000166

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 80 of 114 PageID #:26427

Turning to the Additional Findings Instruction relevant to this Finding, namely, the
instruction on “First Degree Murder,” that instruction told the jury that if it found the defendant
under consideration—Ford, for present purposes—guilty of the alleged racketeering conspiracy,
then it “must determine whether”: defendants Chester, Council, Bush, Ford, and Derrick
Vaughn 45 “individually or in some combination, committed or caused to be committed the
offense of first degree murder as to Antonio Bluitt.” 46 The jury was thus told that to find the
allegations about the Bluitt and Neely murders proven, it had to find that one or more of the
defendants named in the instruction killed Bluitt or caused him to be killed. This is a narrower
question than that posed by the corresponding Additional Finding, which, recall, asked simply
whether the “violation” (i.e., the conspiracy) as to Ford was “based upon” “the commission, or
aiding and abetting of the first degree murder of” Bluitt and Neeley. In other words, the
Instruction asked whether one or more of the listed defendants killed Bluitt; the Finding asked
only whether Ford’s violation of RICO was based upon those murders. For the latter to be true, it
matters not whether Ford committed the murder. All that matters is whether the RICO
“violation”—in other words, the conspiracy—was based upon racketeering acts that included the
Bluitt murder. Under conspiracy law, it would not matter which conspirator committed the
murder.
But, as noted, the instruction required the jury to make a finding that went beyond the
minimum required for liability under conspiracy law. The variance in phrasing is not, however,
45

This instruction refers to every trial defendant except Paris Poe, as to whom there was
no evidence of participation directly. Although it could have done so, the Government chose not
to assert that Poe was liable, directly or vicariously, for this crime—presumably because he was
incarcerated at the time and there was no evidence submitted that he was in on the planning or
that these particular murders were foreseeable to him.
46

The next finding is identical but for omitting Chester’s name (the government
attempted to prove only his connection to Bluitt as a victim) and substituting Neeley as the name
of the victim.
80
App.000167

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 81 of 114 PageID #:26428

inconsistent with the finding, and it certainly did not work any prejudice to Ford. The instruction
told the jury to find as a factual matter that Chester, Council, Bush, Ford, and/or Derrick
Vaughn, alone or in any combination, personally committed or aided and abetted the Bluitt
murder. It needn’t have done so, but for whatever reason, the government decided to identify the
possible killer(s) by name while leaving open the question of which specific defendant(s) did the
deed. That is perfectly consistent with both § 1963(a) and the Additional Finding, which ask only
whether the conspiracy was based upon racketeering acts including the named murder.
Once the jury answered that question affirmatively, Chester and Ford were subject to the
enhanced penalty of a potential life sentence, because it was established beyond a reasonable
doubt that a member of the conspiracy committed the murder of Bluitt and did so in a cold,
calculating, and premediated manner, such that under Illinois law, the offense would be
punishable by life imprisonment. See 720 ILCS 5/9(b)(11).
Now back to the question whether Ford and Chester were given notice in the Superseding
Indictment that these findings could be entered against them and used to increase their sentences.
They were. Again sticking with the Bluitt example, the Notice of Special Findings at Paragraph 3
alleges that the Bluitt murder (¶8(r)(iii))) was committed in a “cold, calculated and premeditated
manner” and “the conduct of [Derrick Vaughn] created a reasonable expectation” that death
would occur as a result of the preconceived plan. Although Derrick Vaughn is the only “named
defendant” in ¶8(r)(iii), the notice provision places every defendant on notice that a murder was
committed by Derrick Vaughn in a cold, calculated, and premeditated way. Therefore, the
conspiracy—the RICO violation—was “based upon racketeering activity” (the murder of Bluitt
in a cold, calculating, and premeditated way) for which the maximum penalty includes life
imprisonment.” 18 U.S.C. 1963(a). The question for purposes of § 1963(a) is whether the

81
App.000168

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 82 of 114 PageID #:26429

conspiracy involved a life-eligible crime; it is not whether Ford or Chester killed Bluitt (or
Neeley, or Daniels). And that is where Ford and Chester’s arguments run aground.
The government took a different route to implicate Chester in a life-eligible murder. The
government submitted a jury instruction on Pinkerton liability and Additional Findings that
matched the instruction: that the Bluitt murder and the Daniels murder were committed by one or
more of Chester’s co-conspirators “whose acts (1) advanced the goals of the conspiracy; and (2)
were reasonable foreseeable to defendant Chester.” This route leads to the same destination: the
conclusion for purposes of § 1963(a) that Chester’s RICO violation of conspiring to violate
RICO was based upon racketeering acts for which the maximum penalty includes life
imprisonment. 47 Again, the indictment placed Chester on notice of this possibility. Paragraph 8
and the Notice of Special Findings alerted him that the government would attempt to prove that
the conspiracy involved (1) the murder of Bluitt by (at a minimum) Derrick Vaughn in a cold,
calculating, and premeditated way, and (2) the murder of Daniels by, at a minimum, Paris Poe (a)
in a cold, calculating, and premeditated way; (b) with the intent to prevent Daniels’ testimony or
participation in an investigation; and/or (c) because he had been a witness or had given material
assistance to law enforcement. If the conspiracy was based upon these acts, then Chester’s
participation in the conspiracy (his “violation” of RICO) subjected him to the potential life
sentence provided for by 720 ILCS 5/9-1(b)(8) (witness murder) or 720 ILCS 5/9-1(b)(11) (cold
and calculated), by way of § 1963(a).

47

For the murder of Bluitt, the penalty of life would be based on the finding of a cold,
calculated, and premeditated murder. For the murder of Daniels, it would be for the same reason,
as well as for the intent to prevent Daniels from testifying or participating in an investigation (a
forward-looking reason), and for Daniels’ having been a witness or having given material
support to law enforcement (a backward-looking reason).
82
App.000169

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 83 of 114 PageID #:26430

This analysis has been in response the defendants’ argument about lack of notice. But it is
also why Ford’s Apprendi argument fails. He argues that the Additional Findings by the jury,
which increase his statutory maximum punishment under § 1963(a), were not charged in the
indictment. United States v. Cotton, 535 U.S. 625, 632 (2002) (indictment’s failure to allege a
fact that increased the statutory maximum sentence rendered defendants’ enhanced sentences
erroneous); Apprendi v. New Jersey, 530 U.S. 466, 490 (2000) (“Other than the fact of a prior
conviction, any fact that increases the penalty for a crime beyond the prescribed statutory
maximum must be submitted to a jury, and proved beyond a reasonable doubt.”). Ford’s
argument is based on the faulty premise that his potential maximum sentence was raised above
20 years based upon a fact (found beyond a reasonable doubt) that was never charged in the
indictment—that Ford personally committed or aided and abetted the commission of the Bluitt
and Neeley murders. See, e.g., Ford Mot. 5 (Ford “never charged with” the murders of Bluitt and
Neeley); 11 (indictment alleged “nothing in relation to the murder’); 12 (not no notice “from face
of indictment”), ECF No. 1184.
As discussed above, the premise is true but the argument is misplaced. The fact that made
Ford eligible for an enhanced sentence was his agreement that the RICO conspiracy would
include the Bluitt/Neely murders—an agreement evidenced by his own participation in those
murders. He would have been no less eligible for a life sentence if he had not participated in the
murders personally so long as the requirements of Pinkerton were met. Case in point: Gregory
Chester. Only the VICAR defendants were “specifically indicted” for any murders; meanwhile,
every defendant including Chester was charged with conspiracy to violate RICO through a
pattern of racketeering activity that included murders. The grand jury needn’t have considered
whether Ford or Chester were personally involved in the Bluitt and Daniels murders, and the

83
App.000170

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 84 of 114 PageID #:26431

indictment was not required to set forth the legal theory of responsibility by which the
government intended to prove his responsibility for those murders. It is enough that the
indictment charged that the murders were committed as part of the conspiratorial agreement that
Chester joined.
The government’s approach tracks the Seventh Circuit’s teaching in Benabe. See 654
F.3d at 777. Under conspiracy law “responsibility for” murder does not mean commission of
murder. It is well settled that under Pinkerton, criminal responsibility extends to any foreseeable
act that is committed by any conspirator in furtherance of the conspiracy. 48 This was all aired at
trial, particularly in the discussions found in the trial transcripts at Volume 17, pages 1099611020 and Volume 29 at 11548. Benabe’s discussion focused on Pinkerton liability and
suggested that a Pinkerton instruction was needed to hold one co-conspirator accountable for the
acts of another. 654 F.3d at 777. Even so, the government limited its proposed Pinkerton
instruction to defendant Chester, taking on a greater burden of demonstrating criminal
responsibility of other defendants by means of evidence of their personal involvement in the lifeeligible racketeering acts by means of direct participation or aiding and abetting (something the
evidence likely did not permit as to Chester). In any event, the submission of Additional
Findings to the jury for a determination beyond a reasonable doubt that the defendants were
criminally responsible for life-eligible racketeering acts was perfectly consistent with Apprendi,

48

This perhaps raises the questions of why Ford and Chester were singled out for these
Additional Findings on first-degree murder and why a Pinkerton instruction was requested for
Defendant Chester. But the findings the government sought arguably went beyond its burden of
proof, so Chester and Ford cannot be heard to complain about that. And, as noted, the
government followed the lead of Benabe. And because Chester and Ford were the only trial
defendants not charged in separate VICAR counts, the government cannot be blamed for
proceeding cautiously if it wished to seek the maximum penalty in the event of a conviction.
84
App.000171

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 85 of 114 PageID #:26432

as the Seventh Circuit held in Benabe. 654 F.3d at 777 (“Such a jury finding was necessary to
comply with the requirements of Apprendi.”).
Now to the defendants’ individual claims of error.
B.

Chester’s Assertions of Error

Defendant Chester argues that numerous other errors prejudiced him and entitle him to a
new trial.
1.

Pretrial and Trial Errors Generally

Chester raises several errors that were previously ruled upon by the Court (though
Chester provides no record citations for those rulings nor his motions and oral arguments)
without new argument about why the rulings were erroneous and how they specifically
prejudiced Chester. Without specific argument about defects in the Court’s reasoning or specific
allegations of prejudice, the Court stands on its prior rulings on these issues, which include: the
admission of evidence of the search of his Dearborn Street apartment pursuant to a search
warrant (the subject of a Franks hearing); the admission of co-conspirator statements as
statements against penal interest under Rule 804(b)(3) although they were not admissible as nonhearsay as statements of co-conspirators under Rule 801(d)(2)(E); and the denial of the motion to
dismiss the indictment based upon the perjured grand jury testimony of Byron Brown. As to this
argument, the Court will add, in the wake of the jury’s verdict, that a trial jury’s guilty verdict
renders an error in the grand jury proceedings harmless. United States v. Mechanik, 475 U.S. 66,
73 (1986); United States v. Montez, 858 F.3d 1085, 1091 (7th Cir. 2017); United States v.
Morgan, 384 F.3d 439, 443 (7th Cir. 2004). The verdict here wiped out any error in the charging
process because the conspiracy and Additional Findings were proved beyond a reasonable doubt.
Whether or not Byron Brown’s false testimony was the primary evidence that led the jury to

85
App.000172

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 86 of 114 PageID #:26433

charge Chester, the petit jury was wholly unaware of it and still found Chester guilty beyond a
reasonable doubt.
2.

Admission of Chester’s October 22, 2008, statements to police

Defendant Chester contends that this Court erred by allowing the government to present
evidence of his statements to police on the night he was seized along with Walter Binion and
interviewed at the Homan Square police station. He contends that his statement was fruit of an
illegal seizure and therefore should have been suppressed. This Court denied Chester’s motion to
suppress the statement, after a full hearing at which Chester testified, as did (then) Sergeant
James Sanchez of the Chicago Police Department and Special Agent Bryant Hill of the FBI. See
Order, ECF No. 719. The Court reasoned that, although it agreed with Chester that the police
lacked a basis to suspect that Chester was engaging in any criminal conduct when they stopped
him, 49 the seizure was not unlawful because they had another basis for a valid seizure. Several
months earlier, in June, the police obtained a warrant to search Chester’s Dearborn Street
apartment, and the search yielded almost 100 grams of heroin. Chester maintains that this ruling
was erroneous because he was really stopped for another reason (to see if he could be “flipped”)
and because the government did not sufficiently establish a connection between Chester and the
heroin recovered at the apartment in any case. The Court agreed with Chester that there was no
reliable, credible evidence that the police had reasonable suspicion to commit a Terry stop, 50 but
that whatever the officers’ subject intent was to pull over the car, probable cause existed before
the stop and, therefore, the police were entitled to seize Chester.
49

The government says in its current brief that there was a “traffic stop,” Govt. Resp. 72,
ECF No. 1207, seemingly invoking Terry v. Ohio, even though at the suppression stage it
withdrew any argument that there was a basis for the stop other than the probable cause to arrest.
50

The Court concluded that the account of the stop of Chester’s vehicle provided by
Sanchez was not credible and was therefore disregarded. No other officer with knowledge of the
stop testified.
86
App.000173

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 87 of 114 PageID #:26434

In its post-hearing brief on the suppression motion, the only basis on which the
government argued the stop was justified is as follows: “The government submits that
justification for the traffic stop arose simply by reason of the June 26, 2008 search, during which
CPD recovered 99.6 grams of heroin. To the extent other potential bases for the stop were
addressed when then-Sergeant James Sanchez testified during the hearing, including information
received from a confidential source of information, the government is not relying on those
proffered reasons and asks that the Court not consider them in determining whether officers had
reasonable suspicion on October 22, 2008, to conduct the stop.” Gov. Post-Hearing Br. 2, ECF
No. 569. On that point, the Court held: “Both Detective Brogan’s report [concerning the search
of the apartment] and the trial testimony establish that nearly 100 grams of heroin was recovered
from the apartment; furthermore, the affidavit in support of the search warrant (which the
government submitted as part of its response to the motion) establishes Chester’s connection to
the apartment. Under the totality of the circumstances, therefore, police had probable cause to
arrest him for, at least, drug possession.” Order 6, ECF No. 719.
Chester argues that this is based upon a misreading of Utah v. Streiff, 136 S. Ct. 2056
(2016)—but his argument is based on a misreading of the Court’s ruling. As Chester argues,
Streiff provides no support for admitting the evidence. That is why the Court expressly noted that
Streiff was inapplicable because it was an attenuation case (in which the officer had learned of an
outstanding warrant during the course of illegal stop), and in this case, “[t]he police had this
information before the stop, and this is therefore not a case of attenuation created by the
discovery of an arrest warrant during an unlawful stop, as in the recent case of Utah v. Streiff.”
Order 16, ECF No. 719. The Court did cite Justice Sotomayor’s blunt summary of the law

87
App.000174

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 88 of 114 PageID #:26435

regarding pretextual stops in her dissent in Streiff, 51 but Chester’s argument to the contrary—that
the officer’s subjective state of mind matters to the validity of the search—is, as Justice
Sotomayor acknowledged in Strieff, not a correct statement of the law.
Chester argues that, in any event, the stop cannot be justified by probable cause because
the record lacks any evidence that the officers who pulled over Binion’s car had any knowledge
of the apartment search. He contends that knowledge of probable cause at the time of the stop is
required if probable cause is the legal basis for that stop.
But the Court already determined after the suppression hearing that the police “had this
knowledge [of the drug recovery] before the stop.” In particular, then-Sergeant Sanchez, who
was in the first car to stop Chester, was the leader of the team that obtained the search warrant
and was involved in the search, and subsequently talked to Chester about the search when
Chester was taken to Homan Square, plainly had knowledge of the discovery of 100 grams of
heroin during the search. Of course, this Court found that Sanchez’s hearing testimony about the
stop could not be credited, but the fact of his involvement in the search is objective and easily
ascertainable, so there is no basis to discredit that aspect of his testimony. Sanchez’s knowledge
of the Dearborn search was also corroborated by Detective William Brogan, who also questioned
Chester on October 22, 2008. His report of the interrogation states: “It was also explained to
Chester that Team 6565 had executed a search warrant on a suspected residence of Chester’s.”
See Govt. Resp. to Mot. To Suppress Ex. 2, ECF NO. 400. Taken together, this evidence was
sufficient to establish that the officers who seized Chester on October 22, 2008 knew that there

51

“This Court has allowed an officer to stop you for whatever reason he wants—so long
as he can point to a pretextual justification after the fact.” Streiff, 136 S. Ct. at 2069 (Sotomayor,
J., dissenting).
88
App.000175

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 89 of 114 PageID #:26436

was probable cause to arrest him, whether they intended to do so at the time or not. The
suppression of the evidence was not warranted.
3.

Pinkerton Instruction on Chester’s Liability for Daniels Murder

Chester also argues that the Pinkerton charge in the Additional Findings Instruction
prejudiced him because he was the only defendant about whom the jury received the instruction.
This, Chester argues, suggested to the jury that he was “specially responsible” and that “he is
clearly established to the boss, and that, as the boss he is guilty of everything his co-conspirators
did.” Chester Mot. 8, ECF No. 1192.
There is no requirement that Pinkerton instructions must be given to all defendants or
none; certainly, Chester cites no authority for that proposition. The claim of prejudice, moreover,
is weak. Notably, the Pinkerton instruction was given (again, consistent with Benabe’s teaching)
only in the Additional Findings Instructions. Therefore, if the jury hadn’t convicted Chester on
Count One first, it would not have reached the Additional Findings, so certainly Chester incurred
no prejudice with respect to the jury’s determination of his guilt on the conspiracy charge.
Chester gives no reason to doubt the presumption that the jury followed the clear instructions it
was given. Moreover, Chester is the last defendant who could be crying foul about prejudice for
being singled out. If he stood in contrast to his codefendants by virtue of the jury instructions, it
was to his benefit since he was one of only two defendants who was not mentioned in direct
connection to a murder during the General Instructions that preceded the Additional Findings
Instructions. And far from sending a message that Chester was the most culpable Hobo, the
government’s reliance on a theory of Pinkerton liability would have suggested that the
government lacked evidence to support an argument that Chester was personally involved in the
murders.

89
App.000176

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 90 of 114 PageID #:26437

C.

Council’s Assertions of Error

Defendant Council does not identify any specific errors that he contends require a new
trial. See Council Mot. 21, Section II.1-3, ECF No. 1186. He adopts his co-defendants’
arguments to the extent they apply equally to him (something this Court has allowed), and
preserves the issues he raised at trial and before trial. Finally he argues that the cumulative effect
of trial errors requires a new trial. Accordingly, there is nothing to discuss separately with
respect to Council’s motion for a new trial.
D.

Poe’s Assertions of Error

Like Defendant Council, Defendant Poe does not argue that any specific errors require a
new trial. Poe Mot. 22, Section II, ECF No. 1188. He reasserts every issue raised in writing or
orally by motion or objection before and during trial, incorporates his co-defendants’ arguments
as applicable to him, and states that individually or cumulatively the court’s errors require a new
trial. Having identified no specific errors, Poe gives the Court no basis on which to reconsider
its prior rulings, and no further discussion of his request for a new trial is required.
E.

Bush’s Assertions of Error

Defendant Bush raises no fewer than a dozen issues, all of which (independently or
cumulatively), he says, require a new trial. All of them were the subject of written and/or oral
argument and largely written, but sometimes oral, rulings. Bush never refers back to this Court’s
reasoning to explain why it was incorrect or how, specifically, the error prejudiced him and is
likely to have impacted the verdict. Indeed (with the exception of his prosecutorial misconduct
argument), in his motion Bush does not cite a single motion, written ruling, oral argument, or
oral decision so as to enable the Court to examine the issues without combing through the entire
docket and trial record.

90
App.000177

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 91 of 114 PageID #:26438

1.

Pretrial Rulings Generally

Bush lists the following purportedly erroneous pretrial rulings: the denial of the motion to
dismiss Count One for failure to state an offense and for untimeliness; the denial of the motion to
dismiss based on double jeopardy; the denial of his motion to suppress the search of his
Midlothian residence; the denial of the motion to exclude the identifications of Bush by Antonina
Pellagrino, an eyewitness to the Bogovich murder; and the denial of the motions to sever
defendant Poe and/or Count Six. Having failed to set forth any new reasoning as to why the
decisions on these issues merit reconsideration, nor any specific prejudice to Bush, this Court
stands on the reasoning of its prior rulings.
2.

Trial Rulings Generally

Next, Bush takes issues with the following purportedly erroneous trial rulings: allowing
evidence of the defendants’ admissions of guilt of certain crimes in state court (because it was in
contravention of the presumption of evidence, it was improper to view the pleas as
“admissions”); admitting evidence of crimes committed by Bush and the other defendants, as
well as conspirator statements about offenses that “had no relation to the charged conspiracy”;
the denial of an instruction on the statute of limitations; and the use of “Additional Findings” to
discern facts relevant to the defendants’ sentences instead of requiring those findings to be made
as elements of the relevant offenses. In the absence of any new reasoning as to why the decisions
merit reconsideration, nor any specific prejudice to Bush, this Court stands on the reasoning of
its prior rulings.

91
App.000178

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 92 of 114 PageID #:26439

3.

Specific Allegations of Error
a.

Admission of Redacted State-Court Guilty Pleas into Evidence
as Admissions of Party-Opponents

The Court allowed into evidence redacted transcripts of various defendants’ pleas of
guilty to crimes in state court. Denying the government’s request to admit the entirety of the plea
transcripts (such as the recounting of the alleged facts of the crimes), the Court limited the
evidence to the charge explained to the defendant and his answer of “guilty” when asked how he
wanted to plead. See Order, ECF No. 529. These statements of guilt were admissible against a
defendant as admissions of a party-opponent, and the Court instructed the jury that the evidence
could be considered only against the defendant who made the admission.
Bush claims that this was error, as was the “truncated presentation of transcripts.” Bush
Mot. 5, ECF No. 1191. Bush offers no analysis or authority to support his assertion that the
statements were “unduly prejudicial and not proper as admissions.” See id. The Court has already
explained the reasoning behind, and the authority for admitting the redacted plea agreements as
party admission and for holding that the pleas, while “prejudicial,” were not unduly so. See
Orders, ECF Nos. 529, 785. Absent any substantive argument from Bush, the ruling stands.
As for the second issue, the paring down of the transcripts, Bush’s conclusory argument
is not persuasive. Bush, for “completeness” or “context” wanted to suggest to the jury that in
pleading guilty to second-degree murder with mitigation, he was getting a huge break from a
first-degree murder charge and would have been crazy not to accept the plea even if he were
innocent.
First, the Court redacted the transcripts to avert prejudice to the defendants by strictly
construing which portions constituted “admissions.” See, e.g,. Order 5, ECF No. 529 (transcript
92
App.000179

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 93 of 114 PageID #:26440

portions containing “stipulations that the state’s witnesses would provide additional facts” not
admissible as “context” because “the government is simply seeking to use those additional facts
as further substantive evidence.”) 52 Second, Bush does not even attempt to apply the Rules of
Evidence to his alternative (to inadmissibility) proposition that the entire plea transcripts should
have come in. See Bush Mot. 5, ECF No. 1191 (“[I]f the pleas were going to be admitted, their
entirety should have been presented to the jury to give the jury the full context in which the
admissions were made.”). The transcripts are out-of-court statements offered (by either the
government or the defendant) for their truth; as such, the statements must satisfy some exception
to the rule against hearsay (or be non-hearsay). It makes no difference whether the government
or the defendant is proffering the evidence. Bush’s reference to “full context” is perhaps a
woefully underdeveloped nod to Federal Rule of Evidence 106, or the “rule of completeness.”
That rule holds that a complete statement must be read or heard when it is necessary to (1)
explain the admitted portions, (2) place the admitted portion in context, (3) avoid misleading the
trier of fact, or (4) insure a fair and impartial understanding. United States v. Ambrose, 668 F.3d
943, 964 (7th Cir. 2012). The context of the statement was clearly a criminal court proceeding,
and Bush does not say how the remainder of the transcript would “explain” what Bush stated or
avoid misleading the jury.
Furthermore, if context and explanation are Bush’s concerns, he fails to note that these
are among the concerns that prompted this Court to permit the testimony of a defense expert,
Judge A.C. Cunningham, regarding the Cook County criminal justice system and the factors
other than guilt or innocence that factor into the decision to enter a plea. See Order, ECF 966;
Trial. Tr. Vol. 47. The message that Bush wanted to send—that people enter pleas to get out jail,
52

This transcript relates to defendant Poe, who filed a motion in limine making the same
arguments as Bush, but the same approach was followed with respect to Bush.
93
App.000180

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 94 of 114 PageID #:26441

avoid long prison sentences, get back to their families, etc.—was conveyed by an expert in a
direct way, whereas the jury would have had to draw an inference from the plea transcript about
Bush’s possible motive for pleading guilty. Moreover, the Court put no restrictions on Bush’s
ability to introduce evidence relating to the relative penalties he faced between charges originally
levied against him and those to which he was permitted to plead. In light of Judge Cunningham’s
testimony, and the Court’s related evidentiary rulings, Bush fails to demonstrate that he was
prejudiced by the Court’s decision to redact all guilty-plea transcripts down to the core nonhearsay statements unless otherwise agreed by the parties.
b.

Unrelated Crimes by Bush and Other Defendants

Bush contends that it was error for the Court to admit evidence of crimes by him and
other Hobos that were “unrelated” to the charged conspiracy. He mentions only the murder of
Steven Bogovich by Bush on November 24, 2006, an offense that Bush was acquitted of in state
court. Before trial, this Court denied a defense motion, see ECF No. 598, to exclude evidence of
acts outside the charged conspiracy. See Order, ECF No. 782 at 5-8. Although the motion did not
list the Bogovich murder 53 among the purportedly unrelated acts, the Court’s reasoning applies
equally to this murder. Further, this murder was directly related to Bush’s (high-stakes) drug
trafficking activity and implicated, at a minimum, Arnold Council and Stanley Vaughn in the
lead-up to or aftermath of the murder. In particular, Council and Bush’s surveillance of the drug
deal that went bad, leading to the murder, is consistent with a modus operandi distinctive to the
Hobos. (Consider also that Bush sent his money with a younger associate to make the deal, rather

53

At trial Bush objected that that the jury would not understand what to make of an
uncharged murder, and further that “there's not going to be any evidence that this was a Hobo
crime.” Trial Tr. Vol. 11 at 2786-88. He had also previously objected on double jeopardy
grounds. See id. at 2586; Mot., ECF No. 536. The Court rejected that argument, see Order 4,
ECF No. 785.
94
App.000181

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 95 of 114 PageID #:26442

than personally participating, just as the high-level Hobos tended to stay far removed from the
street level of their operations.) The murder was also squarely within the means and methods of
the charged conspiracy: here, murder in retaliation for ripping Bush off in a drug deal. The
murder occurred in Chicago during the time frame of the conspiracy. There is only Bush’s say-so
that this murder was not related to the Hobos’ activities, but the evidence at trial showed
otherwise. At a minimum, this uncharged predicate act provided evidence of the existence of a
pattern of racketeering activity including murder, as well as Bush’s and Council’s knowing
agreement to participate in the conspiracy.
Bush’s claim of prejudice rings hollow. If the Bogovich murder were an isolated act of
murder or drug trafficking by Bush, then it might be said that the prejudice was significant. But
in the trial, Bush was implicated in a host of other murders and shootings, as well as extensive
drug trafficking. The taint of the Bogovich murder was unlikely to have had a prejudicial effect
on the jury’s deliberations about Bush’s guilt. Indeed, as an uncharged predicate act, and one
about which no Additional Allegations were required, the evidence relating to the Bogovich
murder likely figured much less prominently in the verdict than did the evidence of the other
murders and shootings that was introduced against him.
Bush does not refer specifically to evidence of any other uncharged act committed by him
or other members of the conspiracy that was erroneously admitted and was not harmless. His
generalized claim of error in this respect therefore does not warrant further discussion.
c.

Alonzo Cole’s Prior Grand Jury Statement

At trial Bush sought to put in evidence the prior testimony under oath (in a grand jury
proceeding in the state-court Terrance Anderson case) of Alonzo “Fat Shorty” Cole, who died
before this trial. See Mot. In Limine, ECF No. 1047. That evidence was “powerfully

95
App.000182

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 96 of 114 PageID #:26443

exculpatory,” Bush contends (Mot. 10, ECF at 1191), in that Cole stated that he was armed with
.357 Magnum at the outdoor party where Anderson was killed, that multiple people were
shooting, including himself, and that he did not see Bush shoot Anderson. Therefore, he says, it
was error to exclude the statements. 54
The Court initially ruled to exclude this evidence upon concluding that the Cole was not
cross-examined about the facts or his own biases and credibility generally by anyone with a
motive similar to the prosecutors in this case. Trial Tr. Vol. 50 at 11624 -11627. The nature of
grand jury proceedings fundamentally differs from a trial; there is a different burden of proof;
and the purpose of the testimony might simply be to get the witness on the record. The Court
also ruled that the testimony could not come in as a statement against penal interest, because
only small, discreet bites of the testimony could possibly meet that definition. Bush then asked to
put in those isolated statements: “at least that portion in which Mr. Cole acknowledges
possessing a .357 Magnum and firing in the direction of Terrance Anderson.” Id.
Days later, the government and Bush stipulated to the admission of those statements.
Trial Tr. Vol. 52 at 12250-12253. But then the government pointed out that if Cole’s statement
came in, it had a right to impeach the hearsay declarant, which would open the door to evidence
showing Cole’s bias or prior inconsistent statements—some of which would implicate
defendants other than Bush. See id. at 12254. For example, Cole said in his grand jury statement
that before he testified against Bush in the state-court murder trial, he was intimidated by Chester
and others outside the courthouse. He therefore had a motive to change his testimony from what

54

Bush’s argument on this issue should be deemed waived based on his failure to
develop it as well as his failure to identify citations to the record for the briefing on his motion,
any transcript or stipulation he proffered as evidence, or any discussion on the record. The
government’s response, however, provided enough record citations for the Court to address the
substance of the argument.
96
App.000183

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 97 of 114 PageID #:26444

he told the state grand jury. Cole also had testified inconsistently about at whom he fired his gun.
Defendant Chester objected to the stipulation; defendant Council expressed concern about what
impeachment the government might offer. In light of those objections, Bush’s counsel stated:
“I'll withdraw the stipulation at this time” to avoid a “procedural nightmare.” Id. at 12259.
Bush not only fails to say why “the Court erred in excluding this testimony,” (which is
not the full story, as recounted above), he does not acknowledge his own withdrawal of his
request to admit it. The Court did not ultimately “exclude” anything because it did not have to
make a ruling. Bush’s strategic decision to withdraw the stipulation (i.e., not to put forth the
evidence) waived any challenge to the exclusion of the statements. “[W]hen there are sound
strategic reasons explaining why counsel would elect to pursue a route as a matter of strategy,”
then any objection is waived. United States v. Kennedy, 726 F.3d 968, 975 (7th Cir. 2013)
(quoting Swanson v. United States, 692 F.3d 708, 716 (7th Cir. 2012)); United States v. Perez,
612 F.3d 879, 885 (7th Cir. 2010) (waiver clear where trial court was ready to allow a line of
questioning but the defendant decided to “move on”). The waiver applies equally to the
unredacted transcripts because Bush would have faced the same objections to the admission of
Cole’s testimony in its entirety: the government would have sought to introduce the same
impeaching information implicating other defendants, triggering the same objections that the
introduction of the redacted statements provoked and which prompted Bush’s counsel to
abandon the effort.
d.

Statute of Limitations Instruction

Bush argues that the Court erred in denying his proffered “statute of limitations”
instruction (actually labeled “Isolated Acts”) that would have required a specific finding that the
conspiracy continued into the five-year limitations period before September 26, 2013. Bush’s

97
App.000184

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 98 of 114 PageID #:26445

proposed instruction 55 would have “required the jury to find that the conspiracy alleged
continued past September 26, 2008 so that the return of the indictment was timely.” Bush Mot.
10, ECF No. 1191. Bush contends that without this instruction, “it is not clear that the jury found
that the conspiracy identified in Count One in fact did continue into the limitations period.” Id.
When a crime is a continuing one, like a conspiracy, the statute of limitations does not
begin to run when all elements are first present, but rather begins when the offense expires.
Therefore, for a conspiracy offense, the statute of limitations would not run from the time of the
first overt acts, but instead would run until the conspiracy ended, United States v. Schiro, 679
F.3d 521, 528 (7th Cir. 2012), a point measured at the earliest from the occurrence of the last act
in furtherance, United States v. Yashar, 166 F.3d 873, 875–76 (7th Cir. 1999).
Here, the Superseding Indictment charged that the defendants agreed to participate in a
pattern of racketeering activity “beginning no later than in or about 2004, and continuing until in
or about 2013.” SI ¶ 6. 56 Bush could have proposed an instruction to the effect that the jury must
find the defendants “not guilty” if it concluded beyond a reasonable doubt that all of the goals of
the conspiracy were accomplished before September 26, 2008, or that the defendant under
consideration had withdrawn from the conspiracy before that date. Instead, Bush attempted to
shift the burden of proof on an affirmative defense over to the government to prove in the first
55

“An isolated act of racketeering is not part of a pattern of racketeering which is a
necessary element as defined within these instructions. It is the theory of the defense that the
attempted murders of the Castro brothers, the intimidation and murder of Keith Daniels, as well
as the Collections Store Robbery were isolated acts of violence and not predicate acts in
furtherance of the RICO Enterprise. In order to premise a defendant’s membership and guilt of
count one you must unanimously find beyond a reasonable doubt that one of these alleged
predicate acts, in addition to at least one of the remaining predicate acts found in Count one, was
performed as a common objective and a goal of the Enterprise.” Defendant Bush’s Instruction
No. 2, ECF No. 1060 at 6.
56

The jury’s verdicts on Count One inherently include the finding that the racketeering
conspiracy as described in the Superseding Indictment existed.
98
App.000185

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 99 of 114 PageID #:26446

instance. The commission of the crime within the statute of limitations is not an element of the
offense and not part of the government’s burden to prove. Smith v. United States, 568 U.S. 106,
112 (2013). It is the defendants’ burden to establish untimeliness if they raise the defense. See id.
Therefore, any jury instruction requiring a finding that the conspiracy continued into the
limitations period would improperly shift the burden of proof on an affirmative defense from the
defendants.
Bush’s argument also goes to his consistent misapprehension of what the government is
required to prove in a RICO conspiracy case. As relevant here, and explained in United States v.
Tello, 687 F.3d 785 (7th Cir. 2012) and Benabe among other cases, there is no requirement that
specific predicate acts be alleged or proved. Therefore, Bush’s focus on knocking three specific
offenses—the Castro home invasion, the Collections store robbery, and the Daniels murder—out
of the case as “unrelated” crimes is futile. 57 The conspiracy could have continued irrespective of
whether, or when, these three acts occurred and were part of it. “For conspiracy statutes that do
not require any overt acts, the conspiracy ‘continues’ for limitations purposes as long as its
purposes have not been abandoned or accomplished.” Yashar, 166 F.3d at 876. Bush is also far
off-base in arguing that the jury should have been instructed to decide whether certain alleged
predicate acts were “isolated” from the conspiracy. That’s argument; it is not an instruction of
law. And because a RICO conspiracy can be proved without proving any specific predicate act at
all, the jury did not have to believe that the Collections robbery, the Castro home invasion, or the

57

It bears noting as well that the offenses that Bush clings to are not the only evidence
that the conspiracy continued well into the limitations period. For example, in 2012, William
Ford was plotting from prison to resume a drug-trafficking operation, and he expected help from
Chester when he was released. And Ford was caught with a distribution quantity of marijuana
and a gun in 2015. He also spoke of the Hobos as a going concern, not an operation that had
shuttered in 2008 when Bush went to jail. Also, Defendant Chester continued to supply heroin to
other Hobos associates, such as Keith Daniels, up until his arrest in 2013.
99
App.000186

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 100 of 114 PageID #:26447

Daniels murder occurred at all in order to find the defendants guilty on Count One. The same
general principle supports the denial of an instruction requiring findings that the three offenses
were committed in furtherance of the conspiracy. The RICO conspiracy is proved if a member
agreed to participate in the enterprise, which is demonstrated by the knowing agreement that a
member of the conspiracy would commit two or more racketeering acts. Those acts, by
definition, must have been within the scope of and in furtherance of the conspiracy. But isolating
specific acts is not required. Bush’s requirement that a jury find particular acts to have been
committed in relation to the conspiracy is fundamentally at odds with that principle. Where no
predicate acts need to be proved to establish the existence of the conspiracy, Bush has no
grounds for insisting on jury findings about the timing or relatedness of any particular
racketeering act.
f.

Prosecutorial Misconduct in Closing Argument

Bush renews his arguments that the prosecutor impugned the integrity of defense lawyers
and prejudiced the jury by commenting on the motto of jailhouse lawyer Brian Zentmyer, who
testified that he told his jailhouse “clients”: “You tell me the truth, let me do the lying.” Trial Rr.
Vol. 43 at 10175. 58 In its rebuttal closing argument, government said of Zentmyer’s motto:
58

Zentmyer testified that he told fellow inmates that he needed to understand the truth if
he was going to be able to help them. The full exchanges (there were two) between Zentmyer
and defendant Poe’s counsel are set forth below:
Q: And you’ve told us that you tell everyone routinely, the only
way I could help you is if you fully confess to our crimes, right?
A: I didn’t say “fully confess.” My thing is—and I have told this to
the prosecutor. I’ve told it to my attorney. You tell me the truth, let
me do the lying. That’s exactly how I say it.
Q: So you tell – you’ve helped numerous people by saying to them
the only way I could help you is if you tell me the truth about your
case, meaning you have to admit to me if you did it, right?
100
App.000187

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 101 of 114 PageID #:26448

“Yeah, he said he learned that from a lawyer, someone who had represented him.” Trial Tr. Vol.
56 at 13358. Bush’s counsel raised a vigorous objection at sidebar as soon as the argument was
over and sought an instruction that told the jury “that when we get up, we’re not trying to trick
the jury.” See id. at 13372. At that time, when both the Court and Bush’s counsel thought the
prosecutor’s comment had been limited to “I learned that from a lawyer” (as distinguished from
“a lawyer, someone who had represented him”), the Court said: “Overruled. You're lawyers. The
prosecutors are lawyers. There was — in the same fashion, there was commentary about the
motives of defense lawyers and making arguments or presenting the evidence that was — they
presented, so too were their arguments that ascribed ill motives to the prosecutors in their
presentation of the evidence.” The issue was raised again after the jury was instructed Id. at
13452 (“But they're now going to consider the fact that lawyers teach clients to lie because we're
A: Most—I think most attorneys would want to know that as well,
you know. If you’re going to need to defend a client, you need to
know what’s going on.
Q: You’ll maybe have to retake that legal class you took.
Subsequently, Poe’s counsel returned to the subject (at 10235):
Q: And what you said was, ‘Tell me the truth and I’ll lie for you,’
right?
A: It’s just a general statement.
Q: But that’s what you said, isn’t it?
A: Okay. That’s—it’s—okay. That’s what I said, but it’s just a
general conversation between two people when I tell them like
jokingly. I’m not going to—but if I go to an attorney, I have to
speak to them what I did for them to defend me. They don’t go up
and tell on me. They—
Q: What you said is—
A:—have to come up with a defense.
101
App.000188

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 102 of 114 PageID #:26449

the best liars in the world. We're paid to lie. That is the only way that comment can be taken.”)
The Court said: “[M]y recollection is the comment was an accurate comment on evidence that
was presented during the trial, and the comment certainly did not single out defense lawyers. The
comment was ‘a lawyer.’ And as I pointed out, both sides are represented by lawyers in this case,
and both sides have made allegations that lawyers on the other side have mischaracterized,
misrepresented or otherwise proceeded in a manner calculated to deceive the jury.” Id. at 13454.
Bush’s post-trial argument is effectively the same: that the government not only “put its
own gloss” on Zentmyer’s remarks, but that it did so in a way that directly impugns the integrity
of defense lawyers and implies that they all use a dirty tactic. Bush Mot. 11-14, ECF No. 1191.
The government says that the remark was not improper because it was just responding to Paris
Poe’s argument that Zentmyer was an admitted liar, putting the “motto” in the context of his
representation of his “clients,” from whom he needed the truth in order to give advice, not his
attitude generally. Govt. Resp. 109-113, ECF No. 1207. It also argues that there was no
prejudice, even if the remark was improper. Id.
The government brushes off the comment as not implying that Zentmyer learned the
motto from a “defense” attorney or any lawyer for these defendants. While the latter statement is
certainly true, the former is questionable, upon a closer view of the record. Zentmyer attributed
his “I’ll lie for you” motto to “someone who represented [him]” which in this context (prison)
was most likely to connote a criminal defense attorney. Moreover, the government’s position
ignores the fact that the “he learned it from a lawyer” comment, with or without the addendum
“someone who represented him,” was never said. Zentmyer never attributed the saying to
lawyers generally, or to a defense lawyer specifically. The government’s comment, however,
did.

102
App.000189

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 103 of 114 PageID #:26450

In reviewing a claim for prosecutorial misconduct, the Court first inquires whether the
alleged misconduct was in fact improper and second whether it prejudiced the defendant. United
States v. Nunez, 532 F.3d 645, 652 (7th Cir. 2008). Had the prosecutor accurately quoted
Zentmyer, there would be no error; it is not improper to accurately describe evidence presented
at trial. But Zentmyer did not attribute his motto to a lawyer who represented him, and the
prosecutor’s inaccurate version of Zentmyer’s testimony could reasonably have been interpreted
as a dig on defense lawyers or as a suggestion that defending those accused of crimes requires
lying for the client. It would be improper for a prosecutor to make such a statement outright, and
little better to do so obliquely. That said, the Court has no reason to question the the
government’s explanation that it was trying to highlight that Zentmyer admitted to lying only in
the context of his “representation” of those who sought his advice, not to being a liar generally.
And the Court notes that the context of Zentmyer’s comments did include references to the fact
that he had told his lawyer his motto and to his belief that it would be standard procedure for
defense attorneys to want to know the truth about their clients’ conduct, so the prosecutor’s
reference to “someone who represented him” was not pulled from thin air. And indeed, before
revisiting the transcript of Zentmyer’s testimony, the Court’s recollection at the time the incident
was raised was that the prosecutor’s comment had accurately characterized Zentmyer’s
testimony. So while the comment was improper, because it was inaccurate, the Court sees no
basis to infer that the comment was made in bad faith.
But since the remark was improper, the Court must consider whether, in light of the
entire record, the defendant was deprived of a fair trial. United States v. Butler, 71 F.3d 243, 254
(7th Cir. 1995). Relevant factors include: “1) the nature and seriousness of the prosecutorial
misconduct; 2) whether the prosecutor's statements were invited by conduct of defense counsel;

103
App.000190

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 104 of 114 PageID #:26451

3) whether the trial court instructions to the jury were adequate; 4) whether the defense was able
to counter the improper arguments through rebuttal; and 5) the weight of the evidence against the
defendant.” Id.
This is not a close question—perhaps why Bush does not bother to discuss it. To the
extent it could be viewed as disparaging to defense lawyers, the comment was so ambiguous and
isolated that it cannot be viewed as serious. To the extent the jury heard the remark in the same
way Bush did, calling further attention to it after the arguments were over---let alone when he
objected the second time, after the jury had been finally instructed after four months of trial--would hardly have helped Bush. Further, it is not reasonable to interpret the remark as
denigrating the lawyers who represent the defendants in this matter, even if one concluded that it
was a reference to a defense lawyer (“someone who represented” him). The claim by Bush’s
counsel that “the government argued that defense lawyers are purveyors of lies,” Trial Tr. Vol.
56 at 13452, is a gross mischaracterization. Moreover, the jury was well aware that Zentmyer
was not a lawyer at all and could hardly be believed to be representative of the profession or of
defense attorneys in particular. Zentmyer dispenses legal advice but has no obligations to be
ethical and candid, and the jury no reason to believe his “motto” was pertinent to the work of real
lawyers.
The remark was also a single isolated statement amidst five hours of closing argument by
the prosecution. That fact, combined with its ambiguity, made its potential impact minimal. And
finally, the jury knew better than to take the prosecutor’s characterization of Zentmyer’s
testimony at face value. The jury was repeatedly instructed before, during, and after the trial that
attorneys’ arguments and comments are not evidence and that the jurors’ own memories of the
evidence were all that mattered. Finally, in light of the entire record, and the weight of the

104
App.000191

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 105 of 114 PageID #:26452

evidence against Bush (from sources including his own mouth, his protégé Chad Todd,
eyewitnesses, and the searches of his homes and storage areas), the impact of the remark cannot
have been decisive or even substantial. The Court can appreciate that defense counsel may be
particularly sensitive to the kind of disparagement Bush’s counsel understood the prosecutor to
have uttered—as evidenced by the over-top-language and stridency of the post-hoc objections—
but it is fairness to the defendant, not the lawyers, that is paramount. Gabriel Bush was not
prejudiced by the prosecutor’s comment.
F.

Ford’s Asserted Errors

Defendant Ford briefed some of the “common issues” addressed above, and he raises
three further errors warranting discussion: (1) that he was tried without any valid charges against
him because he was not named in the Second Superseding Indictment; (2) that allowing the jury
to make Additional Findings of aggravating factors (relevant to sentencing) based upon state law
violates the “categorical approach” of using the state’s definition of the underlying crime without
aggravating factors; and (3) that he was denied the right to plead guilty to Count One by way of
declaration.
a.

Failure to Properly Indict

Regarding the indictment, Ford makes the curious argument that he was unlawfully tried
on the indictment on which he was arraigned, to which he pleaded not guilty, to which he
attempted to plead guilty (at least in part), and which was never dismissed. He contends that the
filing of the Second Superseding Indictment on September 1, 2016 nullified the Superseding
Indictment, and because only Paris Poe was named in the Second Superseding Indictment, there
were no charges pending against Ford when he went to trial. A week into the trial, Ford moved
for dismissal from the case because, he argued, the Second Superseding Indictment had

105
App.000192

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 106 of 114 PageID #:26453

narrowed the case to a single count against Paris Poe by replacing the prior 10-count
Superseding Indictment against nine defendants. Ford Mot., ECF No. 804. He likened a
superseding indictment to an amended complaint in a civil case, which replaces the original
complaint. He argued that the government must select one indictment on which to proceed to
trial. On the record on September 15, 2016, the Court denied the motion. See Trial Tr. Vol. 3 at
333. The Court rejected the premise that a superseding indictment wholly replaces previous ones.
The Court explained that there was a new charge returned against Defendant Poe, and that it
ultimately might require dismissal of a count of the first Superseding Indictment, but that Ford
was in no way prejudiced by that process.
Ford now contends that it was error to deny his motion. Ford’s argument is based largely
upon a dictionary definition of the word “supersede” as “replace.” He also argues that there is no
authority to try a defendant on multiple indictments simultaneously unless there is a valid joinder
of cases. The second argument could only conceivably apply to Poe, of whom it could be said
that the charges came from “multiple indictments simultaneously,” but of course there was no
prejudice to Ford even if that procedure were erroneous (which Poe does not claim it was).
As to the first argument, dictionary or no, it is not true that a superseding indictment
“replaces” the previous indictment in the sense of nullifying it. Many courts have held, primarily
in the context of double-jeopardy arguments, that “a superseding indictment does not nullify an
original indictment,” and “the issuance of a superseding indictment does not terminate the
original jeopardy.” United States v. Flores-Perez, 646 F.3d 667, 671 (9th Cir. 2011) (After a
mistrial, a superseding indictment retained the original charge and added more, which did not
place the defendant in jeopardy again for the same crime because jeopardy was not terminated
when the indictment was superseded). An indictment remains valid until the court grants a

106
App.000193

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 107 of 114 PageID #:26454

motion to dismiss it; it is not the case that “a superseding indictment instantaneously nullifies the
original indictment.” United States v. Vavlitis, 9 F.3d 206, 209 (1st Cir. 1993) (holding that first
indictment was still in effect when in mid-trial government, having failed to arraign on the
superseding indictment, dismissed it); see United States v. Bowen, 946 F.2d 734, 736 (10th Cir.
1991) (finding “no authority” for notion “that a superseding indictment zaps an earlier
indictment to the end that the earlier indictment somehow vanishes into thin air”). A
“superseding indictment” is simply “a second indictment issued in the absence of a dismissal of a
prior indictment” and “may be returned at any time before a trial on the merits of an earlier
indictment.” Bowen, 946 F.2d at 736. The original indictment remains pending prior to trial,
even after the filing of a superseding indictment, unless the original indictment is formally
dismissed. United States v. Yielding, 657 F.3d 688, 703 (8th Cir. 2011). Absent Speedy Trial
issues, the superseding indictment and the original indictment can co-exist. United States v.
Walker, 363 F.3d 711, 715 (8th Cir. 2004).
Ford has no argument to be made that he was prejudiced by standing trial on the
Superseding Indictment simply because the Second Superseding Indictment existed. The
government did not move to, and this Court did not, dismiss the Superseding Indictment at any
time. And the Second Superseding Indictment had nothing to do with Ford.
Ford contends he was prejudiced because “an adverse jury verdict absent proper
indictment constitutes significant harm.” Reply 4, ECF No. 1214. But, again, there was a “proper
indictment” against Ford. He was arraigned on the Superseding Indictment and pleaded not
guilty to it. The charges against him were never dismissed, and as already explained, they did not
evaporate because the government superseded against another defendant as to a count that Ford
was never charged in.

107
App.000194

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 108 of 114 PageID #:26455

b.

Additional Findings in Violation of “Categorical Approach” and
under Abolished Illinois Law

Ford took issue, along with other defendants, with the submission of special findings
against him where they were relevant to offenses as to which the Superseding Indictment and the
Notice of Special Findings did not implicate him by name. That issue is addressed above, see
Section I-A-3, supra. Ford’s additional arguments are, first, that the Court failed to use the
“categorical approach” to defining the state-law racketeering acts in the Instructions for the
Additional Findings, and, second, that the findings made against him are aggravating factors that
were repealed by the State of Illinois when it abolished the death penalty.
The second argument is patently silly and it is difficult to believe that it is advanced
seriously by Ford’s counsel, who regularly practice in the state criminal courts. It is true that the
aggravating factors in 720 ILCS 5/9-1(b) were grounds upon which a death sentence “may” be
imposed, before Illinois abolished that penalty in 2011, see 725 ILCS 5/119-1. But it was never
understood that those factors pertained only to the death penalty. They applied to all cases of firstdegree murder (they are housed within the statute prescribing the elements of that offense.)

Ford does not cite a single case from the State of Illinois even suggesting that the
aggravating sentencing factors for first-degree murder are invalid now that the ultimate penalty
has been abolished by the State. Those aggravators continue to apply to cases in which penalties
short of death are sought—indeed, they are the only mechanism for obtaining a term of natural
life in prison, a penalty that the State has decidedly not repealed. As the Illinois Appellate Court
recently explained in reviewing a defendant’s first-degree murder sentence:
First degree murder (see 720 ILCS 5/9–1(a)(1) (West 2008)) is ordinarily
punishable by 20 to 60 years' imprisonment. 730 ILCS 5/5–4.5–20(a)(1) (West
Supp.2009). A defendant is eligible for an extended term of 60–100 years (730
ILCS 5/5–4.5–20(a)(2), 5–8–2 (West Supp.2009)) or natural life (730 ILCS 5/5–
8–1(a)(1)(b) (West Supp.2009)) if he commits the murder with one of the
aggravating factors set forth in section 9–1(b) of the Criminal Code of 1961 (720
108
App.000195

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 109 of 114 PageID #:26456

ILCS 5/9–1(b) (West 2008)). In this case, the jury found defendant guilty of
committing the murder in a “cold, calculated, and premeditated manner” as set
forth in section 9–1(b)(11) of the Criminal Code. 720 ILCS 5/9–1(b)(11) (West
2008).
People v. Delaney, 2015 IL App (2d) 130573-U, ¶ 34. Indeed, Delaney specifically forecloses
the idea that aggravating factors were repealed along with the death penalty. In that case, the
State sought to lower its burden of proof because it was seeking “only” natural life and not the
death penalty, and the court rejected the argument “that the quantum of proof necessary to prove
the cold, calculated, and premeditated factor is somehow diminished where the accused faces an
extended prison term or natural life imprisonment instead of the death penalty.” Id. at ¶38.
Obviously, the court did not believe that the findings applied only to the death penalty, as Ford
now maintains. But this discussion gives Ford’s argument more attention than it deserves. There
is no reasonable dispute that the aggravating sentencing elements under Illinois law survived the
abolishment of the death penalty.
As for Ford’s argument about the “categorical approach,” he is simply wrong about how
the criminal RICO statute functions. Ford contends that, when “murder” is an alleged underlying
act of racketeering, the jury should be instructed only on a “generic” definition of the offense—
that is, one that ignores aggravating factors that increase the penalty for the crime. But that is
plainly not how the RICO statute is set up. As set forth repeatedly in this opinion, the provision
that determines the penalty for Ford’s conviction on Count One for violating § 1962(d), the
RICO conspiracy statute, is set forth in § 1963(a), which provides for a sentence of up to life
imprisonment “if the violation is based on a racketeering activity for which the maximum
penalty includes life imprisonment.” The term “racketeering activity,” in turn, is defined by
§ 1961(1) and, as relevant here, includes “any act or threat involving murder.” “Any act”
involving murder plainly includes aggravated forms of murder and defeats Ford’s argument,
109
App.000196

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 110 of 114 PageID #:26457

which explains why Ford cites no authority holding that only the penalty for “generic” murder
determines whether a RICO conviction carries with it the possibility of a life sentence. 59 Under
Illinois law, first degree murder does not carry a life sentence, but certain “acts involving” first
degree murder—that is to say, committing first degree murder “in a cold, calculated, and
premeditated manner pursuant to a preconceived plan, scheme, and design to take a human life
by unlawful means”—are punishable by life imprisonment. Where, as here, it is proven that a
RICO violation is based on such acts, that violation also carries a possible life sentence.
Ford’s reference to the maximum penalties under Illinois law for conspiracy to commit
murder is a total non-sequitur. It might be true that Ford conspired with one or more Hobos to
commit murder, but that has nothing to do with the federal charge that he conspired to violate
RICO through a pattern of racketeering activity that included murder. The penalty for state-law
conspiracy has nothing to do with this case. The only penalty provision that applies to Count One
is § 1963(a), which provides for a sentence of “life if the violation is based on a racketeering

59

Ford’s citation to a manual on criminal RICO for federal prosecutors is not, of course,
authoritative, but in any event it provides no support for his argument. The point set out there is
that, notwithstanding variations in terminology among state statutes, the meaning of the generic
descriptions of racketeering activity set forth in § 1961(1) are to be limned by reference to “the
prevailing definition of the offense” as reflected in federal and state statutes, the Model Penal
Code, and similar resources. That is a far cry from saying, as Ford does, that a particular state’s
decision about where to place a baseline definition of “murder” in its statutory homicide scheme
(or its failure to use the term “murder” within that scheme) is determinative of the penalty that
may be imposed for a violation of the RICO statute. Indeed, contrary to Ford’s argument, the
need to apply a “generic” definition of murder means that a state’s labels are not determinative.
The penalty for a violation of RICO in a state that started its statutory homicide scheme with a
base level defining “murder” as any act that results in the death of another human being, and that
carried a maximum sentence of two years, would not preclude the imposition of a life sentence
for a RICO violation that was based on conduct that would meet the “generic” definition of
murder simply because the state decided to call that act something other than “murder.” And in
any event, because RICO defines the racketeering act as “any act involving murder,” even if the
state label were determinative, an aggravated murder is “an act involving murder,” and so
qualifies for life imprisonment if the state provides such a sentence for that act, whatever it is
called.
110
App.000197

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 111 of 114 PageID #:26458

activity for which the maximum penalty includes life imprisonment.” Ford’s violation of RICO
was conspiring to violate RICO. The violation, i.e., the conspiracy, was based upon racketeering
acts for which the maximum penalty includes life imprisonment, namely, the offense of murder
in a cold, calculated, and premeditated way within the meaning of Illinois law, as charged in
Count One. And as previously noted, whether Ford personally murdered anyone or not is beside
the point.
Finally, Ford also mounts a challenge to the constitutionality of the RICO statute. See
Mot. 8, ECF No. 1184, Reply 11, ECF No. 1214. It consists of one sentence: “Because murder
statutes vary between states, and the RICO law is silent as to a definition of murder – including
whether it includes differing degrees of murder or whether it is the generic form of murder
versus murder with enhancements – the statute is impermissibly vague and violates due process.”
The Court will be equally concise: the argument is waived for failure to develop it or cite any
authority.
c.

Right to Plead Guilty

Ford’s attempt to plead guilty to Count One of the Superseding Indictment was recounted
at the outset of this opinion. See pp. 4-5, supra. Ford now argues: “The court did not allow him
to plead because there was uncertainty as to the statutory maximum penalties, or so the court
believed. Defendant should have been allowed to plead guilty because the statutory maximum,
and the appropriate penalty for guilty plea admonishments, was 20 years.” Ford Mot. 12, ECF
No. 1184. Ford’s cursory argument rests on a premise that he failed to establish, namely, that it is
impossible for him to have been sentenced to more than 20 years’ imprisonment for the crime of
conspiring to violate RICO, where the conspiracy involved murders as acts of racketeering. For
reasons already explained, that premise is wrong.

111
App.000198

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 112 of 114 PageID #:26459

In any case, however, this Court did not prevent Ford from pleading guilty. To accept a
guilty plea, the Court must (among other things) determine that the plea is knowing and
voluntary; that requires the Court to ensure that the defendant knows what the maximum possible
punishment that could be imposed based on the plea of guilty would be. Ford, however, refused
to acknowledge the possibility that a life sentence could be imposed based on his conviction on
Count One. The Court would not accede to Ford’s attempt to escape the potential maximum
penalty by declining to acknowledge it. He could have done what Stanley Vaughn did and make
a plea declaration with no promise in return, but Ford did not want to risk losing his chance of
outright acquittal if he was wrong about the maximum penalty. With the erroneous belief that he
would be waiving an argument about his maximum sentence if he entered a plea after being
admonished that life imprisonment was possible, he declined to enter a plea. Counsel stated:
“[w]e cannot go forward, at least today.” Tr. 8, ECF No. 1198. As a result, Ford suffered no
prejudice. He was found guilty at trial rather than by plea; he loses nothing there (he does not
claim that the possible loss of a credit for acceptance of responsibility under the Sentencing
Guidelines was a due-process violation and in view of the guideline range likely to be applicable
to Ford—above the maximum offense level of 43, a reduction for acceptance of responsibility
would have no effect on the range). And he has preserved his argument that he cannot be
sentenced to life. As Ford has no due-process right to the sentence of his choice if the law
permits a greater one, Ford’s constitutional rights were not violated.
G.

D. Vaughn’s Assertions of Error

Defendant Vaughn does not point to any specific errors require a new trial. He reasserts
every issue raised in writing or orally by motion or objection before and during trial, incorporates
his co-defendants’ arguments as applicable to him. Because Vaughn identifies no specific errors,

112
App.000199

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 113 of 114 PageID #:26460

nor explains how he was prejudiced before the jury, no more needs to be said about his new-trial
motion.
H.

Cumulative Errors

Most defendants also seek new trials based on the principle that, even if an individual
error does not require the granting of a new trial, the cumulative effect of multiple errors might.
This is not such a case.
To make the case for a new trial based on cumulative errors, a defendant must
demonstrate that at least two errors were committed in the course of the trial and that, when they
are considered together along with the entire record, the multiple errors so infected the jury's
deliberation that they denied the defendant a fundamentally fair trial. See United States v.
Briseno, 843 F.3d 264, 275 (7th Cir. 2016); United States v. Tucker, 714 F.3d 1006, 1017 (7th
Cir. 2013).
The defendants have in many instances pointed out “error” without making a case that it
had any prejudicial effect, and no defendant has made a persuasive case that the trial was
“fundamentally unfair.” Even if this Court is wrong about any error(s) committed over the course
of the trial, no defendant was so prejudiced by an accumulation of error that it would be a
miscarriage of justice to allow the verdicts to stand nonetheless.

113
App.000200

Case: 1:13-cr-00774 Document #: 1304 Filed: 08/08/17 Page 114 of 114 PageID #:26461

*

*

*

Because the jury’s General Verdicts and Additional Findings are supported by sufficient
evidence, and no defendant has raised an error that necessitates a new trial in the interests of
justice, each defendant’s motions for judgment of acquittal and for a new trial are denied. The
jury’s verdicts stand, and sentencing will proceed.

John J. Tharp, Jr.
United States District Judge

Date: August 8, 2017

114
App.000201

Appendix D

Case: 1:13-cr-00774 Document #: 784 Filed: 09/06/16 Page 1 of 3 PageID #:6824

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
GREGORY CHESTER, et al.
Defendants.

)
)
)
)
)
)
)
)
)

No. 13 CR 00774
Judge John J. Tharp, Jr.

ORDER
As explained in open court on 9/2/2016 and further in the Statement below, the motion of
defendant Arnold Council to dismiss Count Seven of the Superseding Indictment [766] is denied.
STATEMENT
After seeking and obtaining leave of Court, Defendant Arnold Council moved to dismiss
Count Seven of the Superseding Indictment. Mot. to Dismiss, ECF No. 766. Count Seven
charges Council with a violation of 18 U.S.C. § 924(c)(1)(A) & 2 by carrying and brandishing a
firearm during in relation to a “crime of violence,” namely “robbery affecting commerce in
violation of” 18 U.S.C. § 1951(a)—i.e. Hobbs Act robbery. Superseding Indictment 22, ECF No.
169. Under § 1951(b), “robbery” under the Hobbs Act means “the unlawful taking or obtaining
of personal property from the person or in the presence of another, against his will, by means of
actual or threatened force, or violence, or fear of injury, immediate or future, to his person or
property, or property in his custody or possession, or the person or property of a relative or
member of his family or of anyone in his company at the time of the taking or obtaining.”
Council argues that Hobbs Act robbery is not categorically a crime of violence, and
therefore cannot be the predicate for the § 924(c) charge. There are two ways a crime can be a
“crime of violence” for purposes of § 924(c): under the so-called “force” clause of
§ 924(c)(3)(A) or under the so-called “residual” clause of § 924(c)(3)(B).
In Johnson v. United States, 135 S. Ct. 2551 (2015), the Supreme Court struck down as
unconstitutionally vague the residual clause of the definition of “violent felony” under the
Armed Career Criminal Act. The Seventh Circuit has extended Johnson to 18 U.S.C. § 16(b),
which is another “crime of violence” definition with a very similar residual clause to 924(c)’s.
USA v. Vivas-Ceja, 808 F.3d 719, 723 (7th Cir. 2015). Very recently, the Seventh Circuit also
applied Johnson to hold that the residual clause in § 4B1.2(a)(1) of the Sentencing Guidelines
(defining “crime of violence”) is unconstitutionally vague under Johnson. United States v.
Hurlburt, No. 14-3611, 2016 WL 4506717, at *7 (7th Cir. Aug. 29, 2016).

App.000202

Case: 1:13-cr-00774 Document #: 784 Filed: 09/06/16 Page 2 of 3 PageID #:6825

Relying on Johnson and the cases it has since spawned, Council argues that Hobbs Act
robbery cannot be the predicate for the alleged violation of § 924(c) that the government has
charged. Council contends that the residual clause of § 924(c)(3)(B)—which defines a crime of
violence as a felony “that by its nature, involves a substantial risk that physical force against the
person or property of another may be used in the course of committing the offense”—is, like the
residual clause of the Armed Career Criminal Act that was invalidated in Johnson,
unconstitutionally vague. Therefore, he argues, the robbery cannot be the predicate if it qualifies
only under the residual clause.
The Seventh Circuit has not yet extended Johnson to § 924(c). At least one court in this
District has. United States v. Coleman, No. 14 CR 664, 2016 WL 1435696, at *1 (N.D. Ill. Apr.
12, 2016). In that case, the parties agreed “that section 924’s residual clause is unconstitutionally
vague in light of the Supreme Court's holding in Johnson.” Id. at *1. Having made that
concession in Coleman, the government presumably will not about-face in this case, but in any
event, this Court agrees that the residual clause of § 924(c)(3)(B) cannot survive Johnson and the
Seventh Circuit’s applications of its rule.
Council further contends that Hobbs Act robbery is also not categorically a crime a
violence under the “force clause” of § 924(c)(3)(A), which refers to a felony that “has as an
element the use, attempted use, or threatened use of physical force against the person or property
of another.” Therefore, he argues, the charge in Count Seven fails altogether.
As Council argues, under Supreme Court precedent, an elements-centric categorical
approach applies to the inquiry of whether charged conduct is a “crime of violence”; this Court
cannot look at facts of the underlying offense, just the elements of the offense. See Descamps v.
United States, 133 S. Ct. 2276, 2283 (2013); Taylor v. United States, 495 U.S. 575, 600, 110 S.
Ct. 2143, 2159, 109 L. Ed. 2d 607 (1990) 1 Appling that approach, Council argues that the force
clause does not apply because a § 1951 robbery can be accomplished by placing a victim in fear
of future injury to person or property, which does not inherently involve a threat of violent
physical force and, further, does not require an intentional threat.
No federal appellate court including the Seventh Circuit has held that Hobbs Act robbery
is not a crime of violence for purposes of § 924(c)’s “force” clause. Many appellate and district
courts have held to the contrary. Recently, the Second and the Ninth Circuits ruled that Hobbs
Act robbery is categorically a crime of violence, rejecting the same kinds of arguments that
Council raises. See United States v. Hill, No. 14-3872-CR, 2016 WL 4120667, at *7 (2d Cir.
Aug. 3, 2016); United States v. Howard, No. 15-10042, 2016 WL 2961978, at *1 ((9th Cir. May
1

Not all courts agree that this standard applies to a pre-trial motion to dismiss. See, e.g.,
United States v. McCallister, No. CR 15-0171 (ABJ), 2016 WL 3072237, at *7 (D.D.C. May 31,
2016) (“Because the categorical approach does not apply to a pre-trial motion to dismiss a count
of an indictment, and because the indictment makes clear that the Hobbs Act robbery charged in
this case qualifies as a predicate crime of violence under 18 U.S.C. § 924(c)(3)(A), defendant's
motion to dismiss Count Two of the indictment is denied.” The question has not been presented
to the Court by arguments of the parties, and so it does not wade further into this issue.

2

App.000203

Case: 1:13-cr-00774 Document #: 784 Filed: 09/06/16 Page 3 of 3 PageID #:6826

23, 2016), as amended (June 24, 2016)). The same result was reached in Coleman: “This Court
agrees that the ‘fear of injury’ language in the Hobbs Act describes fear of injury created through
the use or threatened use of violent physical force.” 2016 WL 1435696, at *2. Arguments
mirroring Council’s (fear of injury; unintentional threats) were raised and rejected other district
court cases as well. E.g., United States v. McCallister, No. CR 15-0171, 2016 WL 3072237, at
*7 (D.D.C. May 31, 2016) (collecting post- Johnson cases). The Court finds these cases
persuasive and also concludes that the use or threat of force required to sustain a Hobbs Act
robbery conviction “involves a substantial risk that physical force against the person or property
of another may be used in the course of committing the offense,” as required for conviction
under § 924(c)(3)(A).
The authorities Council cites, see Mot. to Dismiss 13-14, ECF No. 766, do not address
Hobbs Act robbery and are not persuasive in light of the weight of federal authority on the
question presented here. In keeping with these authorities, this Court concludes that Hobbs Act
robbery is a “crime of violence” under the force clause of § 924(c)(3)(A) and therefore is a
permissible predicate to the charge lodged in Count Seven. Accordingly, Council’s motion is
denied.

John J. Tharp, Jr.
United States District Judge

Date: September 6, 2016

3

App.000204

Appendix E

Case: 1:13-cr-00774 Document #: 1200 Filed: 05/05/17 Page 23 of 50 PageID #:23730
23
1

to prevent someone in testifying in the very murder case that

2

they're now on trial for.

3

quite logical because you can't kill somebody to prevent them

4

from testifying at the murder --

5

THE COURT:

6

MR. GREENBERG:

7

THE COURT:

Part of the reason for that is

This has all been briefed, Mr. Greenberg.
Okay.

I have read the briefs.

I will issue my

8

opinion.

And as I said, I don't think there's anything

9

inconsistent with the new superseding -- second superseding

10

indictment as to Mr. Poe that is going to affect my ruling.

11

If I'm wrong, I'll hear about it in due course.

12

MR. GREENBERG:

13

THE COURT:

All right.

Maybe not.

All right.

We do -- obviously, we do

14

need to arraign Mr. Poe on the second superseding indictment,

15

which I will use as the occasion to say I do want all

16

defendants here on Tuesday morning at 10:00 o'clock, no

17

waivers of appearance on Tuesday morning.

18

be present in court to proceed.

19

at that time.

20

Okay.

All right.

All defendants must

And we'll do the arraignment

We have Mr. Council's motion to

21

dismiss Count 7, which is the argument predicated on Johnson

22

versus United States which found that the residual clause of

23

the Armed Career Criminal Act was unconstitutionally vague.

24

The argument here is predicated on similar language in

25

924(c)(3)(A) because there is a residual clause, for lack of a

App.000205

Case: 1:13-cr-00774 Document #: 1200 Filed: 05/05/17 Page 24 of 50 PageID #:23731
24
1

better term, in that statute as well.

2

Maybe there's some debate or not as to whether that

3

residual clause is invalid or unconstitutionally vague

4

following the rationale of Johnson.

5

spend a lot of time worrying about that because the Hobbs

6

robbery act also includes -- defines a crime of violence as a

7

felony that by its nature -- excuse me.

8

paragraph.

9

I don't think we need to

I'm in the wrong

The Hobbs Act has a use of force clause which has

10

been universally and uniformly construed by federal courts to

11

include as an element the use, attempted use, or threatened

12

use of physical force against the person or property of

13

another.

14

district court cases including Judge Coleman next door in

15

United States/Coleman which is a case that the defendants rely

16

on for the proposition that the residual clause in the 924(c)

17

statute is too vague, that case, Judge Coleman came out,

18

nevertheless, that the Hobbs Act case under a categorical

19

approach does include the use of force against another.

20

those cases, I think, are persuasive to me, and on the

21

basis -- and I agree with their analysis.

22

And the Second Circuit, the Ninth Circuit, numerous

And

I will issue a written opinion setting it out in more

23

detail, but given the hour where we are, I wanted to make

24

clear that the ruling with respect to Count 7, it's the motion

25

that that should be invalidated under Johnson, will be denied.

App.000206

Case: 1:13-cr-00774 Document #: 1200 Filed: 05/05/17 Page 25 of 50 PageID #:23732
25
1

So you can -- that will be part of the indictment that we

2

commence trial on on Wednesday.

3

All right.

There are other motions that I am not

4

prepared to rule on.

We have the -- well, that statement is

5

true as far as it goes, but before we get to those, the motion

6

to sever based on the Bruton issue as to Mr. Chester's

7

statements, I don't believe as a practical matter that

8

severance will be required.

9

by redaction by limiting the scope of the questioning and

Most such problems can be cured

10

avoiding barring the elicitation of testimony that would

11

implicate others or barring the elicitation of a recounting of

12

the statements that in any way implicates others.

13

At least at the time that the motion was filed, it

14

appears that it's not clear or the government hadn't indicated

15

what its intent was or what aspects of the statement it was

16

seeking to admit.

17

dialogue on that point.

I don't know if there has been any further

18

MR. OTLEWSKI:

19

THE COURT:

20

MR. OTLEWSKI:

There hasn't yet.

Okay.
We intend to send over a redacted

21

version of the report that would identify the areas and the

22

topics that the government would seek to elicit in its case in

23

chief and hopefully, we'll be able to work something out with

24

defense counsel.

25

THE COURT:

All right.

So again, as a severance

App.000207

Appendix F

Case: 17-2854

Document: 178

Filed: 02/01/2021

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
February 1, 2021
Before
DIANE S. SYKES, Chief Judge
DIANE P. WOOD, Circuit Judge
AMY J. ST. EVE, Circuit Judge

Nos. 17‐2854, 17‐2858, 17‐2877, 17‐2899, 17‐2917, 17‐2918 & 17‐2931
UNITED STATES OF AMERICA,
Plaintiff‐Appellee,
v.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.

GREGORY CHESTER, et al.,
Defendants‐Appellants.

Nos. 13 CR 288 & 13 CR 774
John J. Tharp, Jr.,
Judge.

ORDER
Defendants‐appellants filed a petition for rehearing and rehearing en banc on
November 30, 2020. No judge1 in regular active service has requested a vote on the
petition for rehearing en banc, and all members of the original panel have voted to deny
panel rehearing. The petition for rehearing en banc is therefore DENIED.

1

Judge Michael Y. Scudder did not participate in the consideration of this matter.

App.000208

